<html>
<title> - MEMBER DAY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                               MEMBER DAY

=======================================================================


                                HEARING

                               BEFORE THE

                        SELECT COMMITTEE ON THE
                             CLIMATE CRISIS
                             
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           NOVEMBER 14, 2019

                               __________

                           Serial No. 116-14



           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            www.govinfo.gov
Printed for the use of the Select Committee on the Climate Crisis

                              __________


                U.S. GOVERNMENT PUBLISHING OFFICE
   
39-860                 WASHINGTON : 2020
   
   
   

   
                 SELECT COMMITTEE ON THE CLIMATE CRISIS

                      One Hundred Sixteenth Congress

                      KATHY CASTOR, Florida, Chair
BEN RAY LUJAN, New Mexico            GARRET GRAVES, Louisiana,
SUZANNE BONAMICI, Oregon               Ranking Member
JULIA BROWNLEY, California           MORGAN GRIFFITH, Virginia
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD McEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado

                              ----------                              

                Ana Unruh Cohen, Majority Staff Director
                  Marty Hall, Minority Staff Director
                        climatecrisis.house.gov
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              

                   STATEMENTS OF MEMBERS OF CONGRESS

                                                                   Page
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, and Chair, Select Committee on the Climate Crisis:
    Opening Statement............................................ 1, 13
Hon. Gilbert ``Gil'' Cisneros, a Representative in Congress from 
  the State of California, prepared statement, submitted for the 
  record by Ms. Castor...........................................     1
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, prepared statement, submitted for the record by 
  Ms. Castor.....................................................     3
Hon. Adriano Espaillat, a Representative in Congress from the 
  State of New York, prepared statement, submitted for the record 
  by Ms. Castor..................................................     4
Hon. Paul Gosar, a Representative in Congress from the State of 
  Arizona, prepared statement, submitted for the record by Ms. 
  Castor.........................................................     5
Hon. Debra ``Deb'' Haaland, a Representative in Congress from the 
  State of New Mexico, prepared statement, submitted for the 
  record by Ms. Castor...........................................     7
Hon. Andrew ``Andy'' Levin, a Representative in Congress from the 
  State of Michigan, prepared statement, submitted for the record 
  by Ms. Castor..................................................     8
Hon. Elaine G. Luria, a Representative in Congress from the State 
  of Virginia, prepared statement, submitted for the record by 
  Ms. Castor.....................................................     9
Hon. Markwayne Mullin, a Representative in Congress from the 
  State of Oklahoma, prepared statement, submitted for the record 
  by Ms. Castor..................................................    11
Hon. Robert ``Bobby'' Scott, a Representative in Congress from 
  the State of Virginia, prepared statement, submitted for the 
  record by Ms. Castor...........................................    12
Hon. Haley Stevens, a Representative in Congress from the State 
  of Michigan, prepared statement, submitted for the record by 
  Ms. Castor.....................................................    13

                               WITNESSES

Hon. Lauren Underwood, a Representative in Congress from the 
  State of Illinois
    Oral Statement...............................................    14
    Prepared Statement...........................................    16
Hon. Betty McCollum, a Representative in Congress from the State 
  of Minnesota
    Oral Statement...............................................    17
    Prepared Statement...........................................    19
Hon. Susan Davis, a Representative in Congress from the State of 
  California
    Oral Statement...............................................    20
    Prepared Statement...........................................    22
Hon. Nanette Diaz Barragan, a Representative in Congress from the 
  State of California
    Oral Statement...............................................    23
    Prepared Statement...........................................    24
Hon. Ted W. Lieu, a Representative in Congress from the State of 
  California
    Oral Statement...............................................    25
    Prepared Statement...........................................    27
Hon. Cheryl ``Cheri'' Bustos, a Representative in Congress from 
  the State of Illinois
    Oral Statement...............................................    29
    Prepared Statement...........................................    30
Hon. Theodore ``Ted'' Deutch, a Representative in Congress from 
  the State of Florida
    Oral Statement...............................................    31
    Prepared Statement...........................................    33
Hon. Thomas ``Tom'' Reed, a Representative in Congress from the 
  State of New York
    Oral Statement...............................................    34
    Prepared Statement...........................................    36
Hon. Barbara Lee, a Representative in Congress from the State of 
  California
    Oral Statement...............................................    37
    Prepared Statement...........................................    38
Hon. Marcia ``Marcy'' Kaptur, a Representative in Congress from 
  the State of Ohio
    Oral Statement...............................................    39
    Prepared Statement...........................................    41
Hon. Donald ``Don'' Beyer, a Representative in Congress from the 
  State of Virginia
    Oral Statement...............................................    43
    Prepared Statement...........................................    45
Hon. Dean Phillips, a Representative in Congress from the State 
  of Minnesota
    Oral Statement...............................................    46
    Prepared Statement...........................................    48
Hon. Derek Kilmer, a Representative in Congress from the State of 
  Washington
    Oral Statement...............................................    49
    Prepared Statement...........................................    51
Hon. Peter DeFazio, a Representative in Congress from the State 
  of Oregon
    Oral Statement...............................................    53
    Prepared Statement...........................................    54
Hon. Bradley ``Brad'' Schneider, a Representative in Congress 
  from the State of Illinois
    Oral Statement...............................................    57
    Prepared Statement...........................................    59
Hon. Scott Peters, a Representative in Congress from the State of 
  California
    Oral Statement...............................................    60
    Prepared Statement...........................................    62
Hon. Cynthia ``Cindy'' Axne, a Representative in Congress from 
  the State of Iowa
    Oral Statement...............................................    63
    Prepared Statement...........................................    65
Hon. Paul D. Tonko, a Representative in Congress from the State 
  of New York
    Oral Statement...............................................    67
    Prepared Statement...........................................    69
Hon. Donna Shalala, a Representative in Congress from the State 
  of Florida
    Oral Statement...............................................    70
    Prepared Statement...........................................    72
Hon. Gregory ``Greg'' Stanton, a Representative in Congress from 
  the State of Arizona
    Oral Statement...............................................    73
    Prepared Statement...........................................    75
Hon. Chellie Pingree, a Representative in Congress from the State 
  of Maine
    Oral Statement...............................................    76
    Prepared Statement...........................................    78
Hon. Kimberly ``Kim'' Schrier, a Representative in Congress from 
  the State of Washington
    Oral Statement...............................................    79
    Prepared Statement...........................................    80
Hon. Joseph ``Joe'' P. Kennedy III, a Representative in Congress 
  from the State of Massachusetts
    Oral Statement...............................................    81
    Prepared Statement...........................................    83
Hon. Harley Rouda, a Representative in Congress from the State of 
  California
    Oral Statement...............................................    84
    Prepared Statement...........................................    85
Hon. Debbie Mucarsel-Powell, a Representative in Congress from 
  the State of Florida
    Oral Statement...............................................    86
    Prepared Statement...........................................    87
Hon. Tomasz ``Tom'' Malinowski, a Representative in Congress from 
  the State of New Jersey
    Oral Statement...............................................    88
    Prepared Statement...........................................    90

                       SUBMISSIONS FOR THE RECORD

Report, Report on Effects of a Changing Climate to the Department 
  of Defense, submitted for the record by Ms. Castor.............    19
Report, An Assessment of the Energy Innovation and Carbon 
  Dividend Act, submitted for the record by Ms. Castor...........    32
Support Document, ``New Democrat Coalition Endorsed 
  Legislation,'' submitted for the record by Ms. Castor..........    51




 
                               MEMBER DAY

                               ----------                              


                      THURSDAY, NOVEMBER 14, 2019

                     U.S. House of Representatives,
                    Select Committee on the Climate Crisis,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:14 p.m., in Room 
1300, Longworth House Office Building, Hon. Kathy Castor 
[chairwoman of the committee] presiding.
    Present: Representatives Castor, Casten, Graves, Griffith, 
and Carter.
    Ms. Castor. The Select Committee on the Climate Crisis will 
now come to order.
    Today, we are holding a Member Day to hear from our 
colleagues on both sides of the aisle about their best ideas to 
solve the climate crisis, including specific pieces of 
legislation that they have introduced.
    We have offered Members who are unable to appear today the 
opportunity to submit a written statement to the committee no 
later than November 21st. I ask unanimous consent that these 
statements be made part of the hearing record, without 
objection.
    [The statements follow:]
                              ----------                              


                       Submissions for the Record

                      Representative Kathy Castor

                 Select Committee on the Climate Crisis

                           November 14, 2019

         Written Testimony of the Hon. Gilbert ``Gil'' Cisneros

       A Representative in Congress from the State of California

Submitted to the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Chairwoman Castor, Ranking Member Graves, and members of the House 
Select Committee on the Climate Crisis, thank you for allowing me this 
opportunity to provide testimony on behalf of the residents of 
California's 39th Congressional District on the critical need to reduce 
greenhouse gas pollution and ensure our communities are resilient to 
the impacts of climate change. In my district, as across the nation and 
around the world, we are seeing more and more examples of the immediacy 
of this crisis and its harmful effects on our communities.
    Just last month, brush fires in Yorba Linda, Brea, Fullerton, and 
across my district sparked fear, widespread power outages, and poor air 
quality for my constituents. As the world continues to warm, wildfires 
are expected to get bigger and more frequent and the science is not in 
our favor. Earlier this year, a report by the Union of Concerned of 
Scientists projected that without climate action, the annual number of 
heat-index days at 90 degrees or higher in Orange County will increase 
by 300% by mid-century and over 600% by 2099.
    It is our responsibility in Congress to lead our country and the 
larger global community to move beyond partisanship and enact prudent 
solutions that improve lives and safeguard the future. To truly address 
the climate crisis, potential solutions need to be examined across 
every aspect of federal policymaking. I urge you to charge Congress 
with enacting legislation to (1) advance innovation in the energy 
sector to decrease our dependence on carbon; (2) support the deployment 
of green transportation infrastructure; (3) modernize Department of 
Defense policies to address the national security vulnerabilities of 
climate change; (4) help communities prevent climate disasters, rather 
than merely respond after the fact; and (5) preserve our natural 
resources and open spaces.
SUPPORT RENEWABLE ENERGY DEPLOYMENT
    I am a strong supporter of the bipartisan Energy Innovation and 
Carbon Dividend Act and urge this committee to closely examine the 
proposal. This legislation would put a price on carbon pollution, 
speeding our transition to a clean-energy economy by incentivizing 
conservation and innovation. It takes a market-based approach that 
doesn't grow the size of government, instead returning the revenue 
raised directly to households as a dividend. The bill projects 
reductions in carbon pollution of 90 percent by 2050, compared with 
2016 levels, while especially protecting the interests of those in the 
middle class and at the margins.
    Our tax code should incentivize clean energy use. Earlier this 
month, I joined my fellow members of the New Democrat Coalition, 
Sustainable Energy and Environment Coalition, and the Congressional 
Progressive Caucus in calling for prioritization of legislation to 
advance clean energy tax policies by the end of the year to help us 
attain our emissions reductions goal and combat climate change. Tax 
incentives to promote energy storage, zero emission vehicles, offshore 
wind, and energy efficiency are critical to promoting cleaner energy 
use among individuals and businesses.
ADVANCE GREEN TRANSPORTATION INITIATIVES
    I urge the Committee to support deployment of green transportation 
infrastructure, creating jobs while addressing climate change. In 2017, 
the transportation sector accounted for 29% of our nation's total 
emissions of 6.4 billion metric tons of carbon dioxide equivalent. 
Encouraging better emission vehicles and improved transit systems to 
reduce greenhouse gas emissions must be a component of your climate 
change plan.
    In California, we are already taking major steps towards addressing 
climate change in our transportation systems by requiring all public 
transit buses to switch from dirty diesel fuel to zero-emission 
technology. Transit agencies in my district have admirably fully 
embraced this challenge, navigating new logistical challenges for how 
to best install charging stations throughout their existing systems 
with limited financial and technical support from the federal 
government. I support H.R. 2164, the Green Bus Act, to help replicate 
this success nationwide but urge you to ensure increased federal 
support is available. If other communities are to follow California's 
lead, the federal government must play a leadership role in providing 
technical and financial assistance to ensure seamless deployment.
    While several car companies have made great strides to reduce 
greenhouse gas emissions through better fuel economy in their vehicles, 
more needs to be done. I was highly disappointed with the President's 
decision to abandon the Corporate Average Fuel Economy (CAFE) for model 
years 2021 to 2025. These regulations were carefully negotiated with 
manufacturers, labor, and environmental groups to reduce pollution and 
spur innovation within the industry. I support legislation, H.R. 978, 
the Clean and Efficient Cars Act of 2019, to preserve these fuel 
economy and vehicle emission standards that reduce greenhouse gas 
emissions and save drivers money at the pump.
DEFENSE
    We must protect our nation's foreign policy interests and those of 
our military. As the Pentagon's own reports consistently confirm, the 
effects of a changing climate are a national security issue. Climate 
change makes our military bases more vulnerable and missions more 
complicated. That's why I worked to secure a provision in the House-
approved Fiscal Year 2020 National Defense Authorization Act directing 
the Department of Defense to explore the possibility of maintaining 
plug-in hybrid and electric government vehicle fleets on military 
installations. It also directs the Pentagon to consider building 
microgrid infrastructure to support green vehicles and secure systems 
to support them.
    I also support legislation H.R. 1201, Climate Change National 
Security Act, which would restore directives on national security and 
climate change requiring the federal government to consider the impacts 
of climate change in the development of relevant national security 
policies. Further, I support H.R. 2759, Department of Defense Climate 
Resiliency & Readiness Act, which would direct the Department of 
Defense to take a number of steps to make the Department more climate 
resilient, including establishing key benchmarks for energy goals, 
increasing transparency in contracting, and directing Departmental 
focus on climate and resiliency.
PREVENT CLIMATE DISASTERS
    Like many states, California has been directly impacted by the 
devastating natural disasters exacerbated by climate change. Millions 
of dollars are spent fighting intensifying blazes during our now year-
round fire season in California. We must invest in research nationwide 
on fire-related issues to advance seasonal wildfire forecasts, but also 
help forestry agencies prepare for wildfire events to mediate their 
devastating effects. I support legislation like H.R. 4924, the Smoke 
Planning and Research Act, to help state and local governments protect 
their communities from the public risks of wildfire smokes.
PRESERVE OUR NATURAL RESOURCES AND OPEN SPACES
    We must prioritize the conservation of our public natural lands. 
Protection of our natural lands is a win for both the environment and 
for the reduction of greenhouse gases, as national parks, forests, and 
other public lands have been valued for their ability to absorb and 
store carbon and other air pollutants.
    This is why I support H.R. 3195, the Land and Water Conservation 
Fund Permanent Funding Act, which would provide for permanent funding 
dedicated to the Land and Water Conservation Fund to protect 
conservation funds.
    Thank you again for your time and consideration. I know you have a 
tough job ahead of you and I hope you will keep my testimony on behalf 
of my constituents in California's 39th Congressional District in mind 
as you recommend policies to advance as it relates to our nation's 
strategy in combating climate change.

              Written Testimony of the Hon. Anna G. Eshoo

       A Representative in Congress from the State of California

Submitted to the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Thank you, Chair Castor and Ranking Member Graves, for the 
opportunity to testify at the Member Day hearing of the Select 
Committee on the Climate Crisis. I appreciate your invitation to 
contribute to your important work as you work toward solutions to the 
existential threat of climate change.
    While there is no denying the scientific consensus that human 
activity is driving climate change, it is worth reviewing the facts to 
emphasize the scale of our challenge. The Intergovernmental Panel on 
Climate Change (IPCC) found that global temperatures are likely to rise 
1.5+C above pre-industrial levels between 2030 and 2052. This will have 
severe environmental impacts including a rise in sea levels, the loss 
of snow-pack, a thaw of the permafrost, higher ocean temperatures, 
increased ocean acidity, more intense hurricanes, stronger storms, 
longer droughts, and more severe flooding. If temperatures continue to 
rise to 2+C above pre-industrial levels, 50 million people will be 
displaced by rising sea levels; 350 million people will endure severe 
drought; and more than a billion people will experience extreme heat 
waves.
    The time for debate on the causes of climate change is over, and we 
have limited time to implement solutions. Fortunately, the Speaker 
tasked this Committee with recommending ``policies, strategies, and 
innovations to achieve substantial and permanent reductions in 
pollution and other activities that contribute to the climate crisis 
which will honor our responsibility to be good stewards of the planet 
for future generations.'' As you finalize your recommendations, I'd 
like to share a few principles to guide your work.
    First, any recommendations must be informed by science and 
proportionate to the scope of our challenges. The IPCC report estimates 
that in order to keep average temperatures from increasing beyond 
1.5+C, we need to reduce greenhouse gas emissions by 45 percent in the 
next decade and reach net zero emissions by 2050. This should be the 
benchmark for the Committee's work because established science should 
guide informed policy decisions.
    Second, while we should be ambitious in our goals, we must be 
pragmatic in how we achieve them which means embracing a broad range of 
policies to address the crisis. There are no silver bullets in climate 
policy. Tax credits and research backed by the federal government have 
led to the development of many forms of renewable energy, including 
some invented in my congressional district. As we continue to support 
renewable energy, we should also discourage the use of fossil fuels 
through a price on carbon, such as a carbon tax or cap and trade 
system. These complimentary policies are both necessary because relying 
on a narrow set of solutions will make it much harder to cut emissions 
before the science tells us it's too late.
    Finally, I encourage you to look to the example of states that have 
taken the lead on climate policy, including California. My state has 
adopted cap and trade, a low carbon fuel standard, a renewable 
portfolio standard, and a zero-emission vehicles mandate, among other 
policies. Thanks to these efforts, California hit its initial carbon 
reduction goals four years ahead of schedule while our economy 
continues to grow. Federal policy can learn from and improve upon these 
successes. The Committee should also ensure that action from the 
federal government, while sorely needed, does not constrain states and 
local governments that have led the way in reducing emissions.
    Thank you again for the opportunity to share these principles with 
you today. I look forward to your recommendations which I will take 
back to my committee, Energy and Commerce, as we write comprehensive 
legislation to address this existential threat. Our challenges are 
enormous, but we owe it to future generations to leave them a planet 
that is not greatly diminished from the one we have today.

            Written Testimony of the Hon. Adriano Espaillat

        A Representative in Congress from the State of New York

Submitted to the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Thank you for accepting our testimony, today, Madam Chair.
    Mitigating and adapting to climate change is the issue of our time. 
It is an existential problem, one that we have waited much too long to 
take seriously, and we are already paying the price for that. And it is 
frontline communities, communities of color, indigenous communities, 
women, children, migrants, people with disabilities, and other 
marginalized communities who bear the greatest burden, though they 
contribute the least to the causes of climate change. A recent study 
published in the Proceedings of the National Academy of Sciences of the 
United States of America makes this incredibly clear. It finds that 
Black and Hispanic individuals in the United States on average bear a 
``pollution burden'' of 56 percent and 63 percent excess exposure, 
respectively, relative to the exposure caused by their consumption.\1\ 
But I don't need statistics to know that air pollution in Washington 
Heights makes my grandson's asthma worse, and that it is not my 
neighbors in Washington Heights, Harlem, Inwood or the Bronx that are 
the greatest contributors to pollution that affects our health or 
contributes to climate change.
---------------------------------------------------------------------------
    \1\ Inequity in Consumption of Goods and Services Adds To Racial--
Ethnic Disparities in Air Pollution Exposure. Christopher Tessum-Joshua 
Apte-Andrew Goodkind-Nicholas Muller-Kimberley Mullins-David Paolella-
Stephen Polasky-Nathaniel Springer-Sumil Thakrar-Julian Marshall-Jason 
Hill--https://www.pnas.org/content/116/13/6001.
---------------------------------------------------------------------------
    When the House passed the Climate Action Now Act earlier this year, 
it included an amendment of mine that simply stated that climate 
justice and environmental justice must be included in our efforts to 
meet the Paris Agreement and mitigate and adapt to climate change. This 
must be a core tenet of all our policies to address climate change. 
Every law we pass, every action to mitigate and adapt to climate change 
must include acknowledgement of and protections for marginalized and 
frontline communities who bear the burden climate change. My 
predecessor, the great Adam Clayton Powell Jr., one of the great Civil 
Rights leaders, led his Powell Amendments to ensure federal funding did 
not support segregation. Environmental justice is my Powell Amendment, 
and I want to work with you to ensure that in every bill this House 
considers, environmental justice is upheld.
    We need serious investments to mitigate and adapt to climate 
change. But it will cost us more in the long-term if we do not act now, 
financially and existentially. By the time a child born today retires, 
2085, the U.S. will be spending $300 billion each year on climate 
resiliency. The time to invest is now. In fact, the time to invest was 
two decades ago, but here we are. We need serious investment in our 
infrastructure and our transportation systems. We need to invest in 
green roof technology and innovative urban agriculture to address not 
just the carbon emissions of the agricultural field, but to also 
address the intersectional issues of food security and climate change.
    I want to also recognize that climate change does not just require 
domestic commitments. Climate change is an international problem that 
requires international solutions. That is why I have introduced H.R. 
4986, the Green Climate Fund Authorization Act of 2019, which now has 
10 cosponsors and counting, in response to the Trump Administration 
formally announcing U.S. withdrawal from the Paris Agreement last week. 
The Green Climate Fund is an independent, multilateral fund established 
by the United Nations Framework Convention on Climate Change to help 
developing countries limit or reduce their greenhouse gas emissions and 
adapt to climate change. Developing counties have limited capacity to 
reduce their greenhouse gas emissions, and through the Green Climate 
Fund the U.S. can contribute our fair share enable mitigation and 
adaptation activities that uphold environmental justice around the 
globe. Because it is these exact nations that are also on the frontline 
of climate change, though they too contribute the least to its causes.

                Written Testimony of the Hon. Paul Gosar

         A Representative in Congress from the State of Arizona

Submitted to the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Madam Chair and Ranking Member, thank you for the opportunity to 
come before you today to present recommendations to move America 
forward creating a stronger more secure future. I am Rep. Paul Gosar 
and I represent the Fourth District of Arizona as well as the current 
Chairman of the Congressional Western Caucus.
    Regardless of your position on the issues before this Committee we 
all know that America will need to build more electricity generation 
and transmission and will face a greater demand for critical minerals 
and the land access that this development demands. In my testimony 
today I will highlight the challenges and opportunities that we face in 
bringing this energy future to fruition.
PLREDA
    The first bill I would like to highlight is my bill H.R. 3794, the 
Public Land Renewable Energy Development Act. Joining me supporting 
this bill are such radical conservatives as Rep. Jared Huffman and Rep. 
Raul Grijalva. Renewable energy sources like wind, solar and geothermal 
are an integral part of the United States' all-of-the-above energy 
strategy. Our nation's public lands can play a critical role in 
supporting that mission. While approximately 40% of total geothermal 
electric generating capacity comes from federal lands, only about 5% of 
total utility-scale wind energy capacity and utility-scale solar energy 
capacity comes from public lands. This bipartisan bill develops a 
streamlined process that will drive investment towards the highest 
quality renewable sources. This legislation uses upfront planning and 
careful siting to identify appropriate areas for wind, solar and 
geothermal energy. In addition, PLREDA incentivizes development in 
these lower-conflict priority areas, while ensuring impacts to 
wildlife, habitat and cultural resources are avoided and minimized. The 
bill also directs agencies to provide staffing resources to ensure 
project permitting moves forward as efficiently as possible.
    I would encourage committee members to join in support of this 
legislation and help us see it enacted soon.
TRANSMISSION AND GENERATION
    American demand for electricity is growing and everything from 
smart phones to electric cars will continue to increase our domestic 
demand for electricity. Recent efforts by cities and states to ban 
household use of natural gas will only exacerbate our demand for 
electricity. That demand growth will put increase pressure on our need 
for increased transmission capacity and the massive challenges of 
building significant new energy projects. As we have seen, poor 
environmental planning and maintenance can have devastating impacts on 
transmission particularly in rural areas susceptible to wildfires.
    Beyond that, the simple process of building and installing any new 
significant construction is riddled with massive challenges and 
problems. It is important to consider what it takes to build new 
transmission. I present a case from my home state, the SunZia Southwest 
Transmission Project consists of 520 miles of two single-circuit 500 kV 
transmission lines to connect and deliver electricity generated in 
Arizona and New Mexico to population centers in the Desert Southwest.
    This was a project built specifically to meet the demand for 
renewable energy from populations further West. In order to build these 
lines, the Bureau of Land Management (BLM), along with fourteen 
cooperating agencies, led the effort to comply with the National 
Environmental Policy Act (NEPA). That process started in 2008, was 
completed after a six and half year effort to comply with NEPA 
finalizing on January 23, 2015, when BLM issued a Record of Decision 
approving SunZia's application for a right-of-way across federally 
owned property. Again, a single transmission line, servicing only 
renewable energy needed nearly 7 years of environmental review under 
NEPA.
    But it isn't just transmission, pipelines in America are facing 
massive obstacles as well and construction and operation of more 
pipelines will be critical to a cleaner future. The prompt approval of 
pipelines for methane capture and distribution can prevent flaring and 
methane emissions while providing clean natural gas for markets and 
industrial use. In addition, new pipelines for carbon capture and reuse 
will provide us new opportunities for both carbon sequestration and 
enhanced oil recovery.
    And it isn't just power distribution but generation as well, right 
now offshore in the Atlantic the Vineyard Wind project has been in the 
NEPA process for 18 months. This summer the Administration was required 
to delay the NEPA approval to conduct additional cumulative impact 
assessments on offshore wind's impact on fisheries. This action was 
driven in part by a request from the Rhode Island Congressional 
delegation that asked, 17 months into the NEPA process, for a 2-year 
delay for a baseline fishing research study. It is nearly impossible 
for new massive investment of capital to come into the United States 
when the NEPA process is so fundamentally broken.
MINERALS
    Finally, the last issue of my focus today is that of critical 
minerals. As the need more electricity in our future, we will need more 
critical minerals like cobalt, lithium and copper and access to rare 
earths and helium.
    Today, we have allowed our domestic rare earth mines to be closed, 
shredding our domestic security by forcing our industrial and Defense 
apparatus to depend on Chinese rare earth materials. In May of 2019, 
President Xi Jinping (zhe--jingping) made a visit to the heart of 
China's critical minerals industrial complex. He stated during this 
visit, ``We are here at the starting point of the Long March to 
remember the time when the Red Army began its journey. We are now 
embarking on a new Long March, and we must start all over again.''
    His words came a week after Chinese state media proposed the idea 
of completely banning critical mineral exports to the United States. 
Currently, the United States relies on China for 20 different critical 
minerals which include several rare earth materials defined by the 
Department of Defense. This irrational overreliance threatens our 
national security by imperiling our ability to make equipment and 
weapons integral to mission success. Rare earth materials are used in 
numerous modern technologies including missile guidance and control 
systems, lasers for enemy mine detection, satellite communications, 
radar, sonar on submarines, iPhones, electric vehicles, wind turbines, 
solar panels, computers and networks.
    But it isn't just rare earths that threaten our security, it is our 
complete position on domestic mining. From the Rosemont Mine and 
Resolution Copper projects in Arizona, to Twin Metals in Minnesota and 
numerous projects across Alaska, Wyoming and Nevada. Our nation needs 
more copper, zinc and cobalt to achieve a cleaner energy future. Yet 
the permitting process for these projects is measured in hundreds of 
millions of dollars and decades of permitting. It faces reckless 
legislating from Congress working to pass moratoriums on mineral 
development, undo land exchanges passed by the will of the people. 
Effort after effort to undercut the domestic development of the 
resources to secure our nation. If we want a more reliable electric 
future, we will need these minerals. The choice is clear, support more 
mining and an electrified future or simply serve word salad to gullible 
activists while fundamentally failing to take the necessary steps to 
secure America.
CLOSING
    Finally, in closing, the United States is the greatest 
CO<INF>2</INF> success story on the planet. The Paris agreement was 
nothing more than an effort to extort America to pay the world for a 
sin created by an international bureaucratic cabal. We have lead the 
world in CO<INF>2</INF> reduction and we should work to export our 
success to the rest of the world with more LNG to Europe and allies in 
Asia.

          Written Testimony of the Hon. Debra ``Deb'' Haaland

       A Representative in Congress from the State of New Mexico

Submitted to the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Chairwoman Castor, Ranking Member Graves, members of the committee 
including my good friend from New Mexico, Assistant Speaker Lujan, 
thank you for the opportunity to testify and for your leadership on 
this important issue.
    This summer, the Intergovernmental Panel on Climate Change reported 
that the climate crisis is undermining the ability of our lands to 
sustain people, wildlife, and plants.
    Deforestation, intensive farming practices, and fossil fuel 
production are contributing to worsening drought, increasing soil 
erosion, more intense wildfires, and diminishing crop yields.
    We see this in New Mexico, where we have a methane cloud the size 
of Delaware hovering over the northwest portion of our state due to 
leakage from oil and gas extraction. Our state is the fifth driest 
state in the nation, and we've been experiencing a long-term drought 
for years.
    All communities have a right to breathe clean air, live free from 
toxic pollution, have access to healthy food, and share the benefits of 
economic prosperity, but in New Mexico and elsewhere, low income 
communities and communities of color have borne the greatest burdens 
from pollution, climate change, and economic inequality.
    Fortunately, New Mexico is blessed with over 300 days of sunshine 
each year and abundant wind resources, and our state passed legislation 
to support the swift transition to clean energy and away from dirty 
fossil fuels and support the state's energy workforce.
    I urge you to develop legislative recommendations that will drive a 
vibrant renewable energy economy that will create millions of high-
quality, safe, family sustaining jobs and reduce our impact on the 
climate.
    I've been working on some legislation to address this existential 
challenge.
    My Climate Stewardship Act aims to support natural climate 
solutions by boosting funding for programs that encourage sustainable 
farming practices, reforestation, and wetland restoration. It also 
promotes urban forestry and re-establishes the Civilian Conservation 
Corps, creating job opportunities for low income youth.
    As Vice-Chair of the Natural Resources Committee and Chairwoman of 
the National Parks, Forests, and Public Lands subcommittee, I'm working 
with Chairman Grijalva on upcoming legislation to reduce the impact of 
our public lands on the climate.
    I'm also part of an effort to build support for the goal of a 100% 
Clean Economy with net zero greenhouse gas emissions by 2050, which the 
science tells us is necessary to protect public health and our 
environment. Our bill, which we will introduce soon, tasks federal 
agencies with developing plans to achieve this goal that must protect 
vulnerable communities and ensure a just transition from fossil fuels 
that will create millions of jobs for all Americans.
    And I support the Green New Deal, which would build on this goal 
and revamp the American economy to reduce emissions and create a more 
just and fair economic system.
    I also urge you to recommend tax policies that drive investments in 
energy efficiency and renewable energy including: investment and 
production tax credits; incentives for energy efficiency retrofits, 
alternative fuel vehicles and infrastructure, and energy storage; and 
to ensure that these benefit all communities.
    To increase integration of renewable energy, I also encourage you 
to support the deployment of a modernized, smart electric grid, 
including advanced transmission technologies to improve efficiency and 
making it easier to build transmission lines, a topic that I am working 
on legislation on.
    We can also reduce our impact on the climate by supporting 
recycling and composting and promoting waste prevention, which reduces 
greenhouse gas emissions from landfills and incinerators, returns 
carbon to the ground, and reduces the need for chemical fertilizers.
    Thank you again for your leadership on these issues and for the 
opportunity to testify. The future of our planet is in our hands.

          Written Testimony of the Hon. Andrew ``Andy'' Levin

        A Representative in Congress from the State of Michigan

Submitted to the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Chairwoman Castor and Ranking Member Graves: thank you for the 
opportunity to provide testimony on behalf of Michigan's Ninth 
Congressional District as you consider policy ideas for reducing 
greenhouse gas pollution and ensuring our communities are resilient to 
the impacts of climate change. On behalf of my constituents, I would 
like to highlight the need for action on electric vehicle (EV) charging 
infrastructure, on green transportation infrastructure more broadly, 
and on zero-net energy buildings.
EV charging infrastructure
    As our nation's transportation sector has become increasingly 
responsible for overall greenhouse gas emissions, plug-in EVs--which 
have 54 percent lower lifetime carbon pollution than conventional 
vehicles--can help us reduce emissions and move us closer to climate 
sustainability.\1\ \2\ Demand for EV chargers is only expected to grow 
in the coming decade: EV charging needs will rise from 6 billion kWh in 
2020 to 53 billion kWh in 2030, and the number of chargers needed is 
estimated to rise from 2 million in 2020 to 13 million in 2030.\3\
---------------------------------------------------------------------------
    \1\ U.S. Environmental Protection Agency (EPA). (2016). Inventory 
of US Greenhouse Gas Emissions and Sinks. https://www.epa.gov/sites/
production/files/2018-01/documents/2018_complete _report.pdf.
    \2\ NRDC. (2015). Electric Vehicles Can Dramatically Reduce Carbon 
Pollution from Transportation and Improve Air Quality. https://
www.nrdc.org/experts/luke-tonachel/study-electric-vehicles-can-
dramatically-reduce-carbon-pollution.
    \3\ Ibid.
---------------------------------------------------------------------------
    We need to lead the world in protecting our environment, and that 
must include improving EV consumer experiences so that we may end our 
dependence on conventional vehicles. Range anxiety, charge times, and 
charging costs currently preclude the paradigm shift necessary for a 
sustainable automotive future. To encourage our country`s needed shift 
to EVs, I plan to introduce the EV Freedom Act, a bill establishing a 
network of EV charging stations at small businesses and other locations 
along the Interstate Highway System.
Green Transportation Infrastructure
    Transportation represents the largest source of greenhouse 
emissions of any sector at about 29 percent of U.S. emissions.\4\ I 
believe we need to simultaneously tackle the climate crisis and our 
crumbling infrastructure by taking a big, bold step towards total 
transportation electrification.
---------------------------------------------------------------------------
    \4\ U.S. Environmental Protection Agency (EPA). (2019). Sources of 
Greenhouse Gas Emissions. https://www.epa.gov/ghgemissions/sources-
greenhouse-gas-emissions.
---------------------------------------------------------------------------
    Any effort to electrify our transportation infrastructure must 
include funding for roads, bridges, and rail, while also dramatically 
electrifying our public transportation systems. We need to require 
renewable energy generation that offsets energy consumed by the 
electrified infrastructure system we will build. All of this must be 
done in a manner that ensures we take care of American workers now, 
while securing the automotive and infrastructure jobs of the future. I 
am working on relevant legislation that will be responsive to the 
urgent need to create a green national infrastructure, and I look 
forward to partnering with this Committee on that critically needed 
effort.
Zero-net energy buildings
    In its 2015 Quadrennial Technology Review, the U.S. Department of 
Energy found that the buildings sector accounts for about 76 percent of 
electricity use and 40 percent of all U.S. primary energy use and 
associated greenhouse gas emissions.\5\ The report also found that the 
implementation of the best available energy efficiency technologies in 
the nation`s current building stock would reduce commercial energy 
consumption by 46 percent.\6\
---------------------------------------------------------------------------
    \5\ U.S. Department of Energy. (2015). An assessment of energy 
technologies and research opportunities. Quadrennial Technology Review. 
https://www.energy.gov/sites/prod/files/2017/03/f34/qtr-2015-
chapter5.pdf.
    \6\ Ibid.
---------------------------------------------------------------------------
    As a former clean energy entrepreneur, I have seen first-hand the 
potential to address our climate crisis through solutions that produce 
more efficient commercial buildings while also spurring cost savings 
and job growth. I believe we must move much faster with respect to the 
efficiency of both current and new building infrastructure, which is 
why I support requiring that all new buildings, including small 
businesses, be zero-net energy--i.e., new buildings should produce as 
much energy as they consume. To achieve this rapidly, we must increase 
our investments in grant programs that establish or expand financing 
for small business energy efficiency projects. Such investments will 
help us reduce our carbon footprint, create jobs, and move towards a 
cleaner, stronger economy.
    I respectfully request that the Committee bear these priorities in 
mind when determining appropriate courses of action that promote 
sustainability for our communities and our environment. Climate change 
poses an existential threat to humanity, and we will not have to wait 
for sea levels or temperatures to rise even further to feel that 
impact--it is making us less safe right now. Even the Department of 
Defense just this year said, ``the effects of a changing climate are a 
national security issue with potential impacts to DOD missions, 
operational plans and installations.'' \7\ If we do not act urgently 
and boldly, we will have shirked our solemn responsibility to ensure 
the safety and wellbeing of the American people.
---------------------------------------------------------------------------
    \7\ Tony Capaccio, Jennifer A. Dlouhy and Ari Natter. Time. (2019). 
Defense Department Warns About Climate Change Impacts to Armed Forces 
and Bases. https://time.com/5507465/climate-change-impact-armed-forces-
bases/.
---------------------------------------------------------------------------
    Again, I thank you for your consideration. I look forward to 
working with you.

             Written Testimony of the Hon. Elaine G. Luria

        A Representative in Congress from the State of Virginia

Submitted to the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    In Coastal Virginia, climate change is not a problem for tomorrow; 
it is one we face every day. As the Select Committee considers policy 
recommendations, I hope your work will prioritize national security, 
clean energy, and resilient communities.
National Security
    The Department of Defense's 2019 Report on the Effects of a 
Changing Climate found that 60 of the 79 highest priority military 
installations in the U.S. are or will be at risk of recurrent flooding, 
48 are or will be at risk of drought, and 43 are or will be at risk of 
wildfires as a result of climate change.\1\
---------------------------------------------------------------------------
    \1\ Department of Defense. Report on Effects of a Changing Climate 
to the Department of Defense. Media.defense.gov. https://
media.defense.gov/2019/Jan/29/2002084200/-1/-1/1/CLIMATE-CHANGE-REPORT-
2019.PDF.
---------------------------------------------------------------------------
    Coastal Virginia is at particular risk. The report finds ``Navy 
Region Mid-Atlantic and the greater Hampton Roads area is one of the 
most vulnerable to flooding military operational installation areas in 
the United States,'' \2\ and identifies Naval Station Norfolk, Joint 
Base Langley-Eustis, and Naval Air Station Oceana as at high risk for 
recurrent flooding. One study found that, by mid-century, the main road 
to Naval Station Norfolk will flood at high tide every day.\3\ Further 
research shows that major military installations in the U.S. will face 
an average of more than a month of additional days with heat indexes 
above 100+ F.\4\ Military readiness will suffer if our service members 
cannot safely get to or from base or conduct training exercises.
---------------------------------------------------------------------------
    \2\ Ibid.
    \3\ Atinkson, Larry P., Tal Ezer, and Elizabeth Smith. ``Sea Level 
Rise and Flooding Risk in Virginia.'' Sea Grant Law and Policy Journal. 
Odu.edu. https://digitalcommons.odu.edu/cgi/
viewcontent.cgi?article=1116&context=ccpo_pubs.
    \4\ Dahl, Kristy. ``US Military on the Front Lines of Extreme 
Heat.'' Blog.ucusa.org. https://blog.ucsusa.org/kristy-dahl/military-
extreme-heat?_ga=2.170567335.68016399.1573770532-1952043407.1567086713.
---------------------------------------------------------------------------
    In addition to its visible impacts on our military installations, 
climate change also fosters global political instability. Studies have 
indicated that weather events associated with climate change may have 
contributed to the start of the Arab Spring \5\ and the Syrian Civil 
War.\6\ A recent comprehensive study in the journal Nature found that 
climate change has already contributed to armed conflicts over the past 
half century, and that ``intensifying climate change is estimated to 
increase future risk of conflict'' through factors such as drought, 
flooding, and resource scarcity.\7\ Mitigating these threats would 
reduce the need to send our service members into harm`s way.
---------------------------------------------------------------------------
    \5\ Perez, Ines. ``Climate Change and Rising Food Prices Heightened 
Arab Spring.'' Scientific American. Scientificamerican.com. https://
www.scientificamerican.com/article/climate-change-and-rising-food-
prices-heightened-arab-spring/.
    \6\ Kelly, Colin P., Shahrzad Mohtadi, Mark A. Cane, Richard 
Seager, and Yochanan Kushnir. ``Climate Change in the Fertile Crescent 
and Implications of the Recent Syrian Drought.'' Proceedings of the 
National Academies of Sciences. https://www.pnas.org/content/112/11/
3241.
    \7\ Mach, Katharine J., et al. ``Climate as a Risk Factor for Armed 
Conflict.'' Nature. Nature.com. https://www.nature.com/articles/s41586-
019-1300-6.
---------------------------------------------------------------------------
    To address these risks, the Committee`s recommendations should 
require DOD to consider climate change at all stages of planning and 
decision-making. I was troubled by recent reporting that the Navy 
dismantled its task force dedicated to climate planning.\8\ Instead of 
ramping down such efforts, DOD should establish similar task forces 
within each service branch as well as a dedicated team of civilian 
climate experts to advise DOD senior leadership. Additionally, as the 
world`s single largest institutional greenhouse gas producer,\9\ the 
Committee should recommend that DOD be required to implement a plan to 
significantly reduce emissions by 2050.
---------------------------------------------------------------------------
    \8\ Athey, Philip. ``Navy Quietly Shut Down Climate Change Task 
Force.'' EEnews.net. https://www.eenews.net/greenwire/2019/08/07/
stories/1060877355.
    \9\ Crawford, Neta C. ``Pentagon Fuel Use, Climate Change, and the 
Costs of War.'' Watson.brown.edu. https://watson.brown.edu/costsofwar/
files/cow/imce/papers/2019/Pentagon%20 Fuel%20Use%2C%20Climate%20Change 
%20and%20the%20Costs%20of%20War%20Final.pdf.
---------------------------------------------------------------------------
Clean Energy
    We must reduce all net greenhouse gas emissions within the U.S. to 
zero by 2050 at the latest. Clear and consistent market-based rules, 
coupled with robust investments in carbon-free energy technologies, 
will cut pollution and make the U.S. the world leader in the 21st 
century clean economy. Coastal Virginia is uniquely positioned to 
flourish as we transition to clean energy. By 2026, the waters off 
Virginia Beach could host the largest offshore wind project in the 
nation.\10\ The Committee should build on this momentum by including 
recommendations for extending and expanding tax credits for clean 
energy generation, energy efficiency, and battery storage.
---------------------------------------------------------------------------
    \10\ Ress, Dave. ``Dominion Wants to Build The Nation`s Largest 
Offshore Wind Farm Near Virginia Beach.'' The Virginian Pilot. 
Pilotonline.com. https://www.pilotonline.com/business/dp-nw-dominion-
offshore-20190919-uuxqtkwkijagxj7sb323vbjgb4-story.html.
---------------------------------------------------------------------------
    The Committee`s recommendations for clean energy legislation should 
include nuclear power as part of the solution. As a former nuclear 
engineer in the Navy, I know that nuclear power, when deployed safely 
and responsibly, can play a key role in decarbonizing our economy. 
Modeling performed by the Massachusetts Institute of Technology has 
found that nuclear energy can dramatically reduce the cost of deep 
decarbonization by providing a constant flow of power that can 
complement the more intermittent power generated by wind and solar.\11\ 
Nuclear power also has the potential to reduce emissions from the 
difficult-to-decarbonize industrial sector.\12\
---------------------------------------------------------------------------
    \11\ Massachusetts Institute of Technology. The Future of Nuclear 
Energy in a Carbon-Constrained World. Energy.mit.edu. http://
energy.mit.edu/wp-content/uploads/2018/09/The-Future-of-Nuclear-Energy-
in-a-Carbon-Constrained-World.pdf.
    \12\ Cunliff, Colin. ``An Innovation Agenda for Hard-to-Decarbonize 
Energy Sectors.'' Issues in Science and Technology. Issues.org. https:/
/issues.org/an-innovation-agenda-for-hard-to-decarbonize-energy-
sectors/.
---------------------------------------------------------------------------
Resilient Communities
    Our transition to clean energy must be coupled with investments in 
communities facing the brunt of climate change impacts. State and local 
governments in coastal communities throughout the U.S., including in 
Coastal Virginia, cannot bear the costs of sea level rise alone.
    Hampton Roads is experiencing the fastest rate of sea level rise of 
any region along the East Coast.\13\ A study commissioned by the City 
of Virginia Beach found that the cost of infrastructure to combat sea 
level rise could be up to $3.8 billion.\14\ A separate study has found 
that the cost just of building sea walls in the Hampton Roads area will 
be over $4.6 billion.\15\
---------------------------------------------------------------------------
    \13\ National Oceanic and Atmospheric Administration Office for 
Coastal Management. ``Hampton Roads' Sea Level Rise Adaptation Advances 
on Multiple Fronts.'' Coast.noaa.gov. https://coast.noaa.gov/states/
stories/sea-level-rise-adaptation-advances-on-multiple-fronts.html.
    \14\ Coutu, Peter. ``Sea level Rise Could Cost Virginia Beach 
Billions of Dollars, Study Says.'' The Virginian Pilot. 
Pilotonline.com. https://www.pilotonline.com/news/environment/
article_54a6f7be-19cc-11e9-a249-237d551545f7.html.
    \15\ Hafner, Katherine. ``Seawalls to Fight to Rising Waters in 
Hampton Roads Would Cost More Than $4.6 Billion, Says Nationwide 
Study.'' The Daily Press. Dailypress.com. https://www.dailypress.com/
news/vp-nw-seawall-cost-0621-20190620-story.html.
---------------------------------------------------------------------------
    Communities in Coastal Virginia are stepping up to meet this 
challenge. Norfolk has proposed over $1 billion to fight sea level rise 
and Virginia Beach plans to spend $450 million in stormwater projects 
over the next five years.\16\ All cities within the region participate 
in the Hampton Roads Planning District Commission, which is 
coordinating long-term sea level rise planning through 2100.\17\
---------------------------------------------------------------------------
    \16\ Sea Level Rise.org. ``Virginia`s Sea Level is Rising.'' 
Sealevlerise.org. https://sealevelrise.org/states/virginia/.
    \17\ Hampton Roads Planning District Commission. ``Region Adopts 
Sea Level Rise Planning Policy.'' Hrpdcva.gov. https://www.hrpdcva.gov/
news/article/october/24/2018/region-adopts-sea-level-rise-planning-
policy.
---------------------------------------------------------------------------
    Although local communities are doing their part, only the federal 
government has the resources, expertise, and legal authority to address 
sea level rise and other climate effects in a comprehensive manner. 
This Committee should support policies to dramatically increase 
investment in the Federal Emergency Management Agency (FEMA)'s pre-
disaster mitigation funding and consider additional financing solutions 
such as revolving loan funds for resiliency projects. While these 
initiatives will involve substantial up-front costs, building 
resiliency can deliver taxpayers a return of up to six-to-one in 
averted disaster losses.\18\
---------------------------------------------------------------------------
    \18\ National Institute of Building Sciences. ``Natural Hazard 
Mitigation Saves Study.'' Nibs.com. https://www.nibs.org/page/
mitigationsaves.
---------------------------------------------------------------------------
    The Committee should also consider ways to improve information 
sharing about sea level rise and recurrent flooding. This could be 
accomplished by strengthening the mandates of the federal agencies 
conducting oceanic and sea level rise research, including the National 
Oceanic and Atmospheric Administration (NOAA), the National Aeronautics 
and Space Administration (NASA), and FEMA, to ensure that they are 
effectively sharing data and analysis with local governments and 
communities threatened by flooding.
Conclusion
    I thank the Committee for providing the opportunity for all Members 
to share solutions and stories of how climate change affects their 
communities. I look forward to working with the Committee to develop 
policies that support coastal communities, safeguard our national 
security, and position the United States to become the world leader of 
the clean energy economy.

             Written Testimony of the Hon. Markwayne Mullin

        A Representative in Congress from the State of Oklahoma

Submitted to the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Chairwoman Castor, Ranking Member Graves, thank you for allowing me 
to submit my testimony for the record.
    The United States is in the middle of an energy renaissance. We are 
producing more energy in the United States than ever before. At the 
same time, we are leading the world in carbon emission reduction. This 
is in part due to the increase of natural gas in our energy mix.
    Natural gas paired with renewables like wind and solar is a great 
way to reduce carbon emissions. In my home state of Oklahoma, which one 
might normally think of as an oil and gas state, is now the second 
largest producer of wind energy in the nation. We have plenty of wind 
and plenty of gas.
    Congress is too hasty to pick winners and losers in our energy 
industry. I believe we need to take an all-of-the-above approach that 
uses all of resources. However, one type of energy is consistently 
forgotten about in conversations around Capitol Hill--Renewable Natural 
Gas.
    Renewable Natural Gas (RNG), or biomethane, is captured above 
ground from organic material in agriculture, wastewater, landfill, or 
food waste. In simpler terms, this technology takes methane, which is 
worse for the air than carbon dioxide, cleans and purifies it, and 
sticks it straight into a natural gas pipeline which can be used for 
natural gas vehicles, electricity generation, and home heating.
    When using RNG it produces a net carbon-neutral and even carbon-
negative results.\1\ Over the last five years, RNG has increased 577 
percent, displacing seven million tons of carbon dioxide equivalent. 
And unlike wind and solar, this renewable energy is not intermittent. 
RNG can be produced 24/7.
---------------------------------------------------------------------------
    \1\ https://www.ngvamerica.org/2019/04/16/renewable-natural-gas-on-
road-fuel-reaches-historical-high/.
---------------------------------------------------------------------------
    Some of my colleagues want to support the Green New Deal, whose 
creators say we need to get rid of cows because of their methane 
producing flatulence. However, using RNG we take that methane out of 
the atmosphere and turn it into clean renewable fuel. From cow farts to 
clean energy--that could be the future.
    I urge my colleagues as we look at ways to reduce our emissions, we 
look at the benefits of all energy sources, including RNG. We need to 
lead the innovation here in the United States so that we can export our 
technologies to the world and be a leader in clean and efficient 
energy.

          Written Testimony of the Hon. Robert ``Bobby'' Scott

        A Representative in Congress from the State of Virginia

Submitted to the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Thank you, Chairwoman Castor, Ranking Member Graves and members of 
the Committee on the Climate Crisis for providing me this opportunity 
to discuss some of the priorities I believe should be reflected in this 
Committee's work.
    I represent the 3rd congressional district of Virginia where the 
Chesapeake Bay meets the James, Nansemond, and Elizabeth Rivers, which 
presents both challenges and opportunities. Our waterways are essential 
to Virginia and the nation. Hampton Roads is home to the largest naval 
base in the world, Naval Station Norfolk, the one of the busiest ports 
on the eastern seaboards, the Port of Virginia and multiple shipyards. 
The recurrent flooding that we are already living with poses a severe 
national security risk. With 95 percent of our nation's trade moving by 
water, it is also essential that the port is able to maintain 
operations as the waters continue to rise. Our waterways keep our 
economy moving and the communities that support these operations are 
already living with the effects of climate change and rising waters.
    I had the pleasure of showing Chairwoman Castor around Hampton 
Roads earlier this year. We heard from state and local elected 
officials in Virginia who already recognize the significant threat that 
sea level rise poses and have been working to combat these effects. 
Unfortunately, the cost to proactively and aggressively address this 
problem head-on is far too great for any city to bear by itself. While 
Norfolk and other cities in Hampton Roads have already spent 
considerable sums of money to study the recurrent flooding issues and 
implement resilient infrastructure, the shear scope of the project to 
address the problem will cost billions of dollars and require the 
federal government to step in and assist.
    I encourage you to review the Building Up Infrastructure and 
Limiting Disasters through Resilience (BUILD Resilience) Act, 
legislation that I introduced last Congress with Senators Mark Warner 
and Tim Kaine and that I intend to introduce again soon. The BUILD 
Resilience Act would establish a competitive grant program for 
resilient infrastructure investment to bolster the ability of regions, 
such as Hampton Roads and New Orleans, to implement projects and 
strategies to reduce regional vulnerability to threats like sea level 
rise and recurrent flooding. Analyses by the Congressional Budget 
Office and the Multi-hazard Mitigation Council of the National 
Institute of Building Sciences estimate that every $1 invested in 
resilient infrastructure upfront saves $3 to $4 in future losses on the 
back-end after a major disaster strikes.
    As this committee continues to hear and plan for the effects of 
climate change, I urge you to make federal investments in resilient 
infrastructure a priority. Investing upfront can help save taxpayers 
and impacted communities potentially billions of dollars in avoided 
costs. Recognizing the disproportionate risk that climate chaos poses 
to low-income communities and communities of color, I urge the 
committee to center equity in such efforts.
    Ms. Chairwoman, thank you again for allowing me the opportunity to 
share my priorities for addressing climate change as we deal with the 
effects in Hampton Roads. I look forward to working with you to ensure 
that we put forth policies that effectively deal with the changes we 
are already seeing.

              Written Testimony of the Hon. Haley Stevens

        A Representative in Congress from the State of Michigan

Submitted to the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Dear Chairwoman Castor, Ranking Member Graves, and Members of the 
House Select Committee on the Climate Crisis: Thank you for allowing me 
this opportunity to provide testimony on the urgent need to address the 
climate crisis, build out our clean energy infrastructure, and promote 
our transition to a sustainable 21st Century economy.
    In August, I had the honor of hosting Chairwoman Castor for a town 
hall in Michigan's 11th District to discuss electric vehicles and clean 
transportation. During the discussion, we heard from a panel of experts 
who made it clear that encouraging greater production and consumer 
adoption of electric vehicles is key to hitting our sustainability 
goals while creating new economic opportunities right here in the 
United States. As electric vehicle technology proliferates, I urge the 
Select Committee to ensure that the next generation of automobiles are 
being built by American workers.
    I would also like to urge Members of the Select Committee on the 
Climate Crisis to promote and encourage the practice of 
remanufacturing, which is the process by which used products are 
returned to good-as-new (or better) condition. The International Trade 
Commission estimates that remanufacturing has already added over 
180,000 jobs in the U.S., with an enormous potential for growth. In 
addition to creating jobs, remanufacturing reduces the strain of 
industrial processes on the environment and lowers the cost of 
production for manufacturers. Remanufacturing and comprehensive 
refurbishment has the potential to reduce greenhouse gas emissions by 
between 79 percent and 99 percent in appropriate sectors.
    Finally, I would like to affirm my strong support for tax 
incentives to encourage investment and innovation in clean electricity, 
clean transportation, and energy efficiency. Right now, the U.S. tax 
system provides permanent subsidies to polluting industries while 
leaving clean, renewable energy companies in the lurch. We must take 
advantage of the opportunity to make smart investments in clean energy 
to help the U.S. reduce carbon pollution and prepare our communities 
for the damaging effects of rising sea levels, severe weather and 
catastrophic wildfires.
    We need to seize hold of the opportunity to tackle climate change 
by making major investments in our infrastructure and our workforce, 
while fostering innovation and job creation. Thank you again for your 
time and consideration. I hope you will keep these issues in mind as 
you craft policies to address the threat of global climate change.
            Sincerely,
                                          Haley M. Stevens,
                                                Member of Congress.

    Ms. Castor. I recognize myself for 5 minutes for a short 
opening statement.
    I want to thank the Members who have come to speak before 
us today. Speaker Pelosi created the select committee with a 
broad but important task: to explore policy solutions to the 
climate crisis and make recommendations to committees of 
jurisdiction. We have embraced this charge with all of the 
seriousness it deserves. We have held 13 hearings and 4 
roundtables, held hundreds of in-person stakeholder meetings, 
and issued a request for information that promises to generate 
hundreds of comments.
    But we want to hear from fellow Members of Congress as 
well. Although Congress has not considered comprehensive 
climate legislation in a decade, Members, particularly on the 
Democratic side, have not been idle. They've been doing the 
work, meeting with stakeholders, and drafting legislation to 
cut carbon pollution and make our communities more resilient to 
the impacts of climate change.
    Today will be a good reminder, when it comes to developing 
national climate policy, we are not starting from a blank sheet 
of paper.
    Thank you all for being here today.
    I now recognize the ranking member, if he has any comments. 
Otherwise, we can get going and hear from our Members.
    Mr. Carter. We can get started.
    Ms. Castor. Terrific. Thank you, Mr. Carter.
    Without objection, members who wish to enter opening 
statements into the record may have 5 business days to do so.
    Now it is time hear from our witnesses. In order to fit in 
as many Members as we can, all statements should be no longer 
than 5 minutes, and I request that any questions be as brief as 
possible. Of course, we will follow up with your staff if we 
want additional information.
    So, Ms. Underwood, you are recognized for 5 minutes. 
Welcome.

  STATEMENT OF THE HON. LAUREN UNDERWOOD, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Underwood. Thank you, Madam Chair, for providing this 
opportunity for Members to share their priorities with the 
Select Committee on the Climate Crisis.
    The very existence of this committee is a testament to the 
urgency of this crisis and the House's commitment to tackling 
it head-on. I am grateful to come before the committee today to 
bring attention to the important need for congressional action 
to address climate change.
    The science is clear: We are on an alarming path. Our 
climate is changing, presenting an existential threat to our 
environment, our national security, our health, and our 
economy.
    As the country looks to its leaders to take Federal action 
to address climate change, I am proud to have supported H.R. 9, 
the Climate Action Now Act, which is the first major climate 
legislation passed by the House in nearly a decade.
    I was honored to continue this effort when I introduced 
H.R. 3819, the Climate and Health Protection Act, with my 
colleague and former Secretary for Health and Human Services, 
Representative Donna Shalala.
    As a public health nurse, I fully recognize the adverse 
impact climate change will have on public health, particularly 
for the most vulnerable people in our society--pregnant women, 
children, the elderly, and countless others.
    My bill protects the Centers for Disease Control's Climate 
and Health Program. This program is the only office within the 
Department of Health and Human Services dedicated to helping 
State and local governments prepare for the public health 
consequences of climate change.
    Secondly, my bill increases funding for the program to $15 
million, which is consistent with the funding provided in the 
House's fiscal year 2020 appropriations package.
    Without the resources and the services provided by the 
Climate and Health Program, many communities across the country 
will be left vulnerable and unaware of the devastating health 
consequences climate change poses. I appreciate the Committee 
on Energy and Commerce's oversight work on this 
administration's decision to limit the Climate and Health 
Program. In addition to continuing that work, we must pass my 
Climate and Health Protection Act to reinstate and protect this 
vital program.
    It is an honor to represent the people of the 14th District 
of Illinois, who know that it is long past time to take serious 
steps to address climate change, or we risk living with life-
altering consequences to our health, our economy, and national 
security.
    I have spoken with farmers in my district who have 
experienced firsthand the impacts of climate change and who are 
concerned about what it means for our agricultural community. 
This past spring, Illinois saw historic flooding and other 
extreme weather events brought on by climate change. With 
Illinois rivers swelling beyond the flood stage and past record 
peaks, farmers were not able to plant their crops until well 
into the spring months.
    After hearing the concerns of farmers in the 14th, I felt 
compelled to protect USDA research data by introducing an 
amendment to the fiscal 2020 Agriculture appropriations package 
that would prevent Federal agencies like USDA from removing 
existing public information about climate change.
    Sadly, just weeks after my amendment was passed by the 
House, new reports exposed the extent of the anti-climate 
science sentiment at USDA. These reports indicated that USDA 
leadership took steps to hide scientific findings on the 
consequences of climate change and the impacts it will have on 
farmers.
    Undermining public discourse of climate change research 
sets a dangerous precedent which can endanger our national 
security, food security, and the livelihoods of Illinois 
farmers and farmers throughout our country.
    As you can see, climate change is a front-of-mind issue in 
my district. And like many others across the country, they are 
demanding real leadership on this issue from us, their elected 
representatives. I came to Congress with a mandate from my 
constituents, and I am committed to ensuring that Congress 
upholds its responsibilities to communities like mine who are 
demanding meaningful, long-term solutions to climate change.
    We also need to talk about a broad-based approach to 
climate change. I am excited about forthcoming legislation that 
would put the United States on a path to have a 100 percent 
clean economy by 2050.
    I look forward to working with you, Chairwoman Castor, and 
with other members on this committee to advance meaningful 
legislation during this Congress.
    And I yield back.
    [The statement of Ms. Underwood follows:]
                              ----------                                
        


                 Testimony of the Hon. Lauren Underwood

        A Representative in Congress from the State of Illinois

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Thank you, Madam Chair, for providing this opportunity for Members 
to share their priorities with the Select Committee on the Climate 
Crisis.
    The very existence of this Committee is a testament to the urgency 
of this crisis and the House's commitment to tackling it head on.
    I am grateful to come before the Committee today to bring attention 
to the important need for Congressional action to address climate 
change.
    The science is clear: we are on an alarming path. Our climate is 
changing, presenting an existential threat to our environment, our 
national security, our health, and our economy.
    As the country looks to its leaders to take federal action to 
address climate change, I am proud to have supported H.R. 9, the 
Climate Action Now Act, which is the first major climate legislation 
passed by the House in nearly a decade.
    I was honored to continue this effort when I introduced H.R. 3819, 
the Climate and Health Protection Act, with my colleague and former 
Secretary for Health and Human Services, Representative Donna Shalala 
(D-FL).
    As a public health nurse, I fully recognize the adverse impact 
climate change will have on public health, particularly for the most 
vulnerable people in our society-- pregnant women, children, the 
elderly, and countless others.
    My bill protects the Centers for Disease Control's Climate and 
Health Program. This program is the only office within the Department 
of Health and Human Services dedicated to helping state and local 
governments prepare for the public health consequences of climate 
change.
    Secondly, my bill increases funding for the program to $15 million 
which is consistent with the funding provided in the House's Fiscal 
Year 2020 appropriations package.
    Without the resources and services provided by the Climate and 
Health Program, many communities across the country will be left 
vulnerable and unaware of the devasting health consequences climate 
change poses.
    I appreciate the Committee on Energy and Commerce's oversight work 
on this Administration's decision to limit the Climate and Health 
Program. In addition to continuing that work, we must pass my Climate 
and Health Protection Act to reinstate and protect this vital program.
    It is an honor to represent the people of the 14th District of 
Illinois, who know that it is long past time to take serious steps to 
address climate change--or we risk living with life-altering 
consequences to our health, economy, and national security.
    I've spoken with farmers in my district who have experienced 
firsthand the impacts of climate change and are concerned about what it 
means for our agriculture community.
    This past spring, Illinois saw historic flooding and other extreme 
weather events brought on by climate change. With Illinois rivers 
swelling beyond the flood stage and past record peaks, farmers were not 
able to plant their crops until well into the spring months.
    After hearing the concerns of farmers in the 14th District, I felt 
compelled to protect USDA research data by introducing an amendment to 
the FY 2020 Agriculture appropriations package that would prevent 
federal agencies like USDA from removing existing public information 
about climate change.
    Sadly, just weeks after my amendment was passed by the House, new 
reports exposed the extent of the anti-climate science sentiment at 
USDA. These reports indicated that USDA leadership took steps to hide 
scientific findings on the consequences of climate change and the 
impacts it will have on farmers.
    Undermining public disclosure of climate change research sets a 
dangerous precedent, which can endanger our national security, food 
security, and the livelihoods of Illinois farmers and farmers 
throughout the country.
    As you can see, climate change is a front of mind issue in my 
district. And like many others across the country, they are demanding 
real leadership on this issue from us--their elected representatives.
    I came to Congress with a mandate from my constituents, and I am 
committed to ensuring Congress upholds its responsibility to 
communities like mine who are demanding meaningful, long-term solutions 
to climate change.
    We also need to talk about a broad-based approach to climate 
change. I am excited about forthcoming legislation that would put the 
United States on the path to have a 100% clean economy by 2050.
    I look forward to working with you, Chairwoman Castor, and with 
other members of this Committee to advance meaningful legislation 
during this Congress.

    Ms. Castor. Well, thank you very much.
    I know you are aware of what Harvard University and other 
researchers released today about the impact of extreme 
temperatures on children----
    Ms. Underwood. That is right.
    Ms. Castor [continuing]. Particularly on their public 
health. So I think your expertise in this area is going to be 
invaluable to the committee as we move forward. So thank you.
    Are there any questions from the panel?
    Thank you, Ms. Underwood.
    Ms. Underwood. Thank you for your time.
    Ms. Castor. So, Chairwoman McCollum, you have been a leader 
for many years on these issues. You are welcome to provide your 
testimony for 5 minutes.

   STATEMENT OF THE HON. BETTY McCOLLUM, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Ms. McCollum. Thank you. Thank you, Madam Chair and Ranking 
Member. Thank you for the opportunity to allow Members to 
testify today.
    As the chair of the Interior and Environment Appropriations 
Subcommittee, I believe we have a shared responsibility to work 
together for the American people to combat climate change and 
reduce pollution, both through policy recommendations and 
funding.
    I would also like to thank the committee for giving young 
climate leaders, policy specialists, business leaders, and 
State and local officials the opportunity to provide input on 
the climate crisis. I have heard firsthand in Minnesota how 
excited they are to be able to participate in this way.
    Climate change is real and is affecting people all over the 
world, in every part of their lives. Recently, I was in Malawi 
with the U.S. Forest Service and witnessed firsthand the 
impacts of climate change in the southern part of Africa.
    This is an issue that Congress cannot solve alone, nor can 
one committee do it alone. Changing the course of the climate 
crisis will require all of us to step up and take action. We 
all know that climate change will have devastating effects on 
economic inputs, from agriculture to healthcare to 
infrastructure, and we need to be making the Federal 
investments now to understand and address and adapt to climate 
change.
    That is why I am here today to talk about prioritizing 
funding for climate change. Why? Because climate change is 
dynamic and is impacting our lives all over this planet. This 
is why the House invested in expanding climate research and 
protecting our public lands and our natural resources. By doing 
this, we will ensure that Americans will not only have clean 
air and clean water today but for generations to come.
    It is critical that the Federal agencies funded throughout 
the Interior bill receive adequate support to carry out the 
policies recommended by this committee. Our path forward will 
also need to include investments throughout the Federal 
Government. These investments will help to mitigate the worst 
effects of climate change but also help communities to adapt to 
the impacts we are already seeing, like rising sea levels and 
the wildland fires that are so devastating in California.
    As vice chair of the Defense Appropriations Subcommittee, I 
know that climate change is one of the most forefront national 
security threats of our time. A report released in January from 
the Pentagon laid out the stark reality we face from our 
changing climate. Two-thirds of our military's operationally 
essential installations are threatened by climate change. And 
as the Department considers where to spend military 
construction dollars or bases for our most valuable assets, 
climate change must inform every decision that they are making. 
Simply put, the cost of inaction on climate change is already 
having a staggering impact on our national security.
    In order to halt the acceleration as well as to adapt to 
climate change, we need to fund and protect sound scientific 
research within the Federal Government. It is no secret that 
scientific research is constantly under attack from the Trump 
administration. Under President Trump, for example, we have 
seen the rules change to favor industry domination over EPA 
scientific panels. We need to make smart decisions based on 
science, not politics. As this administration continues to push 
an anti-science agenda, Congress must do more to protect our 
scientific institutions.
    What is most important is that we know that these policies 
that you are going to come up with come with a price tag. And I 
believe every appropriations bill should include a line on what 
agencies and departments need to do to combat climate change, 
mitigate the effects that we are already seeing, and establish 
resiliency.
    And so that is my ask, Madam Chair. It is crucial that we 
ensure that the Federal Government has the resources necessary 
to carry out the work.
    As chair of the Interior Appropriations Subcommittee, I 
will continue to prioritize to address climate change and 
building resiliency into our fragile ecosystems, and restore 
funding for our programs that have suffered deep cuts under 
previous Congresses, and to conduct the oversight necessary to 
hold the Trump administration and any other future 
administration accountable for their climate change actions or 
denials.
    So, to the chair and the ranking member, I want to thank 
you so much for the time. I look forward to working with you 
together in the 116th Congress.
    And, Madam Chair, with your permission, I would like to 
enter in for the record and for you the ``Report on Effects of 
a Changing Climate'' from the Department of Defense from 
January 2019.
    [The information follows:]
                              ----------                              


                       Submission for the Record

                      Representative Kathy Castor

                 Select Committee on the Climate Crisis

                           November 14, 2019

    ATTACHMENT: Report on Effects of a Changing Climate to the 
Department of Defense. Office of the Under Secretary of Defense for 
Acquisition and Sustainment, 2019.
    This report is retained in the committee files and available at: 
https://media.defense.gov/2019/Jan/29/2002084200/-1/-1/1/CLIMATE-
CHANGE-REPORT-2019.PDF.

    Ms. McCollum. And I think you will find it invaluable 
reading. I know your State is impacted by many of these 
decisions.
    Thank you.
    [The statement of Ms. McCollum follows:]
                              ----------                              


                  Testimony of the Hon. Betty McCollum

        A Representative in Congress from the State of Minnesota

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Chair Castor, Ranking Member Graves thank you for providing the 
opportunity for Members to testify today.
    As Chair of the Interior and Environment Appropriations 
Subcommittee, we have a shared responsibility to work together for the 
American people to combat climate change and reduce pollution through 
both policy recommendations and federal funding.
    I would also like to thank the Committee for giving young climate 
leaders, policy specialists, business leaders, and state and local 
officials the opportunity to provide input on the climate crisis. I 
have contacted many stakeholders in my district, and throughout 
Minnesota, who are excited about the committee's invitation to submit 
public statements.
    Climate change is real and affecting people all over the world, in 
every part of their lives. I recently was in Malawi with the U.S. 
Forest service and witnessed firsthand the varying impacts of climate 
change around the globe. This is an issue which Congress cannot solve 
with one Committee alone. Changing the course of the climate crisis 
will require all of us to step up and take action. We know that climate 
change will have devastating economic impacts from agriculture to 
healthcare to infrastructure. We need to be making federal investments 
now to understand, address, and adapt to climate change.
    We must prioritize funding for climate change. Why? Because climate 
change is dynamic in all the ways it impacts our planet. That's why the 
House invested in expanding climate research and protecting our public 
lands and natural resources. By doing this, we will ensure that 
Americans will have clean water and air not only today but for 
generations to come. It is critical that the federal agencies funded 
through the Interior Bill receive adequate support to carry out the 
policies recommended by this committee.
    Our path forward will also need to include investments throughout 
the federal government. These investments will help to mitigate the 
worst effects of climate change, but also help communities to adapt to 
impacts we are already seeing like rising sea levels and the 
devastating wildfires in California.
    As Vice Chair of the Defense Appropriations Subcommittee, I know 
that Climate change is one of the foremost national security threats of 
our time. A report released in January from the Pentagon laid out the 
stark reality they face from our changing climate. Two-thirds of our 
military's operationally essential installations are threatened by 
climate change. As the Department considers where to spend military 
construction dollars or base our most valuable defense assets, climate 
change must inform every decision they make. Simply put, the cost of 
inaction on climate change has already had a staggering impact on our 
national security.
    In order to effectively slow and adapt to climate change, we need 
to fund and protect sound scientific research within the federal 
government. It is no secret that scientific research is constantly 
under attack from the Trump Administration.
    Under President Trump, for example, we have seen the rules change 
to favor industry domination on EPA's scientific panels. We need to 
make smart decisions that are based on science, not politics. As this 
Administration continues to push an anti-science agenda, congress must 
do more to protect our scientific institutions.
    I look forward to working with this Committee and the authorizing 
committees on legislation that protects government scientists and 
invests in research. Scientific integrity is vital to address the 
serious challenges climate change poses to our natural and cultural 
resources, ecosystems, and human health.
    Action on climate change is at a critical crossroads. The purpose 
of this Committee is to develop policies that will provide us the best 
chance at saving our planet for future generations. But it is important 
to note that these policies come with a price tag. I believe every 
Appropriations Bill should include a line item on what agencies and 
departments need to do to combat climate change, mitigate the effects 
we are already seeing, and establish resiliency. It is crucial we 
ensure the federal government has the resources necessary to carry out 
that work. As Chair of the Interior Appropriations Subcommittee, I will 
continue to prioritize funding to address climate change and build 
resiliency in our fragile ecosystems, restore funding for programs that 
have suffered deep cuts in previous Congresses, and conduct the 
oversight necessary to hold the Trump administration accountable for 
their climate denial.
    Chair Castor, I thank you for the time, and I look forward to 
working as the 116th Congress moved forward.

    Ms. Castor. Well, thank you, Chairwoman McCollum.
    Your leadership on the Interior Subcommittee of 
Appropriations and the entire Appropriations Committee will be 
invaluable going forward. Already, the appropriations bill 
passed this term by the House is very impactful when it comes 
to climate policies, and I thank you. And I heard you loud and 
clear on your recommendation that every appropriations bill 
from this point forward should have some sort of analysis going 
forward for agencies.
    And thank you, as well, for your attention to our military 
installations and to make sure that they are resilient and we 
are able to address these issues going forward.
    Mr. Casten, do have you any questions or comments?
    Mr. Griffith.
    Mr. Griffith. No.
    Ms. Castor. Thank you, Chairwoman McCollum.
    Speaking of defense experts and champions, Mrs. Davis, you 
are recognized for 5 minutes.

STATEMENT OF THE HON. SUSAN DAVIS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mrs. Davis of California. Thank you very much, Chairwoman 
Castor, Ranking Member Griffith, and members of the select 
committee. It is a pleasure to join you today and discuss what 
we know is the biggest challenge of our time, climate change.
    I am glad the select committee is meeting today to take 
testimony on this very important issue and pleased to be part 
of the conversation. After successful passage of H.R. 9, the 
Climate Action Now Act, I am looking forward to what the select 
committee will develop with multiple levels of input, and I 
appreciate the fact that you are doing that.
    As we have seen, there is no simple solution. Not only do 
we have to consider how we mitigate the impacts of climate 
change, we also have to come up with a plan to adapt to future 
changes. How do we create a sustainable commitment to reduce 
carbon emissions and plan for the future?
    One place I have looked is my hometown of San Diego. San 
Diego enacted its own climate action plan to eliminate half of 
all greenhouse gas emissions in the city by 2035 and develop an 
adaptation and resiliency plan for future impacts. The plan 
includes a number of policies, but I am just going to focus on 
two areas, which are transportation and developing resiliency 
plans.
    And I might mention, Madam Chair, you mentioned our 
military. On many levels, they have taken the lead in San 
Diego, working with their bases and with other communities. But 
I am going to put that aside right now and just talk about what 
the city of San Diego has done.
    Transportation is the largest source of emissions in the 
United States, accounting for 29 percent of manmade greenhouse 
gas emissions in the United States. To address this, we will 
need more fuel-efficient vehicles, of course, more alternative 
fuels with less carbon content, and we will simply have to 
drive less.
    As automakers develop more economical electric and 
alternative-fuel vehicles, we will need to ensure that we have 
the infrastructure available to accommodate them. Research 
shows that electric vehicles lack adequate infrastructure 
despite surging demand in recent years, and we must fix that.
    Beyond infrastructure, the Federal Government must play a 
major role in promoting cleaner modes of transportation. In San 
Diego, for example, the city's climate action plan includes 
changing policy to have a majority of the city's fleet be 
electric vehicles. Similarly, we should move forward with the 
transition of vehicle fleets of Federal agencies to electric 
vehicles, hybrid-electric vehicles, or alternative-fuel 
vehicles.
    According to the Government Services Administration, what 
we know as GSA, the Federal Government owns or leases over 
640,000 vehicles across all agencies, at a cost of $814 million 
in fuel costs in a single year. With a proper transition plan 
and achievable benchmarks, this is one area where we could 
certainly help reduce our carbon footprint.
    Last, we should make matching funds available for 
communities that want to build infrastructure for bicycling and 
public transport. This would certainly reduce how much time we 
spend in our vehicles.
    As I mentioned earlier, we will also have to think 
critically about developing resiliency plans. Many parts of the 
country are already seeing the effects of climate change--
record-breaking fires in California, historic floods in the 
Midwest, and hurricanes along the East Coast. These events, as 
we know, are becoming more frequent and more intense. And yet 
we continue to build and rebuild in areas that are prone to 
climate-change-related hazards. We see it every year in 
California and across the country.
    But we don't have to wait for disasters to develop a 
resilience plan. We need to improve building codes and land-use 
practices and consider the future impact of climate change 
rather than relying solely on the historical record. We also 
need to include the development of resilience in building 
plans, build more resilient infrastructure, and work towards 
restricting sprawl and increasing density.
    San Diego is currently in the process of developing a 
climate resiliency plan to address climate-change-related 
vulnerabilities across our city and look at developing 
adaptation measures to improve the city's resilience to climate 
hazards.
    It is time. It is time that we do that, too, as a Nation. 
We must look at how we build that resilience. Because more 
disasters are sure to come, and they will be costly. We are 
currently appropriating hundreds of millions of dollars to 
rebuild after each hundred-year storm or record-breaking 
wildfire. We should consider making funds for repairs and 
reconstruction after disasters contingent on the development of 
adaptation and resiliency plans. It is an important message to 
send to our communities.
    Ultimately, Congress must play a role in making more 
resilient cities a reality by building on existing legislation.
    I would like to thank you again for giving me the 
opportunity to be part of this important conversation. Thank 
you.
    [The statement of Mrs. Davis of California follows:]
                              ----------                              


                   Testimony of the Hon. Susan Davis

       A Representative in Congress from the State of California

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Chairwoman Castor, Ranking Member Graves, and Members of the Select 
Committee, it is a pleasure to join you today to discuss what we know 
is the biggest challenge of our time--climate change.
    I am glad the Select Committee is meeting today to take testimony 
on this very important issue and I am pleased to be part of the 
conversation.
    After successful passage of H.R. 9, the Climate Action Now Act, I 
am looking forward to what the Select Committee will come up with next.
NEED TO ACT ON CLIMATE CHANGE
    As we have seen, there is no simple solution.
    Not only do we have to consider how we mitigate the impacts of 
climate change, we also have to come up with a plan to adapt to future 
changes.
    How do we create a sustainable commitment to reduce carbon 
emissions and plan for the future?
    One place I have looked is my hometown--San Diego.
    San Diego enacted its own Climate Action Plan to eliminate half of 
all greenhouse gas emissions in the city by 2035 and develop an 
adaptation and resiliency plan for future impacts.
    The plan includes a number of policies. However, two areas I would 
like to focus on today are transportation and developing resiliency 
plans.
TRANSPORTATION
    Transportation is the largest source of emissions in the United 
States, accounting for 29% of man-made greenhouse gas emissions in the 
United States.
    To address this, we will need more fuel-efficient vehicles, more 
alternative fuels with less carbon content, and we will simply have to 
drive less.
    As automakers develop more economical electric and alternative-fuel 
vehicles, we will need to ensure that we have the infrastructure 
available to accommodate them.
    Research shows that electric vehicles lack adequate infrastructure, 
despite surging demand in recent years. We must fix that.
    Beyond infrastructure, the federal government must play a major 
role in promoting cleaner modes of transportation.
    In San Diego, for example, the city's Climate Action Plan includes 
changing policy to have a majority of the city's fleet be electric 
vehicles.
    Similarly, we should move forward with a transition of vehicle 
fleets of federal agencies to electric vehicles, hybrid electric 
vehicles, or alternative fuel vehicles.
    According to the Government Services Administration (GSA), the 
federal government owns or leases over 640,000 vehicles across all 
agencies at a cost of $814 million in fuel costs in a single year.
    With the proper transition plan and achievable benchmarks, this is 
one area where we could certainly help reduce our carbon footprint.
    Last, we should make matching funds available for communities that 
want to build infrastructure for bicycling and public transport.
    This would help reduce how much time we spend in our vehicles.
BUILDING BETTER, MORE RESILIENT CITIES
    As mentioned earlier, we will also have to think critically about 
developing resiliency plans.
    Many parts of the country are already seeing the effects of climate 
change: record-breaking fires in California, historic floods in the 
Midwest, and hurricanes along the east coast.
    These events are becoming more frequent and more intense and yet we 
continue to build and rebuild in areas that are prone to climate 
change-related hazards.
    We see it every year in California and across the country. But we 
don't have to wait for disasters to develop a resilience plan.
    We need to improve building codes and land use practices and 
consider the future impact of climate change rather than rely solely on 
the historical record.
    We also need to include the development of resilience in building 
plans, build more resilient infrastructure, and work towards 
restricting sprawl and increasing density.
    San Diego is currently in the process of developing a climate 
resiliency plan to address climate change-related vulnerabilities 
across the city and develop adaptation measures to improve the city's 
resilience to climate hazards.
    It's time that we do that too--as a nation--because more disasters 
are sure to come and they will be costly.
    We are currently appropriating hundreds of millions of dollars to 
rebuild after each hundred-year storm or record-breaking wildfire.
    We should consider making funding for repairs and reconstruction 
after disasters contingent on the development of adaptation and 
resiliency plans.
    Ultimately, Congress must play a role in making more resilient 
cities a reality by building on existing legislation.
    I would like to thank you again for giving me the opportunity to be 
a part of this important conversation.
    And I will look forward to your recommendations.

    Ms. Castor. Thank you, Representative Davis, for your 
insightful testimony, particularly about the leadership efforts 
from San Diego.
    Any questions from the members?
    Thank you.
    Ms. Castor. Welcome, Congresswoman Barragan. I know, as my 
colleague from the Energy and Commerce Committee, you have been 
a leader when it comes to clean energy. You are recognized for 
5 minutes.

  STATEMENT OF THE HON. NANETTE BARRAGAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Barragan. Thank you, Madam Chairwoman and the ranking 
member and members of the committee, for the opportunity to 
testify here today in front of the select committee.
    From sea-level rise to the location of power plants, to 
fossil-fuel extraction, to the urban heat-island effect, the 
inequities from our energy system and who bears its 
consequences are everywhere. People of color are on the front 
lines of this issue. We are hit first and worst. We need a 
climate bill that rises to the scale of both the climate crisis 
and the damage from environmental racism that impacts my 
district and the districts like it across the country.
    The best way for us to understand these challenges and how 
to overcome them is to meet environmental justice communities 
where they are. Not everyone can make it here to Washington, 
D.C., for a hearing or a meeting with their Representative. I 
appreciate that the select committee has conducted a field 
hearing in Boulder, Colorado, on local and State solutions, 
and, going forward, I want to encourage to you prioritize field 
hearings in EJ communities.
    In particular, I have a couple of ideas for field hearings 
in my very district, in south Los Angeles, that could both 
illuminate our local challenges and provide useful information 
for Federal climate policy that can address these kinds of 
issues across the country.
    One possibility is to hold a field hearing with the Port of 
Los Angeles and community environmental leaders in my district. 
We have one of the most ambitious ports in the country when it 
comes to reducing emissions. At the same time, the port is a 
significant source of air and climate pollution. And 
environmental groups in my district have strong views on the 
best paths forward for the port to achieve zero emissions as 
quickly as possible.
    These are challenges that face ports throughout the 
country, so we could apply what is learned there to different 
parts of the country and incorporate it into any legislation.
    An additional possibility is a hearing on a just transition 
away from fossil fuels and what it means for communities like 
mine. We deal with pollution from oil refineries and ongoing 
urban oil drilling right in people's backyards, which has a 
direct impact on the quality of the air we breathe. At the same 
time that the fossil-fuel industry has a disproportionate 
footprint in minority communities and those that are low-
income, these industries often provide jobs, including union 
jobs, to my constituents. As we work to unwind the fossil-fuel 
economy, we need insights on how to provide for a just 
transition for workers in the fossil-fuel industry.
    I would welcome the opportunity to work with the select 
committee on these and other ideas for a field hearing in my 
district as part of the process for crafting climate solutions 
that leave no community behind.
    Thank you again for the opportunity to testify today.
    [The statement of Ms. Barragan follows:]
                              ----------                                
        


              Testimony of the Hon. Nanette Diaz Barragan

       A Representative in Congress from the State of California

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Good afternoon, thank you for providing members of Congress with 
the opportunity to address the Select Committee on Climate Change.
    From sea level rise, to the location of power plants, to fossil 
fuel extraction, to the urban heat island effect, the inequities from 
our energy system and who bears its consequences are everywhere. People 
of color are on the front line of this issue. We are hit first and hit 
worst.
    We need a climate bill that rises to the scale of both the climate 
crisis, and the damage from environmental racism that impacts my 
district, and the districts like it across the country. The best way 
for us to understand these challenges, and how to overcome them, is to 
meet environmental justice communities where they are. Not everyone can 
make it down to DC for a hearing or a meeting with their 
representative.
    I appreciate that the select committee has conducted a field 
hearing in Boulder, Colorado on local and state solutions, and going 
forward I want to encourage you to prioritize field hearings in EJ 
communities. In particular, I have a couple of ideas for field hearings 
in my district that could both illuminate our local challenges and 
provide useful information for federal climate policy that can address 
these kinds of issues across the country.
    One possibility is a hearing on a just transition away from fossil 
fuels, and what that means for communities like mine. We deal with 
pollution from oil refineries and ongoing urban oil drilling, which has 
a direct impact on the quality of the air we breathe. At the same time 
that the fossil fuel industry has a disproportionate footprint in 
minority communities, these industries often provide jobs, including 
union jobs, to my constituents. As we work to unwind the fossil fuel 
economy, we need insights on how to provide for a just transition for 
workers in the fossil fuel industry.
    An additional possibility is to hold a field hearing with the Port 
of Los Angeles and community environmental leaders in my district. We 
have one of the most ambitious ports in the country when it comes to 
reducing emissions. At the same time, the port is a significant source 
of air and climate pollution and environmental groups in my district 
have strong views on the best path forward for the port to achieve zero 
emissions as quickly as possible. These are challenges that face ports 
throughout our country.
    I would welcome the opportunity to work with the Select Committee 
on these or other ideas for a field hearing in my district, as part of 
the process for crafting climate solutions that leave no community 
behind.
    Thank you.

    Ms. Castor. Thank you very much.
    You are absolutely right. We have to ensure, as we are 
developing policies to tackle the climate crisis going forward, 
that we do not leave folks on the front lines behind and that 
environmental justice policies are incorporated in everything 
that we recommend to the congressional committees. And I think 
the committee would look forward to a trip to your district and 
to examine these issues.
    Mr. Griffith, do have you any questions?
    Mr. Griffith. I do have a comment. I also agree that we 
need to make sure we don't leave communities behind.
    I represent a coal-producing district. And, you know, if we 
are going to reinvent the economy, as people often suggest to 
us, we are going to need road money and we are going to need 
other moneys to help us reinvent an economy that for over a 
hundred years has been reliant exclusively or predominantly on 
coal. And I appreciate your comments on that.
    Ms. Castor. Mr. Casten.
    Thank you. Next up is Congressman Lieu from California.
    Welcome. You are recognized for 5 minutes.

 STATEMENT OF THE HON. TED LIEU, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Lieu. Thank you. Thank you, Chairwoman Castor, the 
ranking member, and members of the committee, for allowing me 
to testify before you today.
    I am here to urge you to support two bills I have 
introduced: H. R. 330, the Climate Solutions Act; and H. R. 
2360, the Renewable Energy for Puerto Rico and the U.S. Virgin 
Islands Act.
    I believe that climate change is the greatest existential 
threat to humankind. In recent years, the dangers of climate 
change have become increasingly clear. According to the 
National Oceanic and Atmospheric Administration, the last 5 
years have been the hottest on record, with July 2019 being the 
hottest month in recorded history.
    These records have severe consequences. In 2018, the U.S. 
experienced several major weather disasters, resulting in 245 
lives lost and $91 billion of damages. And we can see the 
climate crisis unfolding before our very eyes in districts we 
all represent. Last year, wildfires, including the Woolsey Fire 
in my congressional district, tore through California, making 
it the most destructive fire season on record. This year, we 
saw additional fires in my district, including the Palisades 
Fire and the Getty Fire. At the same time, communities 
throughout the country are dealing with hurricanes, flooding, 
and other extreme weather events.
    That is why I introduced the Climate Solutions Act. When I 
was in the California State legislature, I was a co-author of 
AB 32, California's landmark Global Warming Solutions Act. The 
reason that I thought that law did well was we didn't set out 
and say, hey, here are 951 things we want you to do to mitigate 
climate change. Instead, we set a goal, and then we directed an 
agency to get us to that goal and gave that agency the power to 
take us there. So we set a goal of pre-1990 levels of 
greenhouse gases by 2020, and we gave the California Air 
Resources Board the power to take us there. My legislation is 
similar. It sets goals, and then it directs the EPA and the 
Department of Energy to take us there.
    And so, first, the bill sets out a national renewable 
energy standard to drive us towards 100-percent renewable 
energy by 2035. Next, it creates a stringent national energy 
efficiency standard to reduce energy usage and to save 
consumers money. And, finally, the legislation sets ambitious 
greenhouse-gas emission targets to reduce emissions to 80 
percent below 1990 levels by 2050.
    The proposal has nearly two dozen Members of Congress who 
have co-sponsored it, and I respectfully request that you 
consider it as well.
    And the second bill I would like to talk about is the 
Renewable Energy for Puerto Rico and the U.S. Virgin Islands 
Act.
    We know that two hurricanes struck Puerto Rico, Maria and 
Irma, as well as the U.S. Virgin Islands, cutting off access to 
power for most communities on the island. Without electricity, 
critical sites such as hospitals and wastewater treatment 
plants became inoperable, local businesses closed, and 
performing regular tasks became nearly impossible.
    It remains clear that we have a unique and necessary 
opportunity to empower local communities in Puerto Rico and the 
U.S. Virgin Islands to build up renewable energy systems that 
would remain operable after storms.
    Under this act, the legislation would establish a program 
at the U.S. Department of Agriculture to award grants to not-
for-profit organizations for the purposes of developing 
renewable energy systems in local communities. The funds may 
also be used to improve energy efficiency and battery storage 
and to train local residents.
    And, finally, the bill will require the Government 
Accountability Office to conduct a study on renewable energy 
and energy efficiency in Puerto Rico and the U.S. Virgin 
Islands.
    This proposal has the support of Representative Gonzalez-
Colon of Puerto Rico, Representative Stacey Plaskett of the 
U.S. Virgin Islands, and Representative Raul Grijalva, the 
chairman of the Natural Resources Committee. And I respectfully 
request that you consider this legislation as well.
    Again, thank you for having me here, and look forward to 
working with you as we tackle the issue of climate change.
    [The statement of Mr. Lieu follows:]
                              ----------                              --
--------


                   Testimony of the Hon. Ted W. Lieu

       A Representative in Congress from the State of California

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Chairwoman Castor and Ranking Member Graves, thank you for allowing 
me to testify. Today, I am here to urge you to support two bills I have 
introduced: H.R. 330, the Climate Solutions Act and H.R. 2360, the 
Renewable Energy for Puerto Rico and the U.S. Virgin Islands Act.
    I believe that climate change is the greatest existential threat to 
humankind. In recent years, the dangers of climate change--and the need 
to address it--have become increasingly clear. According to the 
National Oceanic and Atmospheric Administration, the last five years 
have been the five hottest on record with July 2019 being the hottest 
month in recorded history. These records have severe consequences. In 
2018, the U.S. experienced several major weather disasters resulting in 
247 lives lost and $91 billion in damages.
    Beyond these numbers, we can see the climate crisis unfolding 
before our eyes. Last year, wildfires, including the Woolsey Fire in my 
congressional district, tore through California making it the most 
destructive fire season on record. This year, we've seen similar 
apocalyptic images of fires in the West. At the same time, communities 
throughout the country are dealing with hurricanes, flooding, and other 
extreme weather events.
H.R. 330, The Climate Solutions Act
    Last October, the International Panel on Climate Change found that 
limiting temperature increases to 1.5 +C above pre-industrial levels by 
the end of the century requires a decrease in carbon emissions to 45 
percent below 2010 levels by 2030. The urgency of these numbers demands 
bold action from Congress. That is why I introduced a strengthened 
Climate Solutions Act to comprehensively address the climate crisis. 
First, the bill sets out a National Renewable Energy Standard to drive 
us towards 100 percent renewable energy by 2035. Next, it creates a 
stringent National Energy Efficiency Standard to reduce energy usage 
and save consumers money. Finally, my legislation sets ambitious 
greenhouse gas emissions targets to reduce emissions to 80 percent 
below 1990 levels by 2050. This proposal has the support of nearly two 
dozen of our colleagues in Congress and I'd ask you to support it.
H.R. 2360, Renewable Energy for Puerto Rico and the U.S. Virgin Islands 
        Act
    In 2017, Hurricanes Maria and Irma struck Puerto Rico and the U.S. 
Virgin Islands cutting off access to power for most communities on the 
island. Without electricity, critical sites such as hospitals and 
wastewater treatment plants became inoperable, local businesses closed, 
and performing regular tasks became nearly impossible. It remains clear 
that we have a unique and necessary opportunity to empower local 
communities in Puerto Rico and the U.S. Virgin Islands to build up 
renewable energy systems that will remain operable after storms.
    That is why I introduced the Renewable Energy for Puerto Rico and 
the U.S. Virgin Islands Act. This legislation will establish a program 
at the U.S. Department of Agriculture to award grants to not-for-profit 
organizations for the purposes of developing renewable energy systems 
in local communities. The funds may also be used to improve energy 
efficiency and battery storage and to train local residents. Finally, 
the bill will require the General Accountability Office to conduct a 
study on renewable energy and energy efficiency in Puerto Rico and the 
U.S. Virgin Islands. This proposal has the support of Representative 
Gonzalez-Colon of Puerto Rico, Representative Stacey Plaskett of the 
U.S. Virgin Islands, and Representative Raul Grijalva, the Chairman of 
the Natural Resources Committee.
Conclusion
    H.R. 330 and H.R. 2360 will prove critical to reducing greenhouse 
gas emissions to address the climate crisis and help communities 
devastated by extreme weather events build back in a more resilient 
manner. I urge you to include these bills in your final report to the 
standing committees.
    Thank you again for the opportunity to testify before you.

    Ms. Castor. Well, thank you very much, Mr. Lieu.
    The committee does intend to delve into lessons learned 
from climate action in California, so your insight and your 
legislation will be very helpful as we move forward. So thank 
you very much.
    Mr. Lieu. Thank you.
    Ms. Castor. I have, just so you know, on my--oh, Mr. 
Casten, you are recognized.
    Mr. Casten. So, number one, I want to absolutely echo your 
point that we need to be goal- rather than path-focused. I 
think all of our best environmental regulations followed that.
    A question for you to consider and maybe submit comments 
afterwards, if you can, is: In thinking about places like 
California that have been well ahead of the Federal Government, 
how can we roll out Federal policy that is maximally 
synergistic with what has been done in the States? Maybe push 
them to do more, but we are going to be rolling out these 
policies in the context of AB 32 and RGGI and all these other 
programs, and I think we need to put some thought into how to 
make sure that those fit with those existing State programs.
    I welcome your thoughts.
    Mr. Lieu. Yes. So thank you for that question. We need to 
make sure we don't preempt States that have gone further and 
have innovated. At the same time, there are a lot of States 
that have done virtually nothing. And so we do need to bring up 
all of the States to an area where we are dealing with tackling 
climate change.
    One of the reasons I ran for Congress, it was clear to me 
that California could go dark tomorrow, do no energy use 
whatsoever, and it wouldn't change many things. Because what we 
need is the rest of America to do what California has done and 
then the rest of the world to do what America will do, and then 
we have a shot at combating climate change.
    So we need to make sure we don't preempt what States have 
already been doing but still set standards that will make a 
difference.
    Thank you.
    Ms. Castor. Thank you very much.
    Mr. Lieu. Thank you.
    Ms. Castor. All right. Congresswoman Bustos, you have been 
very outspoken particularly when it comes to solutions in 
agriculture. We look forward to hearing your testimony. You are 
recognized for 5 minutes.

    STATEMENT OF THE HON. CHERI BUSTOS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mrs. Bustos. All right, very good. Thank you, Chairwoman 
Castor, for your leadership on this, and certainly appreciate 
the opportunity to be in front of the Select Committee on the 
Climate Crisis.
    This is literally what I see as one of the most complicated 
challenges that our Nation and our world are facing today. As 
the national and global conversation continues, I want to be 
sure to bring the perspective of the region that I represent, 
the center of the country, and the solutions that we think we 
can bring forth to help address the climate debate.
    So I want to give you a little bit of background on the 
district I serve first. Seven thousand square miles. Covers the 
entire northwest corner of the State of Illinois. Sixty percent 
of the towns in the congressional district I serve are 1,000 
people or fewer. Eighty-five percent of the towns are 5,000 
people or fewer. We have 9,600 farms. And the entire western 
border is the biggest inland navigable waterway in the world, 
the Mississippi River.
    So, this past spring, we saw up close and personal what the 
climate crisis means, especially to our family farmers. We had 
historic flooding, where the Illinois River and the Mississippi 
River didn't just rise once but would go down and would rise 
again, and just historic flooding, where our growers and our 
producers literally had to apply in record numbers for what is 
called ``prevent plant'' because they couldn't even plant their 
soybean fields and their cornfields because of the massive 
flooding that we were experiencing.
    So we wanted to make sure that we produced something to 
this committee that would show that we want to be part of the 
solution, in the middle part of our country. We want to have a 
seat at the table, and we want to make sure there is an 
understanding of what we are facing. So this is a matter of 
saying that rural America, we have some answers.
    And what we have done is we put together a proposal that we 
call the--gosh, it is pretty bad that I don't have that right 
in front of me--the Rural Green Partnership. The Rural Green 
Partnership. So it is a set of policies that work with Federal, 
local, and State governments, producers, businesses, labor 
organizations, other stakeholders, to lower the greenhouse 
emissions and really look at every economic sector of rural 
America.
    So, with each of these policies, it is designed to 
basically lift up our region and empower the enormous potential 
that we see in rural America. So just a few examples that I 
wanted to share with you this afternoon.
    So we look at things like sequester carbon and soils, 
vegetation, forests; grow and produce biofuels in renewable 
products; capture carbon dioxide and store it deep underground, 
where it can be put for beneficial use; the building of wind 
farms and solar fields on a large scale, because we have so 
much open land; and employ the wealth of technical training 
schools, community colleges, Tribal colleges, land grant and 
other universities; work with organized labor, apprenticeship 
programs, research facilities, and prepare our workforces to 
create thousands of good-paying jobs and boost our local 
economies.
    So we see this as tackling the climate crisis as a moral 
and economic imperative. And I hope that your special committee 
will take a look at this and make sure that rural America has a 
seat at the table and sees us as part of the solution.
    I want to thank you for the opportunity to be here with you 
today. And I know we have a little bit more time. I am happy to 
answer any questions about this, if have you any.
    [The statement of Mrs. Bustos follows:]
                              ----------                              --
--------


             Testimony of the Hon. Cheryl ``Cheri'' Bustos

        A Representative in Congress from the State of Illinois

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Thank you, Chairwoman Castor and Ranking Member Graves for giving 
me the opportunity to share my policy recommendations for addressing 
the climate crisis.
    Climate change may very well be the most complicated challenge our 
nation, and the world, has ever faced.
    As the national and global conversation continues, I want to be 
sure to bring the perspective of the region I represent--the center of 
the country--and what we can offer to the climate change debate.
    Illinois' 17th Congressional District spans 7,000 square miles.
    85% of the towns in my district are 5,000 people or fewer, and 60% 
are 1,000 people or fewer. There are 9,600 family farms, and along the 
western border is the largest navigable inland waterway in the world--
the Mississippi River.
    And this past spring, my district experienced the effects of 
climate change firsthand. From historic flooding to unpredictable 
weather, the growers and producers in my district struggled to plant, 
grow and harvest their crops.
    But it is more than just our farmers, these challenges impact every 
aspect of my region.
    Witnessing this, I decided to submit the Rural Green Partnership to 
this Committee. The Rural Green Partnership is a framework of 
principles and policies to both combat climate change and spur economic 
growth.
    It brings rural America to the table of the climate debate, a 
conversation that we've too often been left out of--or worse--simply 
blamed for.
    Specifically, it details a set of policies that work with federal, 
local and state governments, producers, businesses, unions, non-
governmental organizations and other stakeholders to lower greenhouse 
gas emissions in every economic sector of rural America.
    And each of these policies is designed to bring to the table what 
our region of the country offers. It truly empowers and lifts up the 
enormous potential of rural America.
    Because rural America can . . .
          <bullet> Sequester carbon in soils, vegetation and forests
          <bullet> Grow and produce biofuels and renewable products
          <bullet> Capture carbon dioxide and store it deep underground 
        or put it to beneficial use
          <bullet> Build wind farms and solar fields on a large scale
          <bullet> And employ its wealth of technical training schools, 
        community colleges, tribal colleges, land grant and other 
        universities, union registered apprenticeship programs and 
        research facilities to prepare our workforce, create thousands 
        of good-paying jobs and boost our local economies.
    Tackling the climate crisis is both a moral and economic 
imperative. I urge my colleagues to make sure rural America is included 
in any conversation about our path forward.
    Thank you for this opportunity, and I yield back the remainder of 
my time.

    Ms. Castor. Well, thank you, Congresswoman Bustos.
    You know, since you released your Rural Green Partnership 
policy proposals, it has been quite interesting, because I have 
seen a lot of folks in the ag industry and from rural America 
kind of rallying around these type of ecosystem solutions, 
solutions for the land--as you highlighted, sequestering 
carbon.
    What we need now, we need to hear from a lot of those 
experts as we develop the policy proposals, put a little more 
meat on the bones. A lot of the land grant universities are 
ready to step up and help. So help us spread the word through 
our request for proposal that is out on the street to use your 
leadership position now to tap that expertise across rural 
America to help us develop those kind of solutions.
    Mrs. Bustos. Well, we are happy to help you with that in 
any way possible, and really appreciate the opportunity to 
present this to you today. Thank you, Chairwoman.
    Ms. Castor. Thank you very much. Terrific.
    Next is the co-founder of the Climate Solutions Caucus, 
also the co-chair. I want to thank my colleague from Florida, 
Congressman Ted Deutch, for his leadership on climate change 
throughout his career.
    Congressman, you are recognized for 5 minutes.

STATEMENT OF THE HON. TED DEUTCH, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Deutch. Thank you, Chairwoman Castor, Mr. Griffith. It 
is wonderful to be here. Thanks for holding this Member Day.
    Imagine walking outside to a beautiful, sunny south Florida 
day, the sort of weather that attracts visitors to the Sunshine 
State. It is the backbone of our economy. Imagine strolling 
down Las Olas Boulevard in Fort Lauderdale under cloudless 
skies--and yet standing in water up to your ankles. Rising seas 
make sunny-day flooding a regular occurrence in south Florida. 
The South Florida Sun-Sentinel labeled October's annual king 
tides the time of year when fish swim in the streets.
    For my constituents, climate change is already a part of 
their daily lives. Americans around the country are 
experiencing their own climate impacts today. Rushing flood 
waters, stronger storms, brutal droughts, sprawling wildfires 
won't discriminate between Republican or Democratic households.
    These impacts inspired me and Congressman Francis Rooney to 
introduce the bipartisan Energy Innovation and Carbon Dividend 
Act. That is H.R. 763.
    Our proposal would finally put a price on carbon. For too 
long, damaging carbon emissions have been left off the balance 
sheets of the world's largest polluters. Instead, we are all 
paying the price. That is why we need a market-driven solution 
that will get us to zero emissions.
    Last month, the International Monetary Fund called carbon 
pricing the single most powerful and efficient tool to reduce 
emissions. The IMF called for a $75-per-ton fee by 2030. Our 
bill gets there by 2026. We start at a modest $15 per ton 
assessed on fossil fuels at the source--at refineries, at 
mines, and pipelines. But the price quickly ratchets up, $10 
per year.
    Putting a price on carbon will send a bright signal across 
the economy that it is time to switch to a clean-energy 
economy. It will drive clean-power innovations that make 
business sense as much as they make climate sense.
    The big question is, where does the money go? One hundred 
percent goes back to the American people as a monthly dividend 
check. We have seen what happens when carbon fees hit consumers 
directly and the revenue is then used for purposes other than 
directly helping consumers: It doesn't work, and it penalizes 
the most vulnerable. Monthly dividends will allow families to 
afford renewable energy as an alternative to carbon-based 
fuels.
    Last month, Columbia University's Center on Global Energy 
Policy released an in-depth report on our bill. And I would ask 
unanimous consent to submit for the record an assessment of the 
Energy Innovation and Carbon Dividend Act.
    Ms. Castor. Without objection.
    [The information follows:]
                              ----------                              --
--------


                       Submission for the Record

                      Representative Kathy Castor

                 Select Committee on the Climate Crisis

                           November 14, 2019

    ATTACHMENT: Kaufman, Larsen, et al. An Assessment of the Energy 
Innovation and Carbon Dividend Act. Columbia University Center on 
Global Energy Policy, 2019.
    This report is retained in the committee files and available at: 
https://energypolicy.columbia.edu/sites/default/files/file-uploads/
EICDA_CGEP-Report.pdf.

    Mr. Deutch. The report found that our bill will produce 
economy-wide net greenhouse gas emission reductions of 38 
percent by 2030, exceeding our Paris Agreement commitments; by 
2050, 90 percent reductions. It would also create over 2 
million net jobs over 10 years and will return monthly checks 
of as much as $367 per month to a family of four.
    Returning the cost of pollution back to American families 
is essential. We need a drastic turn away from hundreds of 
years of unchecked carbon pollution toward a carbon-free 
economy. But we must root this dramatic change in justice. 
Justice means those who have profited off the destruction of 
our environment pay the price. Justice means protecting people 
who have been locked into a carbon-heavy lifestyle through no 
fault of their own.
    And the balance of market-driven solutions and protection 
for the most vulnerable is why this bill has the support of 
advocates from across the ideological spectrum, from Citizens' 
Climate Lobby, to the Alliance for Market Solutions, to the 
Catholic Bishops of America and other faith-based 
organizations. I ask that this committee respond to their call 
by recommending that the Ways and Means Committee fully 
consider this bill.
    It is important to set goals and targets, but we need to do 
something to get us there. This bill can do exactly that. It is 
time to stop passing the cost for carbon pollution on to the 
next generation. It is time to pull the levers in our economy 
to deliver real and lasting change. It is time to put a price 
on carbon. The Energy Innovation and Carbon Dividend Act will 
do that. The stakes could not be any higher, and we must act 
now.
    Again, Madam Chairman, I am so grateful for the opportunity 
today. Thank you for giving us the chance to present.
    [The statement of Mr. Deutch follows:]
                              ----------                              --
--------


             Testimony of the Hon. Theodore ``Ted'' Deutch

         A Representative in Congress from the State of Florida

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Thank you, Chairwoman Castor and Ranking Member Graves.
    Imagine walking outside to a beautiful, sunny South Florida day.
    The sort of weather that attracts tourists to the Sunshine State 
and is the backbone of our economy.
    Imagine strolling down Las Olas Boulevard in Fort Lauderdale under 
cloudless skies, and yet, you are in standing water up to your ankles.
    Sunny-day flooding events are now a regular occurrence in South 
Florida because of rising seas.
    October's ``king tides'' are the time of the year when, according 
to the South Florida Sun Sentinel, ``fish swim in the streets.''.
    For my constituents, climate change is already a part of their 
daily reality.
    Americans around the country are already experiencing their own 
climate impacts--TODAY.
    Rushing flood waters, stronger storms, brutal droughts, and 
sprawling wildfires won't discriminate between Republican or Democratic 
households.
    The climate impacts we are already feeling today inspired us to 
introduce the bipartisan ``Energy Innovation and Carbon Dividend Act''.
    Our proposal would finally put a price on carbon.
    For too long, the damage by carbon emissions to our planet have 
been left off the balance sheets of the world's largest polluters.
    Instead, we are ALL paying the price.
    That's why we need a market-driven solution that will get us to 
zero emissions.
    Last month, the International Monetary Fund released a report 
calling carbon pricing the ``single, most powerful and efficient tool'' 
to reduce emissions.
    The IMF report calls for a global fee on carbon of $75 per ton by 
the year 2030. Our bill gets there by 2026.
    We start at a modest $15 per ton of carbon assessed at the source--
on the fossil fuel companies.
    But the price quickly ratchets up $10 per year.
    By putting a price on carbon, we will set a bright signal across 
the economy that it is time to switch to cleaner energy sources.
    It will drive new clean power innovations that make business-sense 
as much as they make climate-sense.
    The big question: where does the money go?
    100 percent of the net revenue will be returned to the American 
people as a monthly dividend check.
    We've seen in cases around the world what happens when carbon fees 
try to hit consumers directly, or the revenue is used for purposes 
other than to directly help consumers.
    It doesn't work, and it penalizes the most vulnerable.
    By returning a carbon dividend check directly to the people, 
working families will be in a financial position to afford renewable 
energy as they become an attractive alternative to carbon-based fuels.
    Last month, Columbia University Center on Global Energy Policy 
released an in-depth report on the bill.
    The report found that our bill would:
    Lead to economy-wide net greenhouse gas emission reductions of 33% 
by 2025 and 38% by 2030----
    These reductions exceed our commitments to the Paris Agreement.
    By 2050, our plan would cut greenhouse gas emissions by 90 percent.
    Other studies have found that our fee and dividend proposal would 
create over 2 million net jobs over ten years.
    I want to thank the broad base of support we have received on this 
proposal from stakeholders across the ideological spectrum.
    But I especially want to thank the bipartisan advocates from 
Citizens Climate Lobby.
    CCL advocates take time out of their lives to come to Congress to 
meet with their representatives and urge bold action on climate.
    They have been instrumental in the progress we have made on this 
bill.
    I urge the committee to closely examine this proposal.
    It is time to stop passing the costs for carbon pollution on to the 
next generation.
    It is time to pull the levers within our economy that will deliver 
real and lasting change.
    It is time to put a price on carbon.
    This committee is charged with investigating, studying, and 
developing recommendations to substantially and permanently alleviate 
the causes of climate change.
    I urge you in the strongest terms to press this Congress to make a 
carbon fee and dividend program part of your important work----
    Work that is of existential importance to our planet.

    Ms. Castor. Well, thank you to my good friend from Florida, 
Congressman Deutch.
    You know, you mentioned the flooding there in downtown Fort 
Lauderdale.
    And if you haven't been to Fort Lauderdale, it is a 
beautiful place. It is known as the Venice of the United 
States.
    Well, you don't want to be the Venice of the United States, 
because Venice, Italy, right now is completely flooded over. 
But my brother-in-law, the one day of the terrible flooding 
there, sent me some video where the flooding now was coming 
over onto sidewalks, into the street. They had a lot of those 
little scooters there practically washed away into the canal.
    If we don't get busy, this is going to get worse. So I 
really appreciate your leadership on this. The committee will 
be grappling with how we price carbon and what our 
recommendations are, so thank you for your advice to the 
committee.
    Mr. Deutch. Thanks so much.
    Ms. Castor. Mr. Reed, you are the co-chair the Problem 
Solvers Caucus, and we have a problem, and it is called the 
climate crisis. So I hope you have some good recommendations 
for the committee.
    Mr. Reed. Well, I hope I do, Madam Chair.
    Ms. Castor. You are recognized for 5 minutes.

 STATEMENT OF THE HON. TOM REED, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Reed. It is good to be with you. And to the ranking 
member, I thank you for the opportunity to appear before you on 
this Select Committee on the Climate Crisis.
    And as the chair of the Problem Solvers Caucus, I would 
agree with you; this is a problem that needs a solution. And I 
think working together is how we are going to get this done, 
Democrats, Republicans, and fundamentally as American citizens, 
as citizens of the world.
    I am here to discuss the Energy Sector Innovation Credit 
Act as an idea as part of the solution to this issue as we work 
in a bipartisan way to ensure future generations have clean air 
to breathe, clean water to drink, and an overall healthy home 
we call Earth.
    Energy innovation is not a subject that I am new to or that 
I take lightly. In my career, I have worked to demonstrate a 
commitment to provide tax credits in the alternative and 
renewable energy sector. This is best reflected by my receiving 
the Solar Energy Industries Association's Solar Champion Award 
in 2016 for my work in the Ways and Means Committee to ensure 
relevant tax credits to that industry did not expire.
    However, I have come to realize that not only should these 
specific tax policies be championed in their own right but we 
must also unleash the strongest asset we have to deal with this 
worldwide problem of climate: the power of American ingenuity 
and innovation. It is this unique American capability that has 
proven time and time again that it can avert world crises. And 
this situation is and will be, in my humble opinion, no 
different.
    It is in this vein that I will introduce legislation to 
offer a tax incentive for new energy technologies which would 
increase overall energy on the grid and ensure unneeded energy 
is not financially rewarded so it will not be unnecessarily 
produced. This will help cutting-edge technologies break into 
the market to push new and old energy portfolios to provide 
next-generation clean and potentially unlimited energy sources.
    How would it work? By spurring innovation in the market 
through these tax incentives, we can ensure a clean environment 
for future generations, rather than producing policies that 
line the pockets of established technologies and prop up 
otherwise uneconomical and ultimately unaffordable 
technologies.
    This plan would lead to cleaner power without the false 
security created by government mandates that cannot be 
technologically achieved or a noncompetitive over-reliance on 
Federal tax credits that ultimately will stifle energy 
technologies becoming accessible in the world market. If these 
technologies are not affordable and accessible, any improvement 
or benefit to our environment here in America and across the 
globe will be impossible.
    Instead of picking winners and losers in the energy sector, 
this new tax credit would bolster market-driven innovation 
across all existing and new electricity-generating 
technologies. This means everything from new power plants that 
can capture, store, or use carbon emissions from fossil-fuel 
generation to facilities using next-generation batteries to 
store excess power from wind, solar, and other renewable 
sources will be encouraged. Offshore wind would become 
commercially viable.
    And these technologies are just the beginning. There are 
technologies and innovation that this would spur that we can't 
even envision because of the ingenuity and the innovation 
spirit of America that always comes through in these times of 
our greatest needs.
    So I stand before you, or I sit before you, Madam Chair, as 
a bipartisan Member of the House supporting this proposal, 
because I think Members on both sides of the aisle know and 
recognize that innovation is a critical key in the long-term 
viable solution to combating climate change and ensuring that 
we have a home here on this great globe in a safe and secure 
fashion for generations to come.
    And so, Madam Chair, I submit that to the committee for 
consideration. And I encourage any folks on both sides of the 
aisle to come together to embrace American innovation, American 
ingenuity, and provide the solutions that are going to truly 
move the needle to solve this problem for our kids and for our 
grand-kids that don't even exist on the face of the Earth as of 
today.
    With that, I yield back.
    [The statement of Mr. Reed follows:]
                              ----------                              --
--------


               Testimony of the Hon. Thomas ``Tom'' Reed

        A Representative in Congress from the State of New York

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Madam Chair, I am appearing before the Select Committee on the 
Climate Crisis to discuss the Energy Sector Innovation Credit Act, as 
we work in a bipartisan way to ensure future generations have clean air 
to breath in and clean water to drink.
    For decades, Congress has routinely acted on a bipartisan basis to 
extend a number of expired or expiring green energy tax provisions. 
Typically, these extensions would be bundled into a part of a larger 
spending package or budget deal at the end of the year--oftentimes 
hurriedly or haphazardly with little thought of whether the industry 
receiving the tax break was deserving.
    I have even pushed for these tax credits in the green energy 
sector, and I received the Solar Energy Industries Association Solar 
Champion Award in 2016 for my work in the Ways and Means Committee to 
ensure solar tax credits did not expire.
    However, what I have come to realize is that we hand out these tax 
extenders with little regard if the industry is using this incentive to 
boost profits or to actually advance green technology.
    This is why I will introduce legislation to offer a tax incentive 
for new clean energy technologies which would increase energy on the 
grid, ensure unneeded energy is not financially rewarded, help cutting-
edge technologies break into the market and upend the status quo of 
federal incentives for existing technologies.
    How would it work?
    The plan ends unlimited, market-distorting extenders for tax 
incentives and has a built-in ramp down for each technology as it 
grows. By spurring innovation in the market, we can ensure a clean 
environment for future generations rather than lining the pockets of 
established technologies and propping up otherwise uneconomical 
technologies.
    Instead of picking winners and losers in the energy sector, this 
new tax credit would bolster market-driven innovation across 
electricity-generating technologies. This means everything from a new 
power plant which can capture, store or use carbon emissions from 
fossil fuel generation to facilities using next-generation batteries to 
store excess power from wind, solar and other renewable sources.
    This plan would lead to cleaner power without government mandates 
or an uncompetitive over-reliance on federal tax credits.
    The current market rewards energy whether it is used or not. My 
bill ensures incentives apply to the value of energy when sold so we do 
not reward unwanted power.
    Both the Republicans on the Ways and Means Committee and bipartisan 
members of the House are supporting this proposal--not only to help 
bring an end to the tax extender carousel--but because they know 
innovation is the only viable long term solution to combat climate 
change and ensure clean air and water for future generations.

    Ms. Castor. Well, thank you, Mr. Reed, for your remarks and 
your encouragement. I do believe that this committee will find 
bipartisan solutions and help unleash American ingenuity that 
can help with climate solutions.
    So thank you very much.
    Mr. Griffith.
    Mr. Griffith. Madam Chair, if I might.
    I appreciate your comments. Innovation is extremely 
important. It has been interesting, as we have done some of the 
hearings, some of the Democrat witnesses and some of the 
Republican witnesses have both agreed that this is something 
that we need to focus on, in innovation and parity with both 
renewables and fossil fuels, because big chunks of the world 
are going to use fossil fuels. If we can find a way to make it 
cleaner, we are not just helping the United States of America, 
we are helping to clean up the world.
    Ms. Castor. Thank you.
    Mr. Reed. Thank you.
    Ms. Castor. All right. Congresswoman Lee, you have been an 
outspoken advocate for climate solutions. I am pleased to 
recognize you for 5 minutes.

STATEMENT OF THE HON. BARBARA LEE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Lee of California. Thank you very much. Thank you, 
Madam Chair and to our ranking member and committee members, 
for giving me a chance today to discuss H.R. 1880 and H. Res. 
574. My bill and the resolution will help bring attention to 
two populations who are often overlooked, women and students, 
as it relates to climate change.
    First, H.R. 1880 will address the disproportionate effects 
that climate change has on women.
    Oftentimes, women are the leader of their households and 
are responsible for providing necessities to their families. 
This puts them in a situation where they feel the brunt of 
climate change. Global warming creates additional 
responsibilities. Women may be forced to move their families 
out of a flood zone that was created because of the rising 
oceans. They may need to travel further to obtain water for 
children due to a drought created by rising temperatures.
    Mothers around the world need to drastically adjust their 
lives and make sacrifices to ensure their safety and well-being 
of their families. This is why my bill is so important, because 
it would help bring attention to this very important issue.
    My bill would also establish a working group within the 
United States Department of State to help brainstorm potential 
solutions to address the disproportionate effects that climate 
change has on women and their families. We need America to be a 
leader in addressing the climate crisis that is affecting women 
around the world.
    I would also like now to discuss my resolution on teaching 
climate change in schools as part of the school curriculum.
    My resolution was inspired by students from the Sonoma 
Academy in California. They came to my office with a passion 
for more education on sustainability and global warming. They 
shared with me some of the resolutions that they have tried to 
pass at the State and local levels.
    And I also was inspired by Greta Thunberg, a climate 
activist from Sweden who boldly skipped school to protest the 
need for climate action. Her act of defiance has evolved into a 
movement and set precedent for a generation of climate 
activism. More than 25 percent of American students took action 
at the climate protests to urge us to address climate change.
    In order to meaningfully act upon our changing climate, 
young people need education on its causes, consequences, and 
possible solutions. American students also do not learn enough 
about climate change. We need to teach every young person the 
human impacts of climate change and how to address our warming 
plant--quite frankly, before it is too late.
    So I would respectfully ask members of this committee and 
my colleagues in Congress to cosponsor H.R. 1880, the Women and 
Climate Change Act of 2019, and H. Res. 574, which is the 
resolution on teaching climate change in schools.
    Finally, let me just say, as a person of faith, Madam 
Chair, I believe that we must protect God's creation. We must 
secure the future for future generations to come. And so this 
committee and what you are doing here and what our colleagues 
are doing is such important work. So thank you again for giving 
me the chance to be before you.
    [The statement of Ms. Lee of California follows:]
                              ----------                              


                   Testimony of the Hon. Barbara Lee

       A Representative in Congress from the State of California

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Thank you, Madam Chair and thank you to the committee members for 
allowing me to testify today.
    I am here to testify on H.R. 1880 and H. Res 574 and the urgent 
need to take up these bills in Congress. My bill and resolution will 
help to bring attention to two groups of people that I feel are often 
overlooked: women and students.
    These bills also greatly reflect the mission of this select 
committee to put forward bold legislative ideas to help reduce 
greenhouse gas pollution, mitigate the human impact on climate change, 
and ensure our communities are resilient.
    Specifically, H.R. 1880, the Women and Climate Change Act, will 
address the disproportionate effects that climate change has on women. 
As many of us know, women are the leader of their households and are 
responsible for providing necessities to their families. This puts them 
in a situation where they will feel the brunt of climate change.
    Global warming creates additional responsibilities. Women may be 
forced to move their families out of a flood zone that was created 
because of the rising oceans. They may need to travel further to obtain 
water for children due to a drought created by rising temperatures.
    Mothers around the world need to drastically adjust their lives and 
make sacrifices to ensure the safety and well-being of their families. 
This is why my bill is so important, because it would help bring 
attention to this very important issue.
    My bill would also establish a working group within the U.S. 
Department of State to help brainstorm potential solutions to address 
the disproportionate effects that climate change has on women and their 
families. We need America to be a leader in addressing the climate 
crisis that is disproportionately affecting women around the world.
    I would also like to discuss my resolution on teaching climate 
change in schools, H. Res. 574. My resolution was inspired by students 
from the Sonoma Academy in California, who came to my office with a 
passion for more education on sustainability and global warming. They 
shared with me some of the resolutions that they have tried to pass at 
the state and local levels.
    I was also inspired by Greta Thunberg, a climate activist from 
Sweden, who boldly skipped school to protest the need for more climate 
action. Her act of defiance has evolved into a movement and set 
precedent for a generation of climate activism--more than 25% of 
America students took action at the climate protests to urge us to 
address climate change.
    In order to meaningfully act upon our changing climate, young 
people need education on its causes, consequences, and possible 
solutions.
    American students also do not learn enough about climate change. We 
need to teach every young person the human impacts of climate change 
and how to address our warming planet before it is too late.
    I would respectfully ask members of this committee and my 
colleagues in Congress to become cosponsors of H.R. 1880--Women and 
Climate Change Act of 2019 and H. Res 574--resolution on teaching 
climate change in schools.
    And finally, I hope that this Select Committee will take these 
important bills up. Thank you again for allowing me to speak and for 
your leadership of this select committee.
    Thank you, and I yield back.

    Ms. Castor. Well, thank you very much, Representative Lee.
    You are right; we have a moral obligation to our children 
and future generations to tackle the climate crisis. And I am 
so intrigued by your ideas and your legislation here.
    You know, one of the most popular climate solutions books 
is Project Drawdown, the organization from your neck of the 
woods. And most people wouldn't think of this, but they cite as 
one of their top climate solutions educating women and girls 
across the world. So we need more help and more detail on how 
to craft those kind of policies.
    So thank you very much----
    Ms. Lee of California. Thank you.
    Ms. Castor [continuing]. For your leadership.
    Ms. Lee of California. Good to see you.
    Ms. Castor. Next, Chairwoman Kaptur, I want to thank you, 
because early on you met with me and the professional staff 
from the Climate Committee. You have crafted an appropriations 
bill that provides significant new research dollars for the 
Energy Department and others. You have been a longtime advocate 
for clean energy solutions.
    So thank you for being here, and you are recognized for 5 
minutes.

    STATEMENT OF THE HON. MARCY KAPTUR, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Ms. Kaptur. Thank you, Chairwoman Castor, for coming to our 
office and advocating and including us. We truly appreciate 
that and for the invitation to appear today. With the 
tremendous turnout of Members, this tells you that our country 
is headed in the right direction.
    As we know, our world is at a tipping point from the 
Earth's thermal heat. And our job in Congress is to manage the 
magnitude of the environmental challenge before us and to lead 
our people and, in fact, all of humanity to address climate 
change and to provide an understandable pathway forward.
    Headlines in our local newspapers bring home the gravity of 
the crisis. My own hometown paper, The Toledo Blade, just had a 
story about, ``Scientists: Earth Under a Climate Emergency.'' 
Thousands of scientists attest to this. Also, for our own Great 
Lakes, ``Overflowing Lakes Pose New Threat for Birds,'' the 
threat to sea life in our part of the United States. And then 
in The Washington Post, a recent headline, ``Wildfires: A 
Can't-Win Challenge for California.''
    These challenges are indeed daunting, but the combined 
commitment of all of us, of enlightened people, can result in 
positive change.
    I believe, regionally, we must use these types of stories 
to inform the American people and include in what we do 
together a multimedia approach to the crisis, for example, by 
region, inviting people to view films like ``Planet Ocean'' and 
``Blue Planet'' to help deliver an important message of cause 
and effect to the American people and, in fact, to many of the 
staff members here on Capitol Hill and perhaps even some of the 
Members.
    The American people are demanding action, and there is 
little patience. So it is my hope that, by working together 
across the committees of jurisdiction, Congress can quickly 
advance a climate package that is regionally sensitive and 
demarked by related watersheds.
    We know the enduring impacts of climate change are 
resulting in increasing rainfall, rising seas, severe 
hurricanes and tornados, increasing wildfires and tornados, and 
countless other impacts.
    I am going to move regionally now so I can better develop 
the point about how important it is by watersheds to bring 
people together regionally. In the interest of time, let me 
focus on the Great Lakes region.
    Our Ninth Congressional District runs along the south edge, 
the entire perimeter almost, of Lake Erie, the shallowest and 
southernmost of the Great Lakes, which contain, together, 84 
percent of North America's fresh surface water and 21 percent 
of the world's surface fresh water.
    In 2014, a massive harmful algal bloom forced the city of 
Toledo, a town of over 300,000 people and a coastal city, to 
shut off its fresh water supply, the first in the country to do 
so other than Flint, Michigan, for a different reason there. 
For days, citizens could not drink, bathe, or cook from the 
tap.
    This particular algal bloom was only the start. Since then, 
Lake Erie has faced an annual algal bloom that threatens our 
region's economic future. Year after year, a massive green 
bloom engulfs the region, as rainfall and lake levels rise to 
124-year highs. And adjacent farmland tiling is totally 
inadequate to hold back the water and nutrients to the lake.
    This algal bloom is not an anomaly. In the last year, we 
have seen massive rainfall events that continue to feed the 
ever-increasing annual algal bloom. I know about the issue in 
the Everglades and Lake Okeechobee as well.
    The Fourth National Climate Assessment documents a clear 
impact of climate change for our region. Between 1973 and 2010, 
ice cover on our Great Lakes declined an average of 71 percent, 
by three-quarters, and this means greater evaporation and real 
changes in sea life.
    Change and action are needed. Warm autumns mean larger 
algal blooms, larger ones every year. And more rainfall means 
more farm runoff and a greater need for a farm nutrient control 
system, including advanced tilling and irrigation systems. And 
with one-half of the land owned by absentee owners, the 
daunting challenge of how do you do this remains before us.
    An effective approach requires, in our region, both the 
U.S. and Canada to cooperate on a broader scale and a 
commitment to engaging the world through such agreements as the 
Paris Climate Agreement.
    Further, agricultural America needs a regenerative soils 
approach to help farmers utilize their fields to soak up excess 
carbon. I associate myself with what Congresswoman Bustos 
mentioned in her testimony a little earlier.
    Our approach globally must wean our economy off our over-
reliance on carbon-based fuels to reduce the destructive impact 
of greenhouse gases on the upper atmosphere. And as Congress 
writes this comprehensive approach, our Nation needs an 
enhanced research and development bridge to the future.
    So, in closing, let me say that the Department of Energy 
must play and is playing an enormous role to address these 
necessary energy changes. The Department of Energy is the 
Federal Government's leading agency on the research and 
development of new clean-energy technologies.
    In the bill our subcommittee has written for 2020, we 
propose critical funding for energy innovation in all sectors. 
And our country has been at the forefront in energy innovation 
across all sectors through research grants, loan programs, tax 
incentives, laboratory facilities, pilot programs, and public-
private partnerships.
    But in terms of a regional transition, let me associate 
myself with the remarks of the Congresswoman from California, 
who talked about transitioning people as well----
    Ms. Castor. Thank you very much.
    Mr. Kaptur [continuing]. In the coal well-worn regions of 
the country, as well as the nuclear plants, where we are having 
real trouble with transition.
    So thank you so very much for allowing me to appear today.
    And let me just say as a mark of hope, I think one of the 
impressive pictures that I present to the public has to do with 
our ability to ban fluorocarbons from the air and the healing 
of the ozone layer as a result. We are about a different task 
right now, but I believe, working together, we can achieve a 
similarly very positive solution.
    And thank you so much.
    [The statement of Ms. Kaptur follows:]
                              ----------                              


             Testimony of the Hon. Marcia ``Marcy'' Kaptur

          A Representative in Congress from the State of Ohio

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Thank you, Chair Castor, for the invitation to speak before your 
committee.
    As we know, our world is at a tipping point. The American people 
are demanding action, and there is little patience. It is my hope, that 
by working together, across committees of jurisdiction, we can quickly 
advance a climate package.

Localizing Climate Impacts

    Every time I am home, I see the impacts of climate change.
    My district includes a broad swath of Lake Erie. The Great Lakes 
contain 84% of North America's surface freshwater and 21% of the 
world's surface freshwater. The health of our lakes determines the 
social opportunities for 30 million people living on the lakes. And as 
a region, we have begun speaking with a more unified voice to protect 
the Great Lakes. However, climate change poses an existential threat to 
my region.
    In 2014, a massive harmful algal bloom forced Toledo to shut off 
its water. For days, citizens could not drink, bathe, or cook from the 
tap. In a modern economy with sophisticated infrastructure, we take 
ready access to freshwater for granted. But for three days, my region 
rationed water during this ecological emergency.


           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    This algal bloom was only the start. Since then, Lake Erie has 
faced an annual algal bloom that threatens our region's economic 
future. Year after year, a massive green bloom engulfs my region.
    And this algal bloom is not an anomaly. In the last year, we have 
seen massive rainfall events that continue to feed the ever-increasing 
annual algal bloom. Ironically, the enormous early spring rains 
flooding Lake Erie in 2019 delayed the spring plantings and meant that 
there was less nutrient run off than expected. The spring rains that 
threatened farm production meant the Lake Erie Algal Bloom was only 700 
square miles this year!
    The Fourth National Climate Assessment documents a clear impact of 
climate change for my region. Between 1973 and 2010, ice cover on the 
Great Lakes declined an average of 71%. And the lakes are becoming 
warmer with summer water temperatures increasing. The islands in my 
district used to be regularly connected to the mainland by ice cover in 
the winter. But today, the ice is thinner, and the journey to the 
islands becomes more treacherous.

              
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    This is the problem, but as you know, there is a solution.
    It involves a broader solution and a commitment to engaging the 
world through the Paris Climate Agreement. A larger package must wean 
our economy off our over reliance on carbon-based fuels.
    As Congress writes this larger package, we need a research and 
development bridge to the future.
DOE's Role in Energy Changes
    In the bill I have written, the FY 2020 Energy and Water 
Development Act, I have proposed critical funding for energy innovation 
at the Department of Energy. The United States has been at the 
forefront of energy innovation to address climate challenges by 
providing research grants, loan programs, tax incentives, laboratory 
facilities, pilot programs, and public-private partnerships. DOE is the 
federal government's leading agency on the research and development of 
new clean energy technologies.
    Decades of investment by DOE has driven down costs for clean energy 
technologies, enabling increased deployment as they become cost-
competitive with conventional energy sources. These advances in clean 
energy technology have led to job creation in every region and every 
state in America.
    Although the U.S. has been a leader in energy innovation and DOE 
has made significant gains in real solutions to climate change, there 
are still opportunities to advance new and improved clean energy 
technologies. Additional investment in energy innovation is critical to 
meeting goals for addressing climate change.
    Thank you for the invitation to speak today and for your commitment 
to holding these public hearings. Members of Congress are tremendous 
advocates and spokespersons for the local and very real impacts of 
climate change.

    Ms. Castor. Thank you very much, Ms. Kaptur, for your 
detailed presentation.
    Mr. Beyer, you are welcome to provide your testimony here 
for 5 minutes. You are recognized.

 STATEMENT OF THE HON. DON BEYER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Beyer. Thank you, Madam Chair and Ranking Member. I am 
very grateful for the opportunity to testify before you and to 
share our best policy ideas on the climate change.
    When I ran 5 years ago, the central theme of this campaign 
and every one was that I would try to be the strongest, 
clearest voice I could be, in my humble way, on climate change. 
So I was really proud when Dr. Lowenthal asked me to co-lead 
the Safe Climate Caucus, which is mostly about educating 
Members about how we can better address climate change. And I 
now co-chair the New Democrat Climate Change Task Force. We 
have put together a set of 13 bills, most of which are now 
bipartisan, to address climate change.
    Three overarching priorities. The first: U.S. global 
leadership on climate change and responding to the threat it 
poses to our national security. Many years ago, 10 years ago, I 
was in Copenhagen for COP 15, when it was abundantly clear with 
every person I talked to from other nations that they were 
looking to the U.S. first for climate change leadership.
    Second is to take an economy-wide and a market-oriented 
approach--Federal investments and carbon pricing.
    And, third, that we invest in our communities and our 
workers, people like the coal miners in Morgan Griffith's 
district, and by resolving the environmental injustices and by 
fostering adaptation, resilience, and relief.
    I have my own climate playbook of bills. I would like to 
detail seven of them.
    The first is something that Chris Van Hollen introduced 
many years ago and we have done every year since, the Healthy 
Climate and Family Security Act, which places a cap on carbon 
pollution in alignment with the IPCC report, and then it has a 
polluter-pays principle to emit carbon within those caps.
    It is an economic dividend approach, where all of the money 
is given back to the American people. So 80 percent get more 
back than they put in, making sure that it is progressive 
rather than regressive. And it recognizes that polluters should 
pay, gives businesses the ability to plan long-term, and it 
reduces the burden of impact on disproportionately impacted 
communities.
    I think everyone agrees, across the economic spectrum, that 
carbon pricing will accelerate innovation and incentivize 
greater energy efficiency better than anything else.
    The second bill is the New Democrat Coalition's National 
Oceans and Coastal Security Improvements Act to support coastal 
communities' ability to prepare for and respond to a variety of 
coastal threats--extreme weather events, climate hazards, 
changing ocean conditions. These coastal communities are 
literally and figuratively under water. So this will help these 
well-known, unmet, imminent needs.
    The third bill is the Community Health and Clean Transit 
Act, about to be introduced, which will provide zero-interest 
loans to qualified transit districts for the marginal costs of 
electricity and fuel-cell stuff and the needed charging 
infrastructure. You know, fuel-cell or electric busing costs 
$150,000 to $300,000 more. This will help local transit 
districts be able to afford them.
    The fourth is tax credit legislation modeled off the 
original EV tax to help move vans, pickup light-duty trucks, 
and other commercial vehicles toward a zero-emission future. It 
is really fascinating, how much is already happening. I think 
DHL has announced everything in Europe will be electric, in 
terms of the commercial side. But it will be an enormous move 
forward.
    The fifth addresses flight: the Cleaner, Quieter Airplanes 
Act. My bill would build upon NASA's existing mission, 
specifically its aeronautics mission, and bolster its capacity 
to create electrified and non-greenhouse-gas-emitting flight.
    I read a fascinating story last night that showed that, 
among the people that are emitting the most greenhouse gases 
per year per person, something like 69 percent of it is the 
flights they take. So, to the extent that we move to electric 
airplanes, it will be an important correction.
    Number six is the Wildlife Corridors Conservation Act, 
which your excellent staffer, Kenzie Landa, had a big hand in. 
E.O. Wilson, the professor at Harvard who created the idea of 
biodiversity, says it is the most important biodiversity bill 
in an generation. And this is bipartisan. Vern Buchanan, among 
others, is leading it on the Republican side. To connect--
connectivity from native species, everything from the pronghorn 
antelope to the Florida panther to wolves and grizzly bears and 
butterflies and often plants also. If we believe biodiversity 
is essential, this will move us there.
    And, lastly, the bipartisan SEA FUEL Act. Morgan and I have 
talked for years about carbon recapture. This will throw in the 
aircraft, ships, vehicles, and other things that the Department 
of Defense needs. There is mature technology which we can help 
do to pull carbon capture out of the ocean to run our fleet. By 
the way, if you care about ocean acidification and the super-
saturation of CO<INF>2</INF> in the ocean, this is a really 
helpful bill.
    So these seven bills will all move us in the right 
direction. And, of course, please look deeply at the package 
coming out of the New Democrat Coalition which is also very 
thoughtful.
    And thank you for the opportunity to do this.
    [The statement of Mr. Beyer follows:]
                              ----------                              


               Testimony of the Hon. Donald ``Don'' Beyer

        A Representative in Congress from the State of Virginia

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Thank you so much for having this hearing!
    I am honored by the opportunity to testify before you and be one of 
many members sharing our best policy ideas to address the climate 
crisis.
    I ran on addressing climate change as a central tenet of my 
candidacy for office and I have tried to be the strongest, clearest 
voice I can on addressing climate change in Congress.
    I was proud to be asked by Mr. Lowenthal to help co-lead the Safe 
Climate Caucus, which works to educate all Members on how we can all 
better address climate change and elevate Member efforts.
    I am also a Co-Chair of the New Democrat Coalition Climate Change 
Task Force, where I have been working with my colleagues to move an 
evidence-based, comprehensive framework to address the threat of 
climate change with the rapid urgency this crisis demands.
    We have three overarching policy priorities:
          <bullet> Promote U.S. global leadership on climate and 
        respond to the threat climate change poses to our national 
        security
          <bullet> Take an economy-wide and market-oriented approach 
        through policies such as federal investments in tech-inclusive 
        research, development, and deployment, and carbon pricing; and
          <bullet> Investing in and supporting our communities and 
        workers by resolving inequities and fostering adaptation, 
        resilience, and relief.
    The New Democrat Coalition endorsed a slate of bills that 
correspond with those aims, many of which are bipartisan, and I highly 
encourage your committee to take a look.
    I have my own climate playbook of bills that I am advancing to help 
in the effort to tackle this crisis.
    First and foremost, the Healthy Climate and Family Security Act, 
which places a cap on carbon pollution to align with the 
recommendations of the IPCC report.
    It then applies a `polluter pays' principle by requiring polluters 
to pay to emit carbon within those caps.
    Finally, the revenue raised from the sale of those permits is 
returned straight to the American people.
    This is the fasted, clearest way to move us in the right direction.
    It recognizes that polluters should pay, helps businesses plan long 
term and more quickly reduces the burden on disproportionately impacted 
communities.
    On an economy-wide level, the price signal will accelerate 
innovation and incentivize both greater energy efficiency as well as 
greater use of lower-carbon energy alternatives.
    The second bill I want to mention is my bill which is included in 
the slate of the bills endorsed by the New Democrat Coalition, the 
National Ocean and Coastal Security Improvements Act.
    This bipartisan bill would support coastal communities' ability to 
prepare for and respond to a variety of coastal threats, including 
extreme weather events, climate hazards and changing ocean conditions 
by improving coastal infrastructure and supporting coastal research, 
resiliency, conservation and restoration work.
    Our states and localities are literally and figuratively underwater 
in their ability to become climate resilient.
    This bill would help address these well-known unmet, imminent needs 
and ensure we have viable coastal economies for future generations.
    This shouldn't be the case where only the rich can become 
resilient. It is imperative that we help coastal communities adapt.
    The third bill I want to mention my soon to be introduced Community 
Health and Clean Transit Act, which provides zero interest loans to 
qualified transit districts for the marginal costs of electric and fuel 
and needed charging infrastructure.
    The upfront capital costs of fuel cell or electric buses are 
prohibitive for many transit and school districts.
    They can cost $150,000 to $300,000 more than a conventional diesel 
bus.
    This bill would help local transit districts who want to lead on 
climate or reduce their long-term operating costs by helping them in 
their goal to invest in electric or fuel cell buses.
    Keeping in the transportation theme since it the primary source of 
carbon emissions--we've had some important advances in emissions on the 
personal vehicle side but continue to lag behind other countries in 
terms of electrification for commercial vehicles.
    I'll shortly be introducing tax credit legislation modelled off the 
original EV tax credit to help move vans, pickup, light duty trucks and 
other commercial vehicles towards a zero emissions future.
    And the third bill in my soon to be introduced transportation 
package, addresses flight--the Cleaner, Quieter Airplanes Act.
    My bill would build upon NASA's existing mission and bolster its 
capacity to create electrified and non-greenhouse gas emitting flight.
    I've mentioned economy wide emissions, coastal resilience and 
adaption, as well as transportation, I also want to mention my bill to 
help with biodiversity.
    The Wildlife Corridors Conservation Act would give species a 
fighting chance at survival in the face of climate change.
    The Wildlife Corridors Conservation Act provides a framework to 
address the long-term habitat connectivity of native species.
    This bill identifies wildlife corridors that aim to mitigate harm 
to wildlife and threats to public safety by implementing strategies to 
reduce human and wildlife conflict.
    And lastly, I'll mention a 7th bill in my climate armada--the 
bipartisan SEA FUEL Act.
    To run the aircraft, ships, vehicles, and other equipment necessary 
to defend our nation and conduct operations abroad, the Department of 
Defense relies heavily on an extensive logistics chain to transport 
fuel around the globe.
    This transportation infrastructure comes with significant costs and 
could be targeted by our adversaries to diminish our ability to project 
power in a foreign conflict.
    My bill help address these issues by authorizing the Department of 
Defense and the Department of Homeland Security to mature new 
technologies to generate fuel directly from ocean water and the 
atmosphere, reducing the logistics tail of our military and increasing 
the resiliency of our overseas operations.
    The program builds on existing efforts and patented technology 
invested in by the U.S. Navy and our national laboratories.
    The IPCC report emphasizes the importance of negative emissions 
technologies in reaching net zero emissions by 2050.
    This bill would both address that goal and our national security.
    These are 7 of many of the ideas that I am trying to advance to 
address our climate crisis.
    I hope you consider them.
    We need everyone invested in this fight and all the good ideas on 
the table in order to meet net-zero greenhouse gas emissions by 2050 at 
the latest--and that, as you all know, is only to mitigate the worst 
impacts of climate change.
    I appreciate the opportunity to be here today. This hearing 
provides hope that we're on the right track.

    Ms. Castor. Well, thank you, Mr. Beyer. You have provided a 
strong and clear voice on climate solutions. So thank you very 
much for being here.
    Mr. Phillips, you are recognized for 5 minutes.

   STATEMENT OF THE HON. DEAN PHILLIPS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Phillips. Thank you, Chairwoman Castor and Mr. Griffith 
and members of the committee.
    Climate change is an existential threat to the health and 
national security, economic prosperity, and future of the 
American people and our planet. Indeed, our habitat is at 
stake. Humankind's ability to survive, let alone thrive, on a 
dramatically changing planet is very much in question.
    The Fourth National Climate Assessment and the 2018 
Intergovernmental Panel on Climate Change, the IPCC, have 
illustrated an urgent and very inconvenient truth, and that is 
that we are running out of time. The IPCC 2018 report found 
that even a 1.5-degree Celsius increase would have a disastrous 
effect on our habitat.
    To do our part in preventing the most drastic impacts of 
climate change and to stay below that 1.5-degree threshold, the 
United States must achieve the goals committed to in the Paris 
climate accords and attain net-zero emissions by 2050 at the 
latest.
    Mr. Phillips. Limiting warming to 1.5 degrees Celsius is 
still possible, and it is a call to action that we must heed 
with seriousness. We have already seen the impacts of climate 
change in my home State of Minnesota. The Great Lakes region is 
warming faster than most regions in the United States. A lack 
of action will result in growing numbers of people exposed to 
water scarcity, extreme heat, and displacement from sea level 
rise, and severe weather events. The costs are rising and the 
science is clear. We cannot let the enormity of the issue 
overwhelm us. We must start addressing the problem immediately.
    That is why I am a member of the New Dems Climate Task 
Force, as referenced by my colleague from Virginia, Mr. Beyer. 
Our goal is to put forth an ambitious pro-climate and pro-
market agenda that leverages every decarbonization solution 
available to advance a swift and just transition to a clean 
economy.
    We need to be focused on solutions to the climate crisis. 
One of those I find most promising is carbon pricing. I am in 
support of H.R. 763, the Energy Innovation and Carbon Dividend 
Act, a bipartisan bill with Republican roots, which puts a fee 
on fossil fuels like coal, oil, and gas. Climate change has a 
price, and this legislation ensures that big polluters are the 
ones paying for it. By starting low and growing over time, it 
will drive down carbon pollution by incentivizing energy 
companies, industries, and consumers to move towards cleaner, 
renewable options. The rate begins at $15 per ton in the first 
year and increases by $10 per ton each year, and is subject to 
further adjustments based on the progress in meeting specified 
emissions reduction targets. Best of all, it is completely 
revenue neutral. The money collected from the carbon fee is 
allocated in equal shares every month to American taxpayers to 
spend as they see fit. Program costs are paid for from the fees 
collected.
    In this legislation, the government does not keep any of 
the money from the carbon fee. Returning revenue from carbon 
fees directly to people as carbon dividends, which is payments 
to every person, would transform carbon pricing from a 
regressive policy into a progressive one. This policy is all 
about incentivizing the change which many, including myself, 
find to be the most effective way to realize our climate goals. 
The price signals motivate consumers, businesses, and 
governments alike to invest in renewables and energy 
efficiency, and carbon dividends would yield a net increase in 
income for everyone whose carbon footprint is smaller than 
average.
    People with larger carbon footprints pull up that average 
and would pay more in higher fuel expenditures than they would 
get back in dividends, while the majority of households, 
including the most low-income and middle-class families in 
America, would come out ahead. In addition, a clean energy 
transition will need smart regulations and public investments 
as well as aggressive emission limits. Carbon pricing is not 
the only answer to the climate crisis, but it is one of the 
most effective tools to meeting the goals of the IPCC.
    There are many commonsense environmental policies that we 
can and should pursue; however, it is true with climate issues 
as it is with every other important policy issue that we 
consider in this body that in order to begin making meaningful 
change, we must reform our government. Too many wealthy special 
interests have far too much influence and control over climate 
policy. It is time to end the corrupting influence of special 
interest money in the halls of Congress and do what is right 
for our planet, for our children, and for our future.
    When it comes to our climate, environment, and habitat, we 
are living in an era of great opportunity and great 
consequence. The time to act, the time to lead is now.
    Thank you, Madam Chair.
    Ms. Castor. Thank you very much, Mr. Phillips. Thank you 
for your recommendations for action to the committee.
    [The statement of Mr. Phillips follows:]
                              ----------                              


                  Testimony of the Hon. Dean Phillips

        A Representative in Congress from the State of Minnesota

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Thank you, Chairwoman Castor, Ranking Member Graves and members of 
the Committee.
    Thank you for the invitation to offer testimony this afternoon on 
this urgent problem.
    Climate change is an existential threat to the health, national 
security, economic prosperity, and future of the American people and 
our planet.
    Our habitat is at stake----
    Human kind's ability to thrive on a dramatically changing planet is 
in question----
    The Fourth National Climate Assessment and the 2018 
Intergovernmental Panel on Climate Change (IPCC) have illustrated an 
urgent and inconvenient truth--we're out of time.
    The IPCC 2018 report found that even a 1.5 degree increase would 
have disastrous effects to our habitat.
    To do our part in preventing the most drastic impacts of climate 
change, and to stay below a 1.5 degrees Celsius temperature increase, 
the United States must achieve the goals committed to at the Paris 
Climate Accords and attain net-zero emissions by 2050 at the latest.
    Limiting warming to 1.5 degrees Celsius is still possible. It is a 
call to action we must heed with seriousness.
    We've already seen the impacts of climate change in our state of 
Minnesota. The Great Lakes Region is warming faster than most other 
regions in the United States.
    Lack of action will result in higher populations exposed to water 
scarcity, extreme heat, and displacement from sea-level rise and severe 
weather events.
    The costs are rising and the science is clear. We cannot let the 
enormity of the issue overwhelm us, we must start addressing this 
problem immediately.
    That's why I'm a member of the New Dems Climate Task Force. Our 
goal is to put forth an ambitious pro-climate AND pro-market agenda 
that leverages every decarbonization solution available to advance a 
swift and just transition to a clean economy.
    We need to be focused on solutions for the climate crisis. One of 
the solutions I find promising is carbon pricing. I'm in support of 
H.R. 763, the Energy Innovation and Carbon Dividend Act--a bipartisan 
bill with Republican roots--which puts a fee on fossil fuels like coal, 
oil, and gas.
    Climate change has a price, and this legislation makes sure that 
big polluters are the ones paying it.
    By starting low and growing over time, it will drive down carbon 
pollution by incentivizing energy companies, industries, and consumers 
to move toward cleaner, cheaper options.
    The rate begins at $15 in the first year, increases by $10 each 
year, and is subject to further adjustments based on the progress in 
meeting specified emissions reduction targets.
    And it's completely revenue-neutral. The money collected from the 
carbon fee is allocated in equal shares every month to the American 
people to spend as they see fit.
    Program costs are paid from the fees collected. In this 
legislation, the government does not keep any of the money from the 
carbon fee.
    Returning revenue from carbon fees directly to the people as carbon 
dividends--payments to every person--would transform carbon pricing 
from a regressive policy into a progressive one.
    This policy is all about incentivizing the change, which many 
including myself find to be the most effective way to actualize our 
climate goals.
    The price signal motivates consumers, businesses, and governments 
alike to invest in renewables and energy efficiency.
    Carbon dividends would yield a net increase in income for everyone 
whose carbon footprint is smaller than average.
    People with larger carbon footprints pull up the average, they 
would pay more in higher fuel expenditures than they get back in 
dividends, while the majority of households, including most low-income 
and middle-class families, would come out ahead.
    In addition, a clean-energy transition will need smart regulations 
and public investments as well as aggressive emissions limits.
    Carbon pricing isn't the only answer to the Climate Crisis but one 
of the most effective tools to meeting the goals of the IPCC.
    There are many common-sense environmental policies that we can and 
should pursue.
    However, it is true with climate issues as it is every other 
important policy we consider, that in order to begin making meaningful 
change, we must reform our government.
    Too many wealthy special interests have far too much control when 
it comes to climate policy.
    It is time to end the corrupting influence of special interest 
money in the halls of Congress and do what is right for our planet and 
our future.
    When it comes to our climate, environment, and habitat, we're 
living in an era of great opportunity--and great consequence. The time 
to act--the time to lead--is now.
    Thank you.

    Ms. Castor. Mr. Kilmer, you are recognized for 5 minutes.

    STATEMENT OF THE HON. DEREK KILMER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Kilmer. Thank you, Chair Castor, for holding this 
important hearing today and for taking on this important 
challenge.
    I was born and raised on the Olympic peninsula in northwest 
Washington State, and I am now honored to represent the 
district that I grew up in. In the Pacific Northwest, we have a 
sense of urgency about addressing climate change, and that 
urgency is driven in part by the fact that we are already 
seeing its impacts.
    Where I am from, we have four coastal tribes that, as we 
sit here, are in the process of trying to move to higher ground 
because of rising sea levels, more severe storms, not to 
mention the threat of tsunami. Catastrophic wildfires threaten 
the health and safety of communities throughout the Pacific 
Northwest, and our region's largest employer, the United States 
Navy, identifies climate change as a threat multiplier that 
makes our world less safe. That shouldn't be surprising. We 
have seen decades of scientific evidence that climate change 
will lead to devastating environmental, economic, public 
health, and national security consequences. Climate change is 
real and it requires bold action. And sadly, that commitment to 
science and that sense of urgency have been largely absent from 
the current administration.
    While President Obama took significant steps to address 
this challenge, President Trump, immediately upon taking 
office, began rolling back those policies. He has begun the 
process to remove America from the Paris climate agreement. He 
has repealed efforts to reduce carbon emissions from power 
plants and automobile tailpipes, and those actions are 
wrongheaded. And to protect our communities, our national 
security, and our economic interest, we have a moral obligation 
to act.
    The scientific consensus is that we need to achieve the 
critical goal of economywide, net-zero greenhouse gas emissions 
by 2050. That means we need to catch up to our global peers and 
our competitors, and it means we need to build a politically 
resilient roadmap that outlasts election cycles.
    I am honored to serve as the chair of the New Democrat 
Coalition, a group of over 100 forward-looking House Democrats, 
who all share a commitment to develop endurable policy 
solutions to our most pressing issues. And I am proud that our 
coalition created a new climate change task force to develop an 
ambitious and actionable policy strategy to address the threat 
of climate change.
    Our agenda is grounded in three main principles. First, 
that combating climate change requires global action. America 
should be leading the way in combating climate change, not 
sitting on the sidelines, and that is why, among other 
strategies, our coalition endorsed the Climate Action Now Act 
to recommit to the Paris climate accord.
    Second, transitioning to a climate-forward economy 
represents an opportunity to mobilize our economy and create 
high-quality jobs.
    Other nations have recognized that combating climate change 
can lead to new innovations, new industries, and new jobs. The 
United States should too. What is more, we should ensure 
Federal energy and technology policies enable our country to 
leverage every decarbonization tool available to reach our 
goals.
    Among other strategies, our agenda focuses on clean energy 
innovation. We have endorsed bills to increase Federal research 
and to encourage the development and adoption of green 
innovation. We can also set predictable pricing those through 
market-based solutions like carbon pricing and greenhouse gas 
emission standards.
    And finally, enacting a climate-forward agenda requires 
investing in communities, resilience, and relief. We cannot 
leave frontline communities behind. The House has already 
passed three pieces of legislation to expand research and 
innovation to understand and address ocean acidification and 
coastal community vulnerabilities. Additionally, we need to 
empower workers in communities to navigate economic change, not 
to be victims of it.
    Earlier this fall, we saw marches taking place all across 
our Nation urging leaders to do something. These young 
activists made a powerful statement, and now leaders in 
Washington, D.C. need to make real progress. While D.C. 
currently has divided government, which has been our reality 
for nearly a decade, we can't wait. With each passing day as 
more greenhouse gases are emitted into our atmosphere, the 
crisis becomes more difficult to combat. We cannot afford for 
solutions to get caught up in partisan battles or for 
persistent inaction. We need to make progress today, and that 
is why the New Democrat Coalition endorsed several bills that 
have bipartisan support in the House and in the Senate and that 
can make a difference today. And I have brought you a list of 
the bills that we have endorsed, and I hope I can submit those 
for the record.
    Ms. Castor. Without objection.
    [The information follows:]
                              ----------                              


                       Submission for the Record

                      Representative Kathy Castor

                 Select Committee on the Climate Crisis

                           November 14, 2019

    ATTACHMENT: ``New Democrat Coalition Endorsed Legislation.'' New 
Democrat Coalition, 2019.
    This document is retained in the committee files and available at: 
https://newdemocratcoalition.house.gov/download/ndc-cc-legislation.

    Mr. Kilmer. Our coalition's bill, endorsements, and policy 
roadmap are just the beginning. We urge both Chambers, the 
House and the Senate, to move this suite of bills so we can 
break the logjam and begin to address climate change with the 
urgency that it demands. Communities in my region and around 
the planet cannot wait.
    Thank you, Madam Chair.
    [The statement of Mr. Kilmer follows:]
                              ----------                              


                   Testimony of the Hon. Derek Kilmer

       A Representative in Congress from the State of Washington

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Thank you Chair Castor and Ranking Member Graves for holding this 
important hearing today.
    I was born and raised on the Olympic Peninsula in Northwest 
Washington, in the District that I am now honored to represent, 
Washington's Sixth.
    And there, in the Pacific Northwest, we have a sense of urgency 
about addressing climate change. That urgency is driven in part, by the 
fact that we are already seeing its impacts.
    Where I'm from, we have four coastal tribes that are trying to move 
to higher ground due to rising sea levels and more severe storms. 
Catastrophic wildfires threaten the health and safety of communities 
throughout the Pacific Northwest. And our region's largest employer--
the Department of Defense--identifies climate change as a ``threat 
multiplier'' \1\ that makes our world less safe.
---------------------------------------------------------------------------
    \1\ https://archive.defense.gov/pubs/
2014_Quadrennial_Defense_Review.pdf.
---------------------------------------------------------------------------
    This shouldn't be surprising. We've seen decades of scientific 
evidence that climate change will lead to devastating environmental, 
economic, public health, and national security consequences.
    Climate change is real, and it requires bold action.
    Sadly, that commitment to science and that sense of urgency have 
been absent from the Trump Administration. While President Obama took 
significant steps to step up to this challenge, President Trump--
immediately upon taking office--began rolling back \2\ those policies. 
He has begun the process to remove America from the Paris Climate 
Agreement. He's repealed efforts to reduce carbon emissions from power 
plants and automobile tailpipes.
---------------------------------------------------------------------------
    \2\ https://www.nytimes.com/interactive/2019/climate/trump-
environment-rollbacks.html.
---------------------------------------------------------------------------
    These actions are wrongheaded. To protect our communities, our 
national security, and our economic interests, we have a moral 
obligation to act.
    The scientific consensus is that we need to achieve the critical 
goal of economy-wide, net-zero greenhouse gas emissions by 2050. That 
means we need to catch up to our global peers and competitors. And it 
means we need to build a politically resilient roadmap that outlasts 
election cycles.
    I serve as the Chair of the New Democrat Coalition,\3\ a group of 
over 100 forward-looking House Democrats who all share a commitment to 
developing durable policy solutions to our most pressing issues. I'm 
proud that our coalition created a new Climate Change Task Force to 
develop an ambitious and actionable policy strategy \4\ to address the 
threat of climate change.
---------------------------------------------------------------------------
    \3\ https://newdemocratcoalition.house.gov/media-center/press-
releases/new-democrat-coalition-releases-priorities-for-us-climate-
policy.
    \4\ https://newdemocratcoalition.house.gov/imo/media/doc/
Climate%20Change%20Task%20Force- 
%20US%20Climate%20Policy%20Priorities%20Document_FINAL%20SEARCHABLE.pdf.

---------------------------------------------------------------------------
    Our agenda is grounded in three main principles.
          1. Combating climate change requires global action
    America should be leading the way in combating climate change--not 
sitting on the sidelines. That's why, among other strategies, our 
coalition endorsed the Climate Action Now Act \5\ to recommit to the 
Paris Climate Accord.
---------------------------------------------------------------------------
    \5\ https://newdemocratcoalition.house.gov/media-center/press-
releases/new-democrat-coalition-chair-derek-kilmer-statement-on-the-
house-passage-of-broad-legislation-to-fight-climate-change-.
---------------------------------------------------------------------------
          2. Transitioning to a climate-forward economy represents an 
        opportunity to mobilize our economy and create high quality 
        jobs.
    Other nations have recognized that combating climate change can 
lead to new innovations, industries, and jobs. The United States should 
too. What's more, we should ensure federal energy and technology 
policies enable our country to leverage every decarbonization tool 
available to reach our goals.
    Among other strategies, our agenda focuses on clean energy 
innovation. We've endorsed bills to increase federal research and 
encourage the development and adoption of green innovation.
          3. Enacting a climate-forward agenda requires investing in 
        communities, resilience, and relief
    We cannot leave frontline communities behind. The House has already 
passed three pieces of legislation \6\ to expand research and 
innovation to understand and address ocean acidification and coastal 
community vulnerabilities. Additionally, we must empower workers and 
communities to navigate economic change--not to be victims of it.
---------------------------------------------------------------------------
    \6\ https://newdemocratcoalition.house.gov/media-center/press-
releases/new-democrat-coalition-climate-change-task-force-statement-on-
passage-of-legislation-to-address-ocean-acidification.
---------------------------------------------------------------------------
    Earlier this fall, we saw marches taking place all across our 
nation urging leaders to `do something.' These young activists made a 
powerful statement.\7\ Now, leaders in D.C. need to make real progress.
---------------------------------------------------------------------------
    \7\ https://www.usatoday.com/story/news/world/2019/09/26/meet-
greta-thunberg-young-climate-activists-filed-complaint-united-nations/
2440431001/.
---------------------------------------------------------------------------
    While D.C. currently has divided government (which has been our 
reality for nearly a decade), we cannot wait. With each passing day, as 
more greenhouse gases are emitted into our atmosphere, this crisis 
becomes more difficult to combat. We cannot afford for solutions to get 
caught up in partisan battles or for persistent inaction until 
Democrats hold all levers of power. We need to make progress today.
    That's why the New Democrat Coalition endorsed several bills that 
have bipartisan support in the House and Senate and that can make a 
difference today.
    Our Coalition's bill endorsements and policy roadmap are just the 
beginning. We urge both chambers of Congress to move this suite of 
bills so we can break the log-jam and begin to address climate change 
with the urgency it demands. Communities in my region and around our 
plant can't wait.

    Ms. Castor. Well, thank you, Mr. Kilmer. The New Dems have 
been out in force today, and I appreciate it. Thank you for 
your leadership.
    Next, we are going to go to Chairman DeFazio and I want to 
thank him for his years of focus on the climate crisis. He is 
going to be a linchpin in everything that America does, 
especially when it comes to transportation and infrastructure 
and all of the policies that we need to enact moving forward, 
so thank you very much for being here, Mr. Chairman. You are 
recognized for 5 minutes.

  STATEMENT OF THE HON. PETER A. DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Madam Chair, and thanks for 
convening this hearing today.
    As you did point out, transportation is the single largest 
contributor to climate change and carbon pollution in the 
United States, so we have to defossilize transportation. There 
are a number of steps in the bill we are drafting for the 
reauthorization of a 21st century transportation bill that will 
move us in that direction. Electrification of the national 
highway network is a key factor. My committee even witnessed in 
Sweden an experiment with trucks that charge as they are 
driving, full-size heavy trucks. And, of course, I have seen 
Tesla electric truck, which is fabulous. We need advances in 
battery technology. I hope you will recommend that the Federal 
Government make investments in battery and storage technologies 
of all sorts.
    Secondly, of course, the most carbon efficient way of 
transit transportation is walking and the pedestrian. We are 
having record fatalities, and we have got to make our cities 
safer so more and more people can choose those options. And 
there will be very substantial investment in that. Transit has 
fallen into a state of disrepair. Much more energy efficient, 
much of it is already electrified, and we need to bring that up 
to a state of good repair. That is a hundred billion dollars, 
let alone building out new transit options for people.
    The most efficient way to move freight--well, we have all 
seen the ads from CSX, rail is way more efficient than trucks, 
but the most efficient way is maritime. So we are going to do 
additional investments in the inland waterway system in our 
harbors and ports and encourage something that is hard to say, 
if I won't stumble over it, short sea shipping. And so we 
need--on the coast, we could be moving a heck of a lot more 
goods on the oceans, and it is incredibly energy efficient. The 
IMO, the International Maritime Organization, has set goals 
for--at least is moving away from dirty bunker fuel moving to 
cleaner fuels. But Maersk, the largest shipping company, has 
said that they are going to be totally carbon free by 2050.
    So, you know, we need--there is some incredibly interesting 
things going on in maritime with sail assist and solar and 
hybrids and those sorts of things. So, again, an area that 
could benefit from a boost from the Federal Government.
    In my committee also, we passed out the first wastewater 
bill reauthorization, SRS, since 1987. And having heard 
testimony from a sewer authority in New Jersey, I put in a 
mandate that any future Federal investment in wastewater that 
if it is technologically feasible, and that would only be--it 
wouldn't be if it was a retrofit of an old plant, perhaps, they 
have to capture their methane and generate electricity. And 
this sewer district in New Jersey is actually providing all 
their own electricity and making money by selling on to the 
grid.
    Also, the Federal Government is the largest single lessor 
or owner of commercial office space in the United States of 
America. We are doing platinum LEED now, but there is a 
standard beyond platinum LEED, which is carbon neutral 
buildings. And I am going to be moving the GSA in that 
direction to carbon neutral buildings. And then as we rebuild 
our infrastructure, we have to rebuild it in a way, obviously, 
that is resilient for severe climate events. We also will have 
to rebuild it in a way that can potentially accommodate 
autonomous vehicles. But beyond that, there are new materials 
out there. There is even a form of concrete that absorbs 
carbon, and you can also mix carbon into standard concrete, 
lower the footprint of producing the concrete and, you know, 
permanently encapsulate that carbon and it actually strengthens 
the concrete. It is a winner all the way around.
    So we are going to be looking at new materials that are 
less carbon polluting, more resilient, as we look to the 
future.
    Finally, two other quick points. I have a bill, the Act for 
the Amazon Act, which would go after Brazil for the deliberate 
deforestation, and would prohibit the import of goods that are 
produced on deforested tropical lands and put some other 
incentives or, some might say, penalties on Brazil.
    And then finally, I heard earlier mention from one of my 
colleagues, the idea of cap and dividend. I am working on a 
little different version, which would have a progressive 
dividend. I don't see why a billionaire who flies around in a 
private jet and owns 12 houses should get the same rebate that 
a family of three living in Springfield, Oregon, gets. So, you 
know, I am looking at modifying that proposal.
    With that, Madam Chair, thank you for your leadership on 
this issue. It is only about the future of the planet.
    [The statement of Mr. DeFazio follows:]
                              ----------                              


                  Testimony of the Hon. Peter DeFazio

         A Representative in Congress from the State of Oregon

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Chair Castor and Ranking Member Graves: Thank you for holding 
today's hearing. To be successful in combatting the climate crisis, all 
ideas must be on the table. As a leader in this fight, I appreciate the 
opportunity to share my ideas and priorities.
    Climate change is an existential threat to the planet as we know 
it, and we have a moral obligation to act aggressively and immediately. 
Congress has a duty to ensure the youth of today and future generations 
inherit an environment that is healthy and sustainable.
    We are already experiencing the consequences of inaction. Our 
summers are getting hotter, droughts more frequent, and ocean 
acidification continues to escalate. In my district, our forests have 
become tinderboxes. Last year, and the year before, Southwest Oregon 
experienced devastating wildfires that burned hundreds of thousands of 
acres and generated hundreds of thousands of tons of carbon emissions. 
The fires not only destroyed our forests and private lands, they also 
affected our recreation and tourism industry and produced dangerous 
levels of smoke that threatened public health. Earlier this year, my 
district experienced flooding and snow levels we haven't seen in 
decades.
    We ignore at our peril that climate change has occurred because of 
human activities. Recent studies by prominent climate scientists 
provide a critical wake-up call and reveal the damage that has already 
taken place. One, published in November 2017 by my constituent, Oregon 
State University professor Dr. Bill Ripple, is entitled ``World 
Scientists' Warning to Humanity: A Second Notice,'' and endorsed by 
more than 15,000 scientists. In the first ``Warning to Humanity'' 
report, released 25 years before, scientists called on humanity to make 
changes or, ``so alter the living world that it will be unable to 
sustain in the manner that we know.'' Sadly, Dr. Ripple found that we 
had only made progress in one major area: our effort to reduce the 
amount of ozone-depleting substances.
    This past Earth Day I participated in a conference with Dr. Ripple 
to discuss his findings. While his study laid out the urgency of 
reversing the current path to environmental destruction, it also 
provided ways we can address climate change today. Dr. Ripple's study 
found that one of the most effective ways we can reduce carbon 
emissions is to support policies that have a strong federal mandate to 
reduce greenhouse gas (GHG) emissions in the U.S. and abroad.
    Again working with a team of international climate experts, Dr. 
Ripple released his second warning which reinforced his initial study, 
using data that tracks the vital signs of climatic impact. His report 
declared that not only has the climate crisis arrived, it is 
accelerating faster than most scientists expected, and is more severe 
than anticipated.
    In September, the International Panel on Climate Change issued the 
``Ocean and Cryosphere in a Changing Climate'' report. Like Dr. 
Ripple's 2017 study, the report held dire warnings about the damage 
climate change is having on ocean ecosystems and the danger it poses to 
the billions of people that live along coastlines. It provided more 
evidence that melting ice sheets and glaciers, sea level rise, and 
ocean acidification are getting worse. The research also found that the 
ocean also experiences ``heat waves,'' just like those that occur on 
land. Ocean heat waves impact nearly all marine life by disrupting the 
ocean's food chain. In 2014 and 2015, an ocean heat wave called ``the 
Blob'' occurred in the Pacific Northwest. It wreaked havoc off the 
Oregon coast, causing the largest algal bloom ever recorded in our 
region, shutting down crabbing and other fisheries for months. If 
oceans continue to warm and acidification intensifies, Oregon's coastal 
economies could collapse.
    Thankfully, there are ways to not only reverse the damage to the 
ocean but also to use the ocean as a way reduce climate change. Another 
of my constituents, Oregon State University Distinguished professor and 
former Administrator of the National Oceanic and Atmospheric 
Administration Dr. Jane Lubchenco, recently led the High Level Panel 
for A Sustainable Ocean Economy's report ``the Ocean as a Solution to 
Climate Change'' which found the ocean can be a powerful tool to 
sequester carbon as well as development of renewable energy sources. 
The report found that developing off-shore energy sources while not 
negatively affecting marine life, restoring blue carbon ecosystems such 
as seagrasses and salt marshes, and using alternative fuels in the 
shipping industry can significantly contribute to combatting climate 
change.
    As I noted at the beginning of my testimony, there is no one policy 
that will achieve the significant reduction of greenhouse gas emissions 
we need for humanity to survive. A decade ago, I was one of the first 
Members of Congress to be the lead cosponsor of a bill to cap, 
regulate, and reduce emissions, and I believe that is a policy we must 
consider. Other incentives I support to expedite the transition to a 
one hundred percent renewable energy portfolio, such as progressive 
carbon fee and dividend or similar proposals are a vital part of how to 
accomplish this.
    Yet it's critical to ensure that our policies do not 
unintentionally hurt struggling low income, rural communities, or 
benefit some regions while penalizing others. That is one reason I am 
an original cosponsor of H. Res. 109, also known as the Green New Deal. 
Beyond laying out a bold action plan to quickly achieve net-zero 
greenhouse gas emissions, it makes clear that we can create millions of 
good, high-wage jobs in every region of the country.
    At twenty-nine percent, the transportation sector is now the 
biggest source of greenhouse gas emissions in the U.S. Within the 
transportation sector, passenger and freight vehicles contribute 83 
percent of global warming emissions. Congress must act to combat this, 
and as Chair of the Transportation and Infrastructure Committee, I 
intend to comprehensively tackle the transportation system's effect on 
climate change as part of the upcoming surface transportation bill.
    We must address emissions from passenger vehicles, and that means 
eliminating emissions from single occupancy vehicles through 
electrification and investing in modes of transportation that don't 
involve taking a car at all. Far greater investment in public transit 
and bicycle and pedestrian infrastructure will provide safe, reliable, 
competitive alternatives to single occupancy vehicles that choke our 
interstate highway system, burn fossil fuels sitting in traffic, and 
slow the efficient movement of freight. Transit needs a shot in the arm 
to bring rolling stock and rail systems to a state of good repair. 
Further resources must be brought to bear to increase levels of service 
to provide transit riders reliable and frequent service that gets them 
where they need to go when they need to be there.
    The lowest carbon mode of transportation is walking and biking. 
Today, record numbers of Americans are walking and biking as a primary 
mode of transport, but also record numbers of American cyclists and 
pedestrians are dying on our roadways. In fact, the National Highway 
Transportation Safety Administration reported that, nearly 20 
bicyclists and pedestrians were killed every single day last year.\1\ 
My transportation bill will include new funding to improve safety and 
help cities create the network of walking and biking infrastructure 
that will allow people to safely walk and bike in their communities.
---------------------------------------------------------------------------
    \1\ National Center for Statistics and Analysis. (2019, October). 
2018 fatal motor vehicle crashes: Overview. (Traffic Safety Facts 
Research Note. Report No. DOT HS 812 826). Washington, DC: National 
Highway Traffic Safety Administration. https://
crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/812826.
---------------------------------------------------------------------------
    I also realize, however, that many Americans, especially those in 
rural areas, will continue to drive. We must invest in the 
infrastructure to support a shift from carbon-based fuel sources to 
electric and zero emission vehicle technology and fueling systems. My 
bill will lay the groundwork for an electrified highway system to 
reduce range anxiety and further the broad adoption of zero emission 
vehicles.
    While reducing carbon emissions from the transportation sector will 
have the largest impact, there are other areas within the 
Transportation and Infrastructure Committee's jurisdiction in which I'm 
pushing changes that will help reduce human impacts on climate change.
    For example, last month my committee passed a landmark 
reauthorization of the Clean Water State Revolving Fund which includes 
a requirement for utilities to maximize their energy efficiency 
potential, including the recapture and reuse of methane emissions. 
Innovative approaches like this should be part of our nation's 
comprehensive strategy to combat climate change.
    I intend to provide continued federal leadership in the 
administration of public building contracts, moving the GSA beyond the 
current LEED standards and towards carbon neutral facilities. In 
addition, other modes within the transportation sector will need to 
become more sustainable. We need to expand access to renewable jet 
fuel, increase freight transport by water, and reduce the carbon 
emissions of overseas shipping. As a matter of fact, A.P. M&oslash;ller 
Maersk--the world's largest ocean carrier--and other maritime 
stakeholders in the Global Maritime Forum have committed to decarbonize 
ocean shipping by 2050. We should follow their lead across other 
transportation modes.
    Finally, as we actively work to reduce emissions, we also need to 
steel ourselves with more resilient infrastructure. Revisiting design 
standards in flood-prone areas, utilizing less carbon intensive 
materials, and incorporating natural infrastructure are all techniques 
that must be part of our future infrastructure plans. Building 
infrastructure that will have a smaller carbon footprint and be more 
resilient to storms of greater intensity will help prepare us for the 
changing climate and reduce the long-term costs for recovery after 
damaging storms.
    Threats to our climate are happening around the world. Although 
outside our borders these climate crises have impacts at home. In 
response to the devasting fires and continued illegal deforestation in 
the Amazon, I introduced H.R. 4263, the Act for the Amazon Act. The 
bill would ban the import of items produced by illegal deforestation, 
halt military aid, and prohibit a free trade agreement with Brazil 
until their government ends the devastation caused by the fires and 
illegal deforestation. The Amazon serves as the lungs of the earth. 
Without significant intervention to curtail destruction of the 
rainforest, it will impact rainfall in the United States, dramatically 
reduce our crop yields and food supply, and increase the extreme 
conditions for catastrophic wildfires in the Pacific Northwest. We must 
act to end the destruction of the rainforest, and my bill takes a 
significant step to do so.
    There are numerous technologies that can reduce emissions or 
sequester carbon. Some are mature and in use today, and some are in a 
nascent stage of development. For example, we must promote the use and 
development of 100 percent renewable hydrogen. In early August I held a 
roundtable to raise awareness of the potential for renewable hydrogen 
to power parts of our transportation system, maximize the efficiency of 
renewable energy production, and make our communities more resilient 
during natural disasters, all while significantly lowering carbon 
emissions. I brought together utilities, a major car manufacturer, 
energy entrepreneurs, and nonprofits dedicated to fighting climate 
change through substantive policy.
    Renewable hydrogen is a clean fuel that can power cars, buses, 
trains, ships, and even electric utilities while only emitting water 
vapor as a byproduct. To produce this hydrogen, electricity is used to 
split or ``crack'' water into hydrogen and oxygen. When that 
electricity comes from renewable energy sources like wind and solar, 
then we have a revolutionary fuel that could potentially meet 
significant amounts of energy needs without any carbon emissions.
    The ability to store surplus renewably-generated electricity is one 
of the most challenging aspects to achieve a 100 percent renewable 
energy future. By using renewable electricity to convert water into 
hydrogen, we can store hydrogen fuel in fuel cells that can generate 
power when we need it.
    An increasing number of utilities and companies are incorporating 
hydrogen fuel into their portfolios and long-term business plans. At 
the roundtable, Toyota brought its hydrogen-fuel-cell-powered Mirai 
passenger car. Tech start-up Hydrostar brought a demonstration of a low 
cost electrolyzer that can use renewable energy to create 100 percent 
renewable hydrogen. The Eugene (Oregon) Water and Electric Board is 
looking at innovative plans to use hydrogen to store surplus renewable 
energy as emergency backup power during natural disasters.
    California is nurturing the use of hydrogen fuel-powered vehicles 
by co-funding hydrogen refueling stations. There are now more than 30 
hydrogen fueling stations powering the more than 4,200 hydrogen fuel 
cars in the state. The federal government must follow California's lead 
and propel the growth of hydrogen fuel technologies. Like wind and 
solar, the federal government can provide various tools to help this 
technology reach economies of scale, reduce its price, and make it more 
available to the public.
    As I noted, it is immoral and unethical for policy makers to 
abandon our duty to leave a sustainable planet. Our nation's youth 
rightly demand that the government has a constitutional duty to protect 
them from the existential threat of climate change. Which is why in 
February, I was one of seven members of Congress to send a ``friend of 
the court'' brief to support the plaintiffs in the Juliana vs. United 
States to the court in support of their argument. Three of the 
plaintiffs are from my district; once again Oregon leads the way.
    Let me be clear: I will not stand by as our earth lurches toward a 
state that cannot support life. I am open to any and all ideas to 
overcome our climate crisis. One thing is certain: we cannot give up. 
We don't have to. We already have solutions that will put us on the 
road to lower carbon emissions, we just need the political will to act. 
You can count on me to continue working to end the most critical issue 
facing our world.
    Thank you again for holding today's hearing.

    Ms. Castor. Well, fortunately, we have you as the chairman 
of the Transportation and Infrastructure Committee to help us.
    You know, so much of the dialogue around the climate crisis 
involves the challenges ahead, but I think what you have been 
able to do through your work and your testimony today is 
highlight the opportunities, the opportunities for families, 
hardworking families across the country to save money, to build 
these new innovative technologies. So we will look forward to 
working with you and your professional staff, all of your 
committee members on charting that course forward.
    Mr. DeFazio. Thank you, Madam Chair.
    Ms. Castor. Thank you very much.
    And, Mr. Schneider, you are recognized for 5 minutes.

STATEMENT OF THE HON. BRADLEY SCOTT SCHNEIDER, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Schneider. Thank you, Madam Chair. And I want to thank 
you for your leadership on this committee and the work you are 
doing, and then today, for the opportunity to testify before 
you.
    Congress must urgently address climate change because 
climate change is not a future threat. As others have said, it 
is a very real and present danger. On nearly weekly basis we 
see news of catastrophic climate events, including Category 5 
hurricanes and typhoons, more widespread floods, record-setting 
tornadoes, and longer and more devastating fire seasons. This 
is true in the United States, but also around the world. The 
need for bold action is now. The decisions we make today will 
determine the future we pass on to our children and will 
determine the future of our way of life on this planet.
    In that vein, I want to highlight four general topics. 
First, the idea that comprehensive congressional response to 
climate change is necessary. Addressing impacts and crafting 
solutions extends beyond the single jurisdiction of any one 
congressional committee. It affects our national domestic 
security, it impacts communities both urban and rural, it 
threatens our national energy grid, our emergency response 
capacity, transportation infrastructure. Rising seas pose new 
risks to coastal communities and naval bases. Changing weather 
patterns threaten farms and, therefore, food security, not just 
here at home, but around the world. It is placing new demands 
on our foreign policy and our international aid.
    Because the challenges are so multifaceted, the tools we 
will need, from tax incentives to spur development to 
assistance for vulnerable communities, will necessarily come 
from every corner of government. This is why I believe that 
every committee in Congress should charge and empower one of 
its standing subcommittees to address climate-related policy 
within its jurisdiction. This assignment should be reflected in 
the subcommittee's name. To properly address climate change, we 
will need a whole-of-government approach and all hands on deck. 
Congress must approach the issue with the same level of 
thoroughness.
    The second topic deals with resiliency that others have 
talked about as well. In this, as in previous Congresses, we 
are pushing for Federal investment in our Nation's 
infrastructure. We have the opportunity to spur investment in 
infrastructure through regularly authorized legislation like 
that governing surface transportation that we will address in 
this Congress, as well as through more comprehensive 
infrastructure packages that I hope we will address and, 
hopefully, pass in this Congress.
    As we look at these opportunities to make significant 
Federal investments in infrastructure around the country, we 
must ensure that these investments are made with the long-term 
impacts of climate change in mind. In my own district, for 
instance, we have seen the effect of climate change firsthand 
through increased rainfall and flooding in recent years, 
challenging our storm water infrastructure. We must make sure 
that our future investments in infrastructure are prepared to 
handle the capacity and ongoing demands climate change will 
bring from increased natural disasters to adapting to the needs 
of an electrical grid run by renewables.
    Third, with respect to natural disaster funding. Climate 
change has already significantly increased dangerous and 
damaging natural disasters around the world, including six 
Category 5 hurricanes in the last 4 years, the first ever 
extreme red flag warning for wildfires in California, and the 
increasingly common occurrence of so-called 100- and even 500-
year floods.
    There are vital Federal programs that help communities 
prepare for and respond to these disasters, but we know that 
these programs will be stretched thin as climate change 
exacerbates the cost and frequency of these events. I believe 
this committee must make sure funding for natural disasters is 
examined through the lens of climate change so that we can be 
sure future events have adequate funding prepared to respond.
    Finally, the Great Lakes Restoration Initiative. As my 
colleague Marcy Kaptur spoke earlier about the effects of 
climate change and algal blooms in Lake Erie, we are seeing 
impacts across every great lake, and we must look to existing, 
successful Federal programs to address local and regional 
climate-related issues. The Great Lakes Restoration Initiative 
has been a successful Federal program that promotes 
conservation, stewardship, and environmental programming in the 
Great Lakes region.
    As this committee looks for ways to address regionally 
specific concerns stemming from climate change, I encourage you 
to look at the Great Lakes Restoration Initiative as a means of 
addressing Great Lakes issues specifically and to follow the 
successful partnership model of the GLRI more generally when 
considering new programs.
    Again, I want to emphasize that addressing climate change 
will require an all-of-government response. I look forward to 
working with my colleagues on this committee to chart a more 
sustainable and prosperous future for our planet and to tackle 
with the fierce urgency this issue requires.
    Thank you very much. I yield back.
    [The statement of Mr. Schneider follows:]
                              ----------                              


            Testimony of the Hon. Bradley ``Brad'' Schneider

        A Representative in Congress from the State of Illinois

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Thank you, Madam Chair, for the opportunity to testify. And thank 
you for the leadership of this committee. Congress must address climate 
change with the dire urgency the situation requires, because climate 
change is not a future threat, it is a present danger. On a near weekly 
basis we see news of catastrophic floods, record setting tornadoes, and 
longer and more devastating fire seasons.
    The need for urgent action is now. The decisions we make today will 
determine the future we pass on to our children.
Subcommittee
    Climate change is a global problem that evades the single 
jurisdiction of just one congressional committee. It affects our 
natural resources, our national energy grid, our emergency response, 
transportation infrastructure, foreign policy, and more. And the tools 
we'll need--from tax incentives to spur development to assistance for 
vulnerable communities--come from every corner of government.
    I propose that every committee in Congress empower one of its 
subcommittees to address climate-related policy within its 
jurisdiction. To properly address climate change, we will need a whole-
of-government approach and for all hands on deck. Congress must 
approach the issue with the same level of thoroughness.
Resiliency
    In this as in previous Congresses, we are pushing for federal 
investment in our nation's infrastructure. We have the opportunity to 
spur investment in infrastructure through regularly authorized 
legislation like that governing surface transportation that we will 
address this Congress, and through more comprehensive infrastructure 
packages like that which we all hope we can pass this Congress.
    As we look at these opportunities to make significant federal 
investments in infrastructure around the country, we must ensure that 
these investments are made with climate change in mind. In my own 
district, for instance, we have seen climate change first-hand through 
increased rainfall and flooding in recent decades, challenging our 
stormwater infrastructure. We must make sure that our future 
investments in infrastructure are prepared to handle the capacity and 
demands climate change will bring--from increased natural disasters to 
adapting to the needs of an electrical grid run by renewables.
Natural Disaster Funding
    Climate change has already significantly increased dangerous and 
damaging natural disasters around the world, including six Category 5 
hurricanes in the past four years, the first-ever Extreme Red Flag 
Warning for wildfires, and the increasingly common occurrence of the 
so-called ``100-year'' floods.
    There are vital federal programs that help communities prepare for 
and respond to these disasters, but we know that these programs will be 
stretched thin as climate change exacerbates the cost and frequency of 
these events. I believe this Committee must make sure funding for 
natural disasters is examined through the lens of climate change so 
that we can be sure future events have adequate funding prepared to 
respond.
GLRI
    Finally, we must look to existing, successful federal programs to 
address local and regional climate-related issues. The Great Lakes 
Restoration Initiative has been a successful federal program that 
promotes conservation, stewardship, and environmental programming in 
the Great Lakes Region. As this Committee looks for ways to address 
regionally-specific concerns stemming from climate change, I encourage 
you to look at GLRI as a means of addressing Great Lakes issues 
specifically, and to follow the successful partnership model of GLRI 
more generally when considering new programs.
    Addressing climate change will require an all of government 
response. I look forward to working with my colleagues on this 
committee to chart a more sustainable and prosperous future for our 
planet, and to address this with the fierce urgency the issue requires.

    Ms. Castor. Well, thank you very much, Mr. Schneider.
    Mr. Peters, you are my colleague from the Energy and 
Commerce Committee. I know that these issues have been of 
interest to you from the time before you entered the Congress, 
so I am pleased that you have recommendations for the select 
committee. You are recognized for 5 minutes.

  STATEMENT OF THE HON. SCOTT H. PETERS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Peters. Thank you so much, Madam Chair. And thank you 
for your pivotal leadership on this crisis today.
    You know, we now well understand climate change. We have 
many of the tools at our disposal that we need to deal with 
climate change. We know the target net-zero by mid-century, but 
we cannot get to where we need to be without dramatic and 
substantive policy change. We need to tackle that now.
    Some argue that what we need is the Green New Deal. While I 
agree with just about every policy in the Green New Deal that 
has to do with climate, it also calls for major expensive 
societal overhauls, like a Federal jobs' guarantee and free 
college for every American, and we could debate those policies 
separately without burdening the already daunting task of 
climate action with these extra requirements. And that was the 
point that Greta Thunberg made recently when she came to 
Capitol Hill. She said we need to keep our eyes on the ball, 
quote.
    Yes, of course, a sustainable transformed world will 
include lots of new benefits, but you have to understand, this 
is not primarily an opportunity to create new green jobs, new 
businesses, or green economic growth. This is above all an 
emergency, and not just any emergency. This is the biggest 
crisis humanity has ever faced.
    So it is not responsible for us in Congress to pretend that 
a one-party, nonbinding resolution that itself enacts not a 
single legislative change or any one-party bill that cannot 
become law is the answer to this question. Great challenges 
like sending a man to the Moon or winning a world war against 
tyranny or fighting climate change to save the planet are one 
with national unity and consensus. Great challenges don't wait 
for or depend on the results of the next election. We need to 
work together now across party lines if we want our children 
and grandchildren to have a habitable planet, and we have some 
great opportunities that I want to point out. Some of the 
context has changed.
    At the Energy and Commerce Committee this April, even EPA 
Administrator Wheeler testified that climate change is real and 
that it is driven by human activity, including the burning of 
fossil fuels. That is not exactly climate change denial. 
Florida Republicans Francis Rooney, Brian Mast, and Matt Gaetz 
are all sponsors of legitimate climate legislation, because 
Floridians have noticed the streets of Miami are flooded on 
sunny days and they know why that is. And perhaps most 
noteworthy for bringing about a change of opinion toward 
climate among our Republican colleagues is the moral advocacy 
of religious leaders like Pope Francis and the Evangelical 
Environmental Network, which is prioritizing climate change 
action because they believe we are called upon to take care of 
God's creation.
    So these trends present some new opportunities, and I have 
been looking for bipartisan bills that actually pass. I 
assembled a climate playbook from work we have already done, 
over 90 bills, many of them are bipartisan, that we could take 
action on soon. Many have already cleared their committees, 
some have reached the floor. You have heard the New Democrat 
Coalition has endorsed 12 bills, seven of them are bipartisan.
    One of those bills is the USE IT Act, which I coauthored 
with Dave McKinley from West Virginia. Bipartisan and 
bicameral, it supports the development of and construction of 
vital carbon capture and removal technologies as called for by 
the U.N. Intergovernmental Panel on Climate Change. It also 
invests in technologies to transform captured carbon dioxide 
into commercial products, like Chairman DeFazio was talking 
about.
    Florida Republican Matt Gaetz and I introduced the 
bipartisan Super Pollutants Act, which aims to regulate black 
carbon, hydrofluorocarbons, and methane, some of the most 
potent greenhouse gases, together worth a half a degree of 
warming. Among other things, the bill would codify the new 
source methane regulation that the Trump administration is 
trying to kill and would incentivize and then mandate control 
of methane from existing sources.
    Elise Stefanik and I introduced the Renewable Electricity 
Tax Credit Equalization Act, which would extend tax credits for 
investments and qualify renewable biomass, geothermal, solid 
waste, and hydropower so that we can develop new renewable 
baseload power that can replace fossil fuels.
    We have introduced the DISASTER Act with Mark Meadows to 
mandate the OMB to give us an accurate picture of Federal cost 
for disaster response so we can understand the cost and 
emphasize the need to act on climate. And you have already 
heard about bipartisan efforts to advance a carbon fee, because 
we generally accept that a price on carbon is an indispensable 
component of an effective climate action strategy, 
incentivizing every business consumer and family to reduce 
their own carbon footprint.
    With all these challenges, what is the right policy 
approach? I am for the ones that might actually become law, and 
I hope the committee agrees because there is no time to waste, 
there is no election to wait for. We need to work now to save 
this planet.
    Again, thank you very much for your work.
    [The statement of Mr. Peters follows:]
                              ----------                              --
--------


                   Testimony of the Hon. Scott Peters

       A Representative in Congress from the State of California

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    We now well understand climate change, we know we have many of the 
tools at our disposal to deal with climate change, and we know the 
target is net zero by mid century. We cannot get to where we need to be 
without dramatic and substantive policy change. We need to tackle that 
now. Some argue that what we need is the Green New Deal.
    While I agree with just about every policy in the Green New Deal 
that relates to climate change, it also calls for major, expensive, 
societal overhauls such as a federal jobs guarantee and free college 
for every American. We can debate those policies separately without 
burdening the already daunting task of climate action with these extra 
requirements.
    Greta Thunberg emphasized when she came to Capitol Hill that we 
climate warriors need to keep our eyes on the ball. She said:
    Yes, of course a sustainable transformed world will include lots of 
new benefits. But you have to understand. This is not primarily an 
opportunity to create new green jobs, new businesses or green economic 
growth. This is above all an emergency, and not just any emergency. 
This is the biggest crisis humanity has ever faced.
    It's not responsible to pretend that a one-party, nonbinding 
resolution that itself enacts not a single legislative change or a one 
party bill that can't be enacted is the answer.
    Great challenges like sending a man to the moon, or winning a world 
war against tyranny, or fighting climate change to save the planet are 
won with national unity and consensus. We need to work together if we 
want our children and our grandchildren to have a habitable planet. 
There is no time to waste.
    We have some openings in the Congress to get real, bipartisan, 
science-based legislation passed. Let's seize them.
    At the Energy and Commerce Committee this April, EPA Administrator 
Wheeler testified that climate change is real and that it is driven by 
human activity, including use of fossil fuels. Florida Republicans 
Francis Rooney, Brian Mast and Matt Gaetz are all cosponsors of 
legitimate climate legislation. Floridians have noticed the streets of 
Miami flooded on sunny days, and they know why that is.
    Perhaps most noteworthy for bringing about a change of opinion 
toward climate among Republicans is the moral advocacy of religious 
leaders. Pope Francis issued an encyclical declaring climate change is 
``both the cry of the earth and the cry of the poor.''
    The Evangelical Environmental Network is prioritizing climate 
change action, because they believe we are called upon to take care of 
God's creation. These trends present new opportunities for not just the 
usual suspects, but for actual change.
    I assembled a Climate Playbook, which lays out over 90 bills 
authored by Democrats and Republicans in recent years, most of which 
already have bipartisan support. Many have already passed through their 
committees of jurisdiction and some have passed the full House. It's a 
resource we update as ideas are written into legislation, and as bills 
advance. It's hosted on my web site and available to everyone.
    One of these bills is the (USE IT) Act, which I coauthored with 
Dave McKinley. It's bipartisan and bicameral and supports the 
development and construction of vital carbon capture and removal 
technologies as called for by the UN Intergovernmental Panel on Climate 
Change. It also invests in technologies to transform captured carbon 
dioxide into commercial products.
    Florida Republican Matt Gaetz and I introduced the bipartisan Super 
Pollutants Act, which aims to regulate black carbon, 
hydrofluorocarbons, and methane--some of the most potent greenhouse 
gases--which are significantly more harmful than carbon dioxide. Among 
other things, the bill would codify the new source methane regulations 
the Trump Administration is trying to kill, and would incentivize, then 
mandate, control of methane from existing sources.
    New York Republican Elise Stefanik and I introduced the Renewable 
Electricity Tax Credit Equalization Act, which extends tax credits for 
investments in qualified renewable biomass, geothermal, solid waste and 
hydropower, so that we can develop new renewable baseload power that 
could replace fossil fuels. The DISASTER Act, which I introduced with 
Rep. Mark Meadows, mandates the OMB to give us an accurate picture of 
federal costs for disaster response, so we can understand the costs and 
we can emphasize the need to act on climate.
    Related to our clean energy future, Rep. Elaine Luria and Rob 
Wittman have introduced the Nuclear Energy Leadership Act, which has 
the DOE demonstrate advanced nuclear plants, develop the fuel needed 
for this technology, and write a 10-year strategic plan for advanced 
nuclear reactor development.
    Finally, there are two bipartisan efforts to advance a carbon fee: 
the MARKET CHOICE Act and Energy Innovation and Carbon Dividend Act. We 
generally accept that a price on carbon is an indispensable component 
of an effective climate action plan, incentivizing every business, 
consumer and family to reduce their own carbon footprint.
    Great challenges like sending a man to the moon, or winning a world 
war against tyranny, or fighting climate change to save the planet are 
won with national unity and consensus. Great challenges don't wait for 
or depend on the next election results. We need to work together now, 
across party lines, if we want our children and our grandchildren to 
have a habitable planet.
    So, what's the right policy approach? I'm for the ones that might 
actually become law, and I hope the Committee agrees, there is no time 
to waste.

    Ms. Castor. Well, thank you, Mr. Peters. You know, I guess 
it was a little over a year ago you said you were going to keep 
track of every climate bill that was filed in this Congress, 
and your climate playbook has become an invaluable resource. So 
thank you very much. Thank you for your testimony today.
    Ms. Axne, we want to hear about the Iowa story. Since you 
arrived in the Congress, you have been an outspoken advocate 
for your State and what is happening there in the 
transformation to clean energy. So you are recognized for 5 
minutes.

    STATEMENT OF THE HON. CYNTHIA AXNE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mrs. Axne. Well, thank you so much Chairwoman Castor, 
Ranking Member Graves, and members of the Select Committee. 
Thank you for the opportunity to testify here today, and thanks 
for all the work that you have done to push this agenda 
forward.
    As we all know, climate change is a real existential 
threat, and the impacts of climate change, as you are implying, 
don't just affect our coast, but they also affect the heartland 
with changing weather patterns and devastating floods, and it 
is only going to get worse and impact our economy if we don't 
act.
    My district experienced this pain firsthand just this year. 
Earlier this year, the Midwest suffered historic flooding on 
the Missouri River and put entire towns like Hamburg and 
Pacific Junction in my district completely under water. We 
still have 4 feet of water in many places with white caps 
flowing on it this many months later.
    Not only did it cause pain and destruction, but it caused 
billions of dollars of damage in agricultural losses throughout 
Iowa, and now we are experiencing these historic so-called 100- 
or 500-year floods on a fairly regular basis. It is also been 
the wettest year on record for Iowans, which has made flood 
recovery even more difficult and has greatly affected our 
harvest. So the effects of climate change can't be ignored in 
places like Iowa.
    So the situation in my district underscores the urgency of 
what we are hear to talk about today and, of course, why 
Congress must address the climate crisis with substantial 
legislation that will move us toward a cleaner environmental 
future. We simply can't afford to get this wrong, and we must 
work collaboratively with all stakeholders in both rural and 
urban communities to achieve meaningful results.
    I come from the great Third District of Iowa. It is a row 
crop State in the heartland where agriculture and our rural 
communities are literally essential to who we are. Farmers 
quite often get a bad rap on environmental issues, but that is 
simply misguided. While we all can and must do more to address 
this crisis, farmers in my State and district have been on the 
forefront of this issue because the environment is their 
livelihood.
    We have seen farmers adopt scientific solutions, 
technological advances, and groundbreaking innovations to 
improve the health of their land and become more efficient, 
while reducing their footprint, like precision agriculture 
practices that address every single inch of land and what is 
specifically needed for an input on that piece of land. In 
fact, over the last 70 years, farms have nearly tripled in 
production while inputs have stayed the same, so Iowans are 
feeding more with less, and this increased efficiency has also 
allowed farmers to grow crops to be converted into renewable 
biofuels.
    These biofuels have helped reduce greenhouse gas emissions 
in the transportation sector, which we have indicated here is 
the leading industry for carbon emissions. Compared to 
petroleum, biodiesel reduces GHG emissions by upwards of 72 
percent. And in 2018 alone, biofuels reduced GHG emissions 
equivalent to taking 17 million cars off the road. So the 
renewable fuel standard is an essential program to help us 
reduce our emissions, and Congress must support the biofuels 
industry to continue this.
    Farmers have also implemented several conservation programs 
with success, like the Conservation Reserve Program, the 
Environmental Quality Incentives Program, and the Conservation 
Stewards Program. Between those programs, we have 132 million 
acres enrolled, which is 15 percent of all agricultural land in 
the country. And additionally, I am very proud of this, Iowa 
leads the Nation in conservation tillage acres and is fifth in 
no-tillage practices.
    So it all goes to show that farmers are already working 
hard to implement conservation practices that help our 
environment. But farmers are also facing really hard times 
right now between low years of commodity prices, a trade war 
that continues to threaten our market access, and unpredictable 
weather that harms production. So any additional conservation 
program should be modeled after the current ones and provide 
financial support and incentives.
    There is also significant advances to be made with carbon 
sequestration. We should look at opportunities to promote 
practices that result in the greatest amount of carbon being 
sequestered and incentivize the implementation of those 
practices. I am proud of the work that the Iowa Soybean 
Association is doing in developing a soil and water outcomes 
fund that would provide financial incentives for farmers and 
monetize the carbon capture. And I encourage the select 
committee to look into the important work they are doing and 
look for opportunities that Congress can support.
    We must also recognize the importance of rural broadband in 
this conversation, because as farmers continue to innovate and 
adapt groundbreaking precision agriculture technologies, they 
can have a significant impact on addressing the issues with 
climate change. So investing in rural communities allows for 
further deployment of wind and solar technologies as well. I 
have been there. I was in charge of implementing the governor's 
agenda for clean energy in the environment in Iowa. We now have 
over 9,000 jobs in that industry and almost 40 percent of our 
energy is there, so we ask you to continue to look at the 
Midwest to support these ideas.
    Chairwoman Castor, you couldn't have said it any better 
during the opening remarks of the select committee's hearing on 
agriculture last month when you said farmers are already doing 
a lot to combat climate crisis and we must invest in them to do 
more.
    So to finish this up, I am asking Congress to enact 
meaningful legislation to address climate crisis, but we have 
got to get our answers right, and that means working with 
partners in every sector, in every community to build upon a 
success they have and invest in new opportunities for carbon 
reduction.
    Thanks again for letting me testify here today, and I 
really look forward to hearing your recommendations.
    [The statement of Mrs. Axne follows:]
                              ----------                              --
--------


              Testimony of the Hon. Cynthia ``Cindy'' Axne

          A Representative in Congress from the State of Iowa

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Chairwoman Castor, Ranking Member Graves, and Members of the Select 
Committee--thank you for the opportunity to testify here today, and 
thank you all for the work you have done on this important committee.
    Climate change is a real and existential threat. The impacts of 
climate change aren't just felt on the coasts with rising sea levels, 
but are also felt in the Heartland with changing weather patterns and 
devastating floods. Climate change is already impacting America's 
economy, and it will only get worse if we don't act.
    My district has experienced this pain first hand. Earlier this 
year, the Midwest suffered historic flooding of the Missouri River that 
put entire towns such as Hamburg and Pacific Junction in my district 
completely underwater.
    The flooding caused pain and destruction for many of my 
constituents and caused billions of dollars in damage and agricultural 
losses throughout Iowa.
    We are experiencing these historic, so-called 100 or 500 year 
floods far too often. This year was also the wettest year on record for 
Iowans, which has made flood recovery even more difficult and has 
greatly affected harvest. The effects of climate change cannot be 
ignored.
    This situation in my district underscores the urgency of what we're 
here to talk about today. This Congress must address the climate crisis 
with substantial legislation that will move us towards a cleaner 
environmental future. We simply cannot afford to get this wrong, and we 
must work collaboratively with all stakeholders in both rural and urban 
communities to achieve meaningful results.
    I come from the Third District of Iowa, a row crop state in the 
heartland, where agriculture and our rural communities are essential to 
who we are. Farmers often get a bad rap on environmental issues, but 
that is simply misguided.
    While we all can and must do more to address this crisis, farmers 
in my state and district have been on the forefront of this issue--the 
environment is their livelihood.
    We have seen farmers adopt scientific solutions, technological 
advances, and groundbreaking innovations to improve the health of their 
land and become more efficient while reducing their footprint. Like 
precision agriculture practices that address what's needed on every 
inch of land to use inputs in the most efficient way.
    In fact, over the last seventy years farms have nearly tripled in 
production while inputs have stayed the same. Iowans are feeding more 
with less. This increased efficiency has also allowed farmers to grow 
crops to be converted into renewable biofuels.
    These biofuels have helped reduce greenhouse gas emissions in the 
transportation sector, which as we all know is the leading industry for 
carbon emissions. In 2018 alone, biofuels reduced green house gas 
emissions equivalent to taking 17 million cars off the road.
    Farmers have also successfully implemented conservation programs 
such as Conservation Reserve Program, the Environmental Quality 
Incentives Program, and the Conservation Stewards Program. Between 
these three programs, more than 132 million acres--15% of all 
agricultural land in the country--is enrolled in conservation 
practices.
    Additionally--and I'm very proud of this--Iowa leads the nation in 
conservation tillage acres and is fifth in no-till acres.
    This all goes to show that farmers are already working hard to 
implement conservation practices that help our environment. However, 
farmers are also facing hard times between years of low commodity 
prices, a trade war that has threatened market access, and 
unpredictable weather that has harmed production.
    Any additional conservation programs should be modeled after the 
current ones and provide financial support and incentives.
    There are also significant advances to be made within carbon 
sequestration. We should look at opportunities to promote practices 
that result in the greatest amount of carbon being sequestered and 
incentivize the implementation of such practices.
    I am proud of the work that the Iowa Soybean Association is doing 
in developing a Soil and Water Outcomes Fund that would provide 
financial incentive for farmers and monetize the carbon capture. I 
encourage the Select Committee to look into the important work that 
they are doing and look for opportunities for Congress to support.
    We must also recognize the importance of rural broadband in this 
conversation. As farmers continue to innovate and adapt groundbreaking 
precision agriculture technologies--which has had significant effects 
on tracking water quality issues and reducing inputs and energy needs 
through efficiency--it is critical that our rural communities have the 
infrastructure necessary to support new and emerging technology.
    Investing in our rural communities also allows for further 
deployment of wind and solar technologies. In my time working with the 
State of Iowa, I helped implement the Governor's Agenda on Clean Energy 
and the Environment. The initiative helped bring the wind industry to 
scale in Iowa while also creating thousands of jobs.
    Today, the wind industry supports over 9,000 jobs for Iowans and 
generates nearly 40% of the state's electricity--among the highest in 
the nation. We must continue to make investments in these clean 
technologies.
    Chairwoman Castor, you could not have said it any better during 
your opening remarks of the Select Committee's hearing on agriculture 
last month when you said that farmers are already doing a lot to combat 
the climate crisis and we must invest in them to do more.
    That is what this comes down to--there is significant opportunity 
to build upon the practices our farmers are already undertaking and 
incentivize new research, technology, and practices to reduce our 
carbon footprint--we need to invest in and encourage these 
developments.
    This Congress must act and pass meaningful legislation to address 
the climate crisis and we must get our answer right. The stakes are 
simply too high if we don't.
    That means working with partners in every sector and in every 
community, to build upon the success they already have, and invest in 
new opportunities for carbon reduction.
    Thank you again for the opportunity to testify here today and I 
look forward to the Select Committee's recommendations.

    Ms. Castor. Well, thank you very much, Representative Axne, 
for your leadership, your know-how based upon your experience 
in Iowa. We are going to need your help as we craft these 
policy recommendations. So thank you.
    Mrs. Axne. Thank you.
    Ms. Castor. And speaking of a leader on climate is my 
colleague from the Energy and Commerce Committee, who has for 
many years been working on principles and climate solutions. So 
to the chairman of the Environment and Climate Change 
Subcommittee, welcome, thank you, Mr. Tonko, for being here. 
You are recognized for 5 minutes.

STATEMENT OF THE HON. PAUL TONKO, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you.
    Well, good afternoon, Chair Castor. And as chair and 
certainly as the members of the select committee gather, we 
thank you for this opportunity to testify and for all your work 
to advance meaningful and necessary climate action. So thank 
you, Chair Castor.
    The scale and scope of this crisis demand an all-hands-on-
deck approach. Much like the select committee, the House Energy 
and Commerce Committee has been holding hearings and 
stakeholder roundtables to better understand what 
opportunities, what challenges, and what potential solutions 
should be considered as part of comprehensive legislation. As a 
precursor to these hearings, I undertook a year's long process 
meeting with hundreds of stakeholders and seeking their 
perspectives and their policy priorities. This input proved 
critically important to developing a set of nine principles for 
climate action, which were released earlier this year. I will 
not go through that entire framework today, but I do hope the 
committee will consider it as a helpful rubric for building and 
evaluating comprehensive climate proposals. And you have 
received copies of this, and, you know, I think it proves 
helpful.
    This process has also revealed several insights that may be 
useful to you now. Our next step must be to draw from areas of 
agreement and build specific policies and legislative language. 
Most importantly, we need a broad portfolio of solutions. No 
one policy will decarbonize the entire economy on its own. The 
transition to a clean economy will create opportunities that 
can benefit American workers, can benefit families and 
communities if we act quickly and thoughtfully. But our 
approach must also acknowledge challenges.
    First, it must provide fairness and opportunities for 
workers and a transition plan for communities and individuals 
that face disruptions. Second, we must ensure that the 
transition works for all Americans and that it addresses 
historic inequities and environmental injustices. Third, we 
must maintain energy affordability to avoid harming America's 
most vulnerable populations. Fourth, we need to restore and 
strengthen the United States' competitiveness, particularly in 
domestic manufacturing.
    Regarding specific solutions, I am certain we have heard 
many of the same suggestions; therefore, it might be useful to 
mention a few aspects that might be overlooked or 
underappreciated. In power, no credible modeler believes we can 
achieve 80 percent or more clean electricity with our existing 
infrastructure alone. We need to build more transmission, we 
need to reduce regulatory barriers that cause new lines to take 
a decade to build, and increase the capacity and efficiency of 
our existing lines. This will not be politically popular, but 
it is indeed necessary.
    In transportation, we should electrify as much as possible, 
but there are limitations that require us to develop other 
clean alternatives. Hydrogen fuel cells have great potential, 
especially for long-haul trucking that benefits from fast 
refueling without the heavyweight of batteries. Similarly, 
cleaner liquid fuels will likely be needed for aviation. We 
must continue investing in R&D and encouraging market demand 
for these alternatives.
    For industry, regardless of your feelings on CCS and the 
power sector, carbon capture for certain types of industrial 
facilities will likely be necessary. Again, raising demand for 
low emissions industrial products can be a major driver for 
innovation. Amongst economywide mechanisms, carbon pricing is a 
potentially powerful part of our toolkit. A strong price signal 
will spur investment and innovation and low emissions 
alternatives, but not all carbon pricing programs are created 
equally. Good design matters and successful programs can take 
different approaches.
    Whether we are considering a tax, a fee, or emissions 
trading system, first and foremost, it must provide emissions 
reductions certainty. Second, the best result will come from 
covering as much of the economy as technically and politically 
feasible, while being technologically inclusive. Third, the 
program must be credible and provide certainty in order to 
impact long-term investment decisions. Fourth, it should 
provide flexibility for regulated entities to the extent that 
it does not undermine the integrity of the program or result in 
harmful inequitable outcomes. Fifth, it must protect low-income 
households as well as the global competitiveness of U.S. energy 
intensive trade exposed manufacturers. And finally, at least 
some revenues must go toward complementary policies that 
promote R&D, infrastructure deployment, workforce development, 
community and worker programs, environmental justice and 
restoration resilience, and energy efficiency. These types of 
investments will help make emissions reductions both quicker 
and cheaper.
    Ten years have passed since Congress last attempted 
comprehensive climate legislation. If our intention is to avoid 
the most dangerous and irreversible aspects of climate change, 
our next opportunity to confront this crisis will likely be our 
last.
    I am eager to work with your committee, this committee, and 
any member interested in ensuring this attempt succeeds. And 
again, thank you for the opportunity to testify, and thank you, 
again, for your leadership on this issue.
    [The statement of Mr. Tonko follows:]
                              ----------                              --
--------


                  Testimony of the Hon. Paul D. Tonko

        A Representative in Congress from the State of New York

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Chair Castor, Ranking Member Graves, and members of the Select 
Committee, thank you for this opportunity to testify and for all your 
work to advance meaningful and necessary climate action.
    The scale and scope of this crisis demand an all-hands-on-deck 
approach. Much like the Select Committee, the House Energy and Commerce 
Committee has been holding hearings and stakeholder roundtables to 
better understand what opportunities, challenges, and potential 
solutions should be considered as part of comprehensive legislation.
    As a precursor to these hearings, I undertook a years-long process 
meeting with hundreds of stakeholders and seeking their perspectives 
and policy priorities.
    This input proved critically important to developing a set of 9 
principles for climate action, which were released earlier this year.
    I will not go through that entire framework today, but I hope the 
Committee will consider it as a helpful rubric for building and 
evaluating comprehensive climate proposals.
    This process has also revealed several insights that may be useful 
to you now.
    Our next step must be to draw from areas of agreement and build 
specific policies and legislative language.
    Most importantly, we need a broad portfolio of solutions. No one 
policy will decarbonize the entire economy on its own.
    The transition to a clean economy will create opportunities that 
can benefit American workers, families, and communities if we act 
quickly and thoughtfully. But our approach must also acknowledge 
challenges.
    First, it must provide fairness and opportunities for workers and a 
transition plan for communities and individuals that face disruptions.
    Second, we must ensure that the transition works for all Americans 
and addresses historic inequities and environmental injustices.
    Third, we must maintain energy affordability to avoid harming 
America's most vulnerable people.
    Fourth, we need to restore and strengthen U.S. competitiveness, 
particularly in domestic manufacturing.
    Regarding specific solutions, I am certain we have heard many of 
the same suggestions. Therefore, it might be useful to mention a few 
aspects that might be overlooked or underappreciated.
    In power, no credible modeler believes we can achieve 80 percent or 
more clean electricity with our existing infrastructure alone.
    We need to build more transmission, reduce regulatory barriers that 
cause new lines to take a decade to build, and increase the capacity 
and efficiency of existing lines. This will not be politically popular, 
but it is necessary.
    In transportation, we should ``electrify-as-much-as-possible,'' but 
there are limitations that require us to develop other clean 
alternatives.
    Hydrogen fuel cells have great potential, especially for long-haul 
trucking that benefits from fast refueling without the heavy weight of 
batteries. Similarly, cleaner liquid fuels will likely be needed for 
aviation. We must continue investing in R&D and encouraging market 
demand for these alternatives.
    For industry, regardless of your feelings on CCS in the power 
sector, carbon capture for certain types of industrial facilities will 
likely be necessary. Again, raising demand for low-emissions industrial 
products can be a major driver for innovation.
    Among economy-wide mechanisms, carbon pricing is a potentially 
powerful part of our toolkit. A strong price signal will spur 
investment and innovation in low-emissions alternatives.
    But not all carbon pricing programs are created equally. Good 
design matters, and successful programs can take different approaches.
    Whether we are considering a tax, fee, or emissions trading system, 
first and foremost, it must provide emissions reductions certainty.
    Second, the best results will come from covering as much of the 
economy as technically and politically feasible while being technology-
inclusive.
    Third, the program must be credible and provide certainty in order 
to impact long-term investment decisions.
    Fourth, it should provide flexibility for regulated entities to the 
extent that it does not undermine the integrity of the program or 
result in harmful, inequitable outcomes.
    Fifth, it must protect low-income households as well as the global 
competitiveness of U.S. energy-intensive, trade-exposed manufacturers.
    And finally, at least some revenues must go toward complementary 
policies that promote R&D, infrastructure deployment, workforce 
development, community and worker programs, environmental justice and 
restoration, resilience, and energy efficiency. These types of 
investments will help make emissions reductions both quicker and 
cheaper.
    10 years have passed since Congress last attempted comprehensive 
climate legislation.
    If our intention is to avoid the most dangerous and irreversible 
aspects of climate change, our next opportunity to confront this crisis 
will likely be our last.
    I am eager to work with this Committee and any member interested in 
ensuring this attempt succeeds.
    Thank you again for the opportunity to testify.

    Ms. Castor. Thank you, Mr. Tonko.
    Congresswoman Shalala, thank you very much for the 
opportunity to be with you and local leaders in Miami, Miami 
Beach last week. I was so impressed with what you are leading 
when it comes to resiliency.
    You are recognized for 5 minutes. I am anxious to hear your 
testimony.

  STATEMENT OF THE HON. DONNA E. SHALALA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Shalala. Thank you very much, Madam Chair, and thank 
you for coming to South Florida.
    Since 1950, the sea level in South Florida has risen eight 
inches and it is only speeding up. By 2030, the sea level in 
South Florida is projected to rise up to 12 inches, and by 
2100, perhaps 80 inches. According to U.N. projections, the 
average temperature on the planet will rise by 5 to 9 degrees 
Fahrenheit by the end of the century. This will cause a sea 
level rise that will virtually submerge all of South Florida.
    If we continue to do nothing on climate change, my 
community, Chairwoman Castor's Florida community as we know it, 
will disappear. We have a moral obligation to mitigate and 
adapt immediately as we are already seeing the effects of 
climate change and sea level rise.
    It no longer takes a strong hurricane to flood our streets. 
They now flood just from a particular high tide such as the 
king tides. In fact, tidal flooding has become three times as 
common in South Florida in just the past 19 years, causing so-
called sunny-day flooding, affecting our streets, our schools, 
our tourism economy.
    Ninety percent of South Florida's drinking water comes from 
the underground Biscayne aquifer. Because of Florida's porous 
limestone bedrock and the diversion of fresh water ways, as sea 
levels rise, saltwater reaches further inland and our drinking 
water is seriously threatened. If we do not address sea level 
rise through infrastructure, this saltwater intrusion will 
destroy our only source of drinking water long before Miami is 
under water.
    With more powerful storms causing more destruction than 
ever before, Category 4 and 5 hurricanes are projected to be at 
least 45 percent more common because of rising ocean 
temperatures. Combined with higher sea levels, when these 
storms make landfall, they don't just flood roads and stop 
traffic; they destroy homes and lives. But with thorough 
legislation from this committee, we can combat rising sea 
levels and a warming planet by crafting and pushing forward 
with legislation to mitigate the effects of the climate crisis. 
We can reduce emissions and transition away from fossil fuels 
so that we can leave a healthy planet to future generations.
    For those on this committee who also sit on the 
Transportation and Infrastructure Committee, my testimony 
likely sounds very similar to the one I gave to the committee 
on Member day in the spring. That is because, particularly for 
my constituents, addressing the climate crisis means addressing 
our crumbling climate change exacerbating infrastructure. We 
have a real opportunity to use climate-smart infrastructure to 
prepare for higher sea levels, mitigate the effects of climate 
change, and protect our communities.
    So I ask my colleagues on the select committee to make sea 
level rise and climate-resilient infrastructure a fundamental 
component of their climate legislation. We have already had 
success designing effective infrastructure projects in Miami. 
In my district, as you well know, Madam Chair, as you visited 
us last week, the city of Miami Beach has spent a half a 
billion dollars on raising streets, building seawalls, and 
installing massive water pumps that can move 30,000 gallons of 
water a minute from streets into the ocean, draining over 7 
inches of water a day. The city bond rating was maintained 
because of these resilience efforts.
    Combining these projects with natural green infrastructure 
can result even better and more environmentally friendly 
results. Miami Waterkeeper, a nonprofit organization that 
advocates for South Florida's watershed and wildlife, is 
working to address climate change and sea level rise locally by 
promoting green infrastructure. And North Bay Village, also in 
my district, is testing modular seawalls and encouraging the 
private market to take the first step in raising the elevation 
of this island community.
    I have always believed that the Federal Government should 
pay close attention to what is happening at the local level, 
but it is really on to us in Washington to be partners for 
local and State governments. We can't wait. My district and 
many others are already seeing the disastrous effects of sea 
level rise. This is not the time for incrementalism. We need a 
big, bold strategy, so let's do it.
    Thank you very much.
    [The statement of Ms. Shalala follows:]
                              ----------                                
        


                  Testimony of the Hon. Donna Shalala

         A Representative in Congress from the State of Florida

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Chairwoman Castor, Ranking Member Graves, and Committee members, 
thank you for the invitation to testify on the issues of importance to 
my constituents as the Select Committee on the Climate Crisis continues 
to develop its legislative agenda.
    I want to begin by giving you some numbers:
    Since 1950, the sea level in South Florida has risen 8 inches, and 
it is only speeding up. By 2030, the sea level in South Florida is 
projected to rise up to 12 inches, and by 2100, perhaps 80 inches.
    According to UN projections, the average temperature on the planet 
will rise by 5 to 9 degrees Fahrenheit by the end of the century. This 
will cause a sea level rise that will virtually submerge all of South 
Florida.
    If we continue to do nothing on climate change, my community, 
Chairwoman Castor's Florida community, as we know it, will disappear.
    We have a moral obligation to mitigate and adapt immediately, as we 
are already seeing the effects of climate change and sea level rise.
    It no longer takes a strong hurricane to flood our streets; they 
now flood just from a particularly high tide--such as the King tides. 
In fact, tidal flooding has become three times as common in South 
Florida in just the past 19 years, causing so-called sunny day flooding 
affecting our streets, our schools, our tourism economy.
    90 percent of South Florida's drinking water comes from the 
underground Biscayne Aquifer.
    Because of Florida's porous limestone bedrock and the diversion of 
fresh waterways, as sea levels rise, salt water reaches further inland 
and our drinking water is seriously threatened.
    If we do not address sea level rise through infrastructure, this 
salt water intrusion will destroy our only source of drinking water 
long before Miami is underwater.
    With more powerful storms causing more destruction than ever 
before, category 4 and 5 hurricanes are projected to be at least 45% 
more common because of rising ocean temperatures.
    Combined with higher sea levels, when these storms make landfall, 
they don't just flood roads and stop traffic, they destroy homes and 
lives.
    But with thorough legislation from this Committee, we can combat 
rising sea levels and a warming planet by crafting and pushing forward 
with legislation to mitigate the effects of the climate crisis.
    Perhaps more importantly, we can reduce emissions and transition 
away from fossil fuels, so we can leave a healthy planet to future 
generations.
    For those on this committee who also sit on the Transportation and 
Infrastructure Committee, my testimony likely sounds very similar to 
the one I gave at that committee's Member Day in the spring.
    That's because, particularly for my constituents, addressing the 
climate crisis means addressing our crumbling, climate change-
exacerbating infrastructure.
    We have a real opportunity to use climate-smart infrastructure to 
prepare for higher sea levels, mitigate the effects of climate change, 
and protect our communities.
    So I ask my colleagues on the Select Committee on the Climate 
Crisis to make sea level rise and climate resilient infrastructure a 
fundamental component of their climate legislation.
    We have already had success designing effective infrastructure 
projects in Miami that are actionable and scalable to the national 
level.
    In my district, as Chairwoman Castor knows well because she visited 
us last week, the City of Miami Beach spent $500 million installing 
massive water pumps that can move 30,000 gallons of water a minute from 
streets into the ocean, draining over 7 inches of water a day.
    Combining these projects with natural ``green'' infrastructure can 
result in even better--and more environmentally friendly--results.
    Miami Waterkeeper, a non-profit organization that advocates for 
South Florida's watershed and wildlife, is working to address climate 
change and sea level rise locally by promoting green infrastructure and 
natural defenses, such as coral reefs, mangroves, and dunes.
    North Bay Village, also in my district, is taking an innovative 
approach, encouraging the private market to take the first step in 
raising the elevation of this island community, as much of the 
waterfront property is privately owned.
    I've always believed that the federal government should pay close 
attention to what's happening at the local level. In my district, on 
the front lines of climate change, local governments and organizations 
are leading the way, with innovative approaches to tackle one of the 
most consequential issues we face.
    It's on us, here in Washington, to take the giant steps in pushing 
our country towards a 100% clean energy economy, but we can't forget to 
look to what's happening at the ground level to address this crisis.
    Ultimately, this Committee has the opportunity to address the 
climate crisis and protect communities across the country by 
integrating projects such as these into your bills.
    We cannot wait. My district, and many others, are already seeing 
the disastrous effects of sea level rise, as homes and lives are 
destroyed by flooding and storms.
    Our children cannot wait.
    Thank you for addressing climate change and sea level rise with the 
seriousness it demands.

    Ms. Castor. Great. Well, thank you, again. You are 
absolutely right, that is what I heard from community leaders 
with you in Miami Beach. They want a better Federal partner, so 
thank you very much. And I bet the former mayor of Phoenix 
would echo those comments.
    Mr. Stanton, you bring a great deal of expertise to the 
halls of the Congress. You are recognized for 5 minutes.

    STATEMENT OF THE HON. GREG STANTON, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Stanton. Thank you very much, Chair Castor. Thank you 
for your leadership on this critically important select 
committee. Thank you for allowing me to participate in today's 
hearing. I look forward to your visit to Arizona, because 
climate change is ravaging the American Southwest. Arizona is 
getting hotter and dryer and more vulnerable to disaster. It is 
screaming out for Congress to do something for those of us in a 
position of power to take action.
    My home State of Arizona has earned headlines for its 
ranking as one of the fastest growing States in the Nation, but 
I am concerned about another ranking, though: that Arizona is 
the third fastest warming State in the country. Since 1970, 
temperatures have risen 3.2 degrees in Arizona. In the cities 
of Tucson and Phoenix, temperatures have risen 4.5 and 4.4 
degrees, respectively. They rank as the third and fourth 
fastest warming cities in America.
    In the West, water is becoming more and more scarce. In 
Arizona, we are in our 19th year of drought. The federally 
funded National Climate Assessment found that rising global 
temperatures have changed the southwest water cycle and 
decreased snowpack. Less snowpack, of course, means less water. 
That changing water cycle has created an alarming situation on 
the Colorado River, which provides water to Arizona, 
California, Colorado, Nevada, New Mexico, and Utah. The 
Colorado River supplies the City of Phoenix with 40 percent of 
its water, but its future is in peril.
    The once mighty river has experienced severe drought 
conditions since the time of the Clinton administration. Today, 
it remains dangerously overallocated, chronically overused, and 
is on the verge of collapse. The lack of water is forcing 
severe change in the southwest forest ecosystems and 
agricultural centers. Wildfires are becoming more frequent, 
more intense, more destructive, and more deadly. A recent study 
cited by the National Climate Assessment compared total acres 
burned in western forests under current climate conditions and 
without human-caused warming. It found that between 1984 and 
2015, the area burned by wildfire was double what it would have 
been without rising temperatures. As a result, wildfires have 
burned more than 1.5 million pine forest acres in Arizona.
    Climate change is hurting farmers, growers, and ranchers 
too. For the agricultural industry, which has more than a $23 
billion economic impact in Arizona, rising temperatures and 
water scarcity will change where crops can grow and endanger 
the health of livestock, all of which has the potential to 
displace growers and ranchers, impacting rural communities in 
my State and across the southwest. Not only is our environment 
being impacted by the effects of climate change, those in the 
southwest will suffer more health risks as well, including 
increased risk of exposure to infectious diseases, heatstroke, 
and more allergy problems.
    Cities across the United States are doing their part to 
combat climate change by embracing public transit, energy 
efficient buildings, making direct investments in clean, 
renewable energy. I am proud that when I left my post recently 
as mayor of the city of Phoenix, we had passed a $31 billion 
plan to expand the city's light rail system, we installed 32 
megawatts of solar energy on city-owned sites, we built one of 
the largest municipal fleet of clean energy vehicles in the 
country, we replaced Phoenix city vehicles with vehicles that 
run on alternative fuel or electric batteries. Every city 
garbage truck uses alternative fuels. Three-quarters of the 
city's buses run on natural gas, but it is time for the Federal 
Government to step up and take bold action to address it as 
well.
    One easy thing we can do is to support our local 
governments by passing the legislation that Congressman Marc 
Veasey and I have introduced, H.R. 2088, to reauthorize the 
Energy Efficiency and Conservation Block Grant Program. It is a 
simple reauthorization. This would create jobs, help consumers 
save on their energy bills, and reduce carbon pollution. In 
fact, a national evaluation of the Program's effectiveness 
found that just 1 year of funding avoided the emission of 25.7 
million metric tons of carbon equivalent. Imagine what would 
happen if we provided funding for this program over several 
years.
    When this program was last funded, State and local 
governments were able to pursue a wide range of projects, from 
energy retrofits to deployment of LED street lighting and solar 
energy systems, to EV charging stations and alternative fuel 
pumps. These same cities and communities, backed by the U.S. 
Conference of Mayors and the National League of Cities, support 
reauthorizing this program, just one of many policy ideas that 
this committee will hear about and many others that, of course, 
you will be considering. And I urge this committee to act with 
the urgency that the crisis demands before it is too late.
    Thank you so much. I yield back.
    [The statement of Mr. Stanton follows:]
                              ----------                              --
--------


             Testimony of the Hon. Gregory ``Greg'' Stanton

         A Representative in Congress from the State of Arizona

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Chair Castor, Ranking Member Graves, and members of the Committee, 
thank you for allowing me to participate in today's hearing.
    Climate change is ravaging the American Southwest. Arizona is 
getting hotter and drier and more vulnerable to disaster. It is 
screaming out for Congress to do something, for those of us in a 
position of power to take action.
    My home state of Arizona often earns headlines for its ranking as 
one of the fastest-growing states in the nation. I'm concerned about 
another ranking, though: That Arizona is the third fastest-warming 
state in the country.
    Since 1970, temperatures have risen 3.2 degrees in Arizona. In the 
cities of Tucson and Phoenix, temperatures have risen 4.5 and 4.4 
degrees, respectively. They rank as the third and fourth fastest 
warming cities in America.
    In the West, water is becoming more and more scarce. In Arizona, we 
are in our 19th year of drought. The federally-funded National Climate 
Assessment found that rising global temperatures have changed the 
Southwest's water cycle and decreased snowpack. Less snowpack means 
less water.
    That changing water cycle has created an alarming situation on the 
Colorado River, which provides water to Arizona, California, Colorado, 
Nevada, New Mexico and Utah. The Colorado supplies the city of Phoenix 
with 40 percent of its water. But it's future is in peril.
    The once-mighty river has experienced severe drought conditions 
since the time of the Clinton Administration. Today, it remains 
dangerously over-allocated, chronically overused and is on the verge of 
collapse.
    The lack of water is forcing severe change in the Southwest's 
forest ecosystems and agriculture centers. Wildfires are becoming more 
frequent, more intense, more destructive, and more deadly. A recent 
study, cited by the National Climate Assessment, compared total acres 
burned in western forests under current climate conditions and without 
human-caused warming. It found that between 1984 and 2015 the area 
burned by wildfire was double what it would have been without rising 
temperatures. As a result, wildfires have burned more than 1.5 million 
acres of pine forest in Arizona.
    Climate change is hurting farmers, growers and ranchers too. For 
the agriculture industry, which has a more than $23 billion economic 
impact in Arizona, rising temperatures and water scarcity will change 
where crops can grow and endanger the health of livestock. All of which 
has the potential to displace growers and ranchers, impacting rural 
communities in my state and across the Southwest.
    Not only is our environment being impacted by the effects of 
climate change, those in the Southwest will suffer more health risks as 
well, including increased risk of exposure to infectious diseases, heat 
stroke, and more allergy problems.
    Cities across the country are doing their part to combat climate 
change by embracing public transit and energy-efficient buildings, 
making direct investments in clean, renewable energy.
    I'm proud that when I left my post as mayor of Phoenix, we had 
passed a $31 billion plan to expand the city's light rail system. We 
had installed 32 mega-watts of solar energy on city-owned sites. We 
built one of the largest municipal fleet of clean-energy vehicles in 
the country. We replaced Phoenix city vehicles with vehicles that run 
on alternative fuels or electric batteries. Every city garbage truck 
uses alternative fuels. Three-quarters of city buses run on natural 
gas.
    But it is time for the federal government to step up and take bold 
action to address it as well.
    One easy thing we can do to support our local governments is pass 
legislation Congressman Marc Veasey and I have introduced, H.R. 2088, 
to reauthorize the Energy Efficiency and Conservation Block Grant 
Program. It's a simple reauthorization. This would create jobs, help 
consumers save on their energy bills, and reduce carbon pollution. In 
fact, a national evaluation of the program's effectiveness found that 
just one year of funding avoided the emission of 25.7 million metric 
tons of carbon equivalent. Imagine what could happen if we provided 
funding for this program over several years. When this program was last 
funded, state and local governments were able to pursue a wide range of 
projects from energy retrofits to deployment of LED street lighting and 
solar energy systems to EV charging stations and alternative fuel 
pumps. These same cities and communities, backed by the U.S. Conference 
of Mayors and the National League of Cities, support reauthorization of 
this program.
    This is just one of many policy ideas that this committee will hear 
about and there are many others you should consider. I urge this 
committee to act with the urgency that this crisis demands before it is 
too late.

    Ms. Castor. Outstanding. Thank you so much.
    Ms. Pingree, thank you for your leadership, especially your 
attendance at our last hearing. You are recognized for 5 
minutes.

  STATEMENT OF THE HON. CHELLIE PINGREE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF MAINE

    Ms. Pingree. Thank you very much, Madam Chair. Thank you 
for letting me attend that hearing. And thank you and the 
entire committee for the incredible work that you are doing, 
and also for letting us have this day where Members give their 
input. Just as a little aside, I feel you look very regal there 
in this committee room and that should be captured forever. We 
will give you a wand and it will be done.
    So I will submit my longer written testimony, but I just 
want to summarize a few things while we are talking here today. 
I want to just highlight some of the ways that climate crisis 
is affecting my home State of Maine, as well as some of the 
solutions that we are discussing and implementing. For Maine 
and so many other communities across the Nation, as I have 
heard listening to my colleagues speak, it is just not an 
abstraction; it is a tangible threat to our communities, to the 
people who live there.
    Farmers in the State of Maine are being impacted by the 
changing growing season and extreme weather events. The 
productivity of our State forest is threatened by temperature 
changes and invasive species. The ocean in the Gulf of Maine is 
warming at a rate 99 percent faster than the rest of the world, 
so you can imagine that we are frightened about that. Sea level 
off of our coast is 8 inches higher than it was in 1950, and 
continuing to rise at a rate of 1 inch every 8 years, 
threatening homes and businesses.
    Ocean acidification is yet another problem that we are 
dealing with, but the good news is, earlier this year, the 
Maine legislature and our brand-new Governor, Governor Mills, 
enacted a sweeping bipartisan climate change bill that will put 
us in the forefront of taking on many of these challenges. We 
want to be ahead of the curve, and let me just tell you a 
couple of ways we are doing that.
    For the last 10 years, the University of Maine has led in 
developing an economic way to harness renewable energy, and 
last week, our Public Utilities Commission approved a contract 
for Maine AquaVentus. This is the first of its kind floating 
offshore wind pilot project which was developed at the 
university. It is expected to provide a tremendous amount of 
energy, but also $152 million in economic input and more than a 
thousand jobs.
    We have a lot of concerns about the ocean. We are doing a 
tremendous amount of research at our universities and our 
scientific institutions, whether it is about sea level rise or 
the future of our lobsters. But let me tell you about just one 
business that has taken this on themselves. One company noting 
the changes in the oyster stock due in part to increasing 
acidification where he farms, Bill Mook of Mook Sea Farm, 
started adapting his business. He created a filtration system 
to ensure appropriate pH levels are maintained to protect the 
growing shellfish. He is also growing his own oyster food 
through a unique heterotrophic method to produce algae. This 
unique process differs from the industry standard phototrophic 
process and reduces time, labor, and electrical cost, and most 
importantly, allows him to adapt so that he can continue in 
business.
    Our forest industry has a lot of innovative programs going 
on. We are the most forested State in the Nation, and we have 
been working on a lot of renewable products made from wood, 
including nanocellulose, which will be used in bioplastics and 
fully recyclable materials, also cross-laminated timber, which 
is now being used in buildings from 6 to 10 stories high. Far 
more sustainable, less of a carbon footprint than steel or 
cement.
    As you know, I was lucky to attend your agriculture 
hearing, and I have been working on this issue, in particular 
myself, and working on a bill which I hope to share with your 
committee and even more ideas. But I did start with a set of 
principles. Those are to prioritize soil health initiatives, to 
protect farmland and improve farm-viability, to support 
pasture-based livestock systems, and invest in on-farm and 
rural energy initiatives, and reduce food waste.
    Let me just quickly tell you about a couple of those 
projects that are going on in Maine. We just recently announced 
OpenTEAM. It is a private-public partnership with the Wolfe's 
Neck Center for Agriculture and Environment and Stonyfield 
Organic, as well as research which comes from the Foundation 
for Food and Agriculture Research, which receives their funding 
through the farm bill. This will create a platform that farmers 
can use and deal with the question that comes up frequently, 
how do we measure the amount of carbon being sequestered in the 
soil and how do we make sure farmers receive that award.
    As many of my colleagues have mentioned, farmers are ahead 
of the curve in many places. They can be an incredible ally in 
helping us to sequester carbon, and we need to use them in 
partnership in anything that we do.
    Another interesting project is Exeter Agri-Energy. They 
take the manure from a thousand cows, as well as the food waste 
from our largest grocery store chain, they use an anaerobic 
biodigester, and then they turn it into fertilizer bedding, but 
more importantly, they convert it to electricity. They don't 
have to use the natural gas pipelines, and it is an excellent 
way both to deal with manure that is produced on farms as well 
as food waste, which about 30 percent of the food is wasted in 
this country, and we can't underestimate the challenges that 
the methane that it produces provide to our environment.
    You have a huge charge in front of you. I am so grateful 
that this committee exists and the hard work that you are all 
doing, and thank you for letting me give my input today.
    [The statement of Ms. Pingree follows:]
                              ----------                              --
--------


                 Testimony of the Hon. Chellie Pingree

          A Representative in Congress from the State of Maine

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Thank you to Chairwoman Castor, Ranking Member Graves, and Members 
of the Select Committee on the Climate Crisis for holding this Member's 
Day event and for the opportunity to speak today. I would like to 
highlight the ways the climate crisis is affecting my home state of 
Maine, as well as discuss solutions being developed and implemented 
there that can serve as models for other communities and are potential 
areas for new or further federal investment.
    For Maine and so many communities across our nation, climate change 
is not an abstraction, but rather a tangible threat to local economies 
and the people who live in them. Farmers are already being impacted by 
changing growing seasons and extreme weather events. The productivity 
of our state's forests is also threatened as the temperature changes 
and invasive species outbreaks increase. Additionally, the ocean in the 
Gulf of Maine is warming at a rate 99 percent faster than the rest of 
the world. The sea level off our coast is 8 inches higher than it was 
in 1950, and it is continuing to rise at the rate of about 1 inch every 
8 years, threatening homes, businesses, ecosystems, and endangered 
species. Ocean acidification is another harmful side effect of climate 
change. Almost 30 percent of carbon dioxide emissions are absorbed by 
our oceans, and as our oceans get warmer, their composition changes, 
further affecting the ways aquatic plants and animals grow.
    This all poses a massive threat to Maine's key industries. Farms, 
forests, fisheries, working waterfronts, and tourism are all grappling 
with the implications of changing temperatures. The future of Maine's 
communities, economy, and the lives and health of our citizens depends 
on policymakers' ability to confront the challenge of the climate 
crisis.
    But Maine is not standing idly by; we are tackling this challenge 
head-on. Earlier this year, the Maine Legislature and Governor Mills 
enacted a sweeping bipartisan climate change bill, which includes 
slashing greenhouse gas emissions by 80 percent and increasing the 
amount of electricity from renewable sources to 100 percent by 2050. In 
addition, the legislation created a 35-member Maine Climate Council 
charged with developing specific plans to meet these goals. Although 
the Governor's goals seem lofty, they are in keeping with the spirit of 
innovation on display by so many of our public and private sector 
citizens. Our state motto, Dirigo, means ``I lead,'' and Mainers are 
demonstrating that leadership in many fields.
    For over 10 years, the University of Maine has led the country in 
developing an economical way to harness renewable wind energy in deep 
ocean waters. Last week, the Public Utilities Commission approved a 
contract for Maine Aqua Ventus, a first-of-its-kind floating offshore 
wind pilot project developed at the University. This project is poised 
to be the first offshore wind project in the country that features a 
floating platform. In addition to providing renewable energy, the 
University has estimated the project will produce nearly $152 million 
in total economic output and more than 1,000 Maine-based jobs.
    Individual citizens are also taking action. After noting the 
changes in his oyster stock due in part to increasing acidification in 
the water ways where he farms, Bill Mook of Mook Sea Farm started 
adapting his business. He created a filtration system to ensure 
appropriate pH levels are maintained to protect the growing shellfish. 
He is also growing his own oyster food through a unique heterotrophic 
method to produce algae. This unique process differs from the 
industry's standard phototrophic process and reduces time, labor, and 
electrical costs.
    Additionally, Maine's forestry sector provides a range of solutions 
to climate change, from creating wood products to providing renewable 
energy sources. Maine has the highest percentage of forest land in the 
country, the vast majority of which is privately owned. Exciting new 
technologies are being developed in Maine that convert forest residues 
from harvesting and processing wood into renewable chemicals, biofuels, 
and other bio-based materials. For example, the University of Maine's 
Advanced Structures and Composites Center has developed a way to make 
nano cellulose for use in bio-plastics and fully recyclable materials 
using wood products and lumber.
    The intersection of agriculture and climate change is especially of 
interest to me, having been an organic farmer since the 1970s. Earlier 
this year, I released a document with five principles to help guide 
discussions around climate change and agriculture, and I am currently 
working on legislation that I look forward to sharing with the Select 
Committee. Those five principles are:
          <bullet> prioritize soil health initiatives;
          <bullet> protect farmland and improve farm viability;
          <bullet> support pasture-based livestock systems;
          <bullet> invest in on-farm and rural energy initiatives; and
          <bullet> reduce food waste.
    I would like to thank the Select Committee for holding a hearing on 
agriculture last month, including a farmer on the panel, and 
facilitating a conversation that recognizes how vital farmers are to 
climate change mitigation and adaptation. Agriculture is one of the few 
industries that can actually reverse the effects of climate change by 
storing carbon in the soil. We have not given farmers enough credit for 
this fact, and I am excited about the efforts in the private sector to 
figure out how we can better compensate farmers for the ecosystem 
services they provide.
    One innovative project in Maine that will help farmers sequester 
more carbon and reduce greenhouse gas emissions is OpenTEAM, or Open 
Technology Ecosystem for Agricultural Management. OpenTEAM is a public-
private partnership between Wolfe's Neck Center for Agriculture and the 
Environment based in Freeport, Maine; Stonyfield Organic; and 
Foundation for Food and Agriculture Research, which receives farm bill 
funding. Right now farmers have a multitude of options when it comes to 
decision-making software, but most of those platforms do not 
communicate with one another so it is difficult to share information up 
and down the supply chain. OpenTEAM is an interoperable platform to 
help farmers make soil health decisions by offering a range of tools in 
one place, from carbon measurement to remote sensing.
    Confronting the climate crisis requires us all to work together to 
develop, implement, and share the best solutions. States, communities, 
and individuals have already begun this work, and I look forward to 
continuing to work with the Select Committee as you develop policy 
recommendations. I would like to again thank the Committee for your 
important work on this topic.

    Ms. Castor. Well, you are just getting started, 
Congresswoman. Thank you very much for your leadership, and I 
look forward to working with you.
    Dr. Schrier, welcome. You are recognized for 5 minutes.

STATEMENT OF THE HON. KIM SCHRIER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Ms. Schrier. Thank you, Madam Chair. It has been an 
absolute delight to hear so many of my colleagues talking about 
this issue. It is very refreshing, so thank you for having this 
special committee.
    I wanted to talk about this issue because, if there was 
ever an issue that would unite our country and should unite the 
world, it is really combating climate change. And you have 
heard from a lot of people here about how it is affecting their 
States. Washington State is not very different. We are in the 
West. We have wildfires that are growing in intensity, scope, 
and duration. We have warming tributaries, warming rivers that 
are affecting our Chinook salmon population and others. Kids 
are getting asthma because of these wildfires, and you heard 
from Derek Kilmer about displaced Native American populations.
    But it turns out that wherever you are in the country, 
frankly, wherever you are in the world, there is one population 
that suffers more than any other, and that is kids. Whether it 
is from natural disasters and seeing their house disappear, 
whether that is from asthma attacks, whether that is from 
changes in nutrients or even from vector-borne diseases or 
cholera, kids are suffering the most and stand the most to 
lose.
    There are a couple ways that I am looking to address this. 
One is that we just had a study out yesterday that confirmed 
that children are the most affected, but we also recently had a 
study about nutrients in plants and in agriculture. And it 
turns out that with more CO<INF>2</INF>, you would think that 
plants would grow better, and it turns out that they do grow 
well, but they increase, you know, in carbohydrate, and at the 
same time, there is decreased protein, B vitamins, iron, zinc, 
and foliate. And here in this country, we can take a 
multivitamin, but there is a lot of places around this country 
where potatoes, wheat, and rice really make up the main part of 
people's diets and children's diets, and a zinc or iron-
deficient child has less potential for learning, for growth, 
and for everything else. Not to mention that pregnant women who 
don't get enough foliate, and there is about a 30 percent 
decrease in foliate, have a much higher risk of having children 
with neural tube defects.
    And so this issue of food and nutrients becomes a pressing 
one for our global community, and so I am close to introducing 
a bill to make sure that we can have more research into the 
effects of climate change on nutrients and also incentivizes 
researchers to look into how we can remedy the problem and find 
a solution.
    There is another area where I can see a need for 
improvement here, which is to take on this issue of vector-
borne diseases. Think about Dengue fever, think about Zika 
virus and what would happen if that made a great entrance into 
the United States and what affect that would have on 
generations. And so having NIH funding for research into 
vaccinations for vector-borne diseases would be critical.
    The last thing I wanted to talk about is that I wanted to 
thank you, first, for having paper cups and pitchers of water, 
because I find on a daily basis that I am aggravated by the 
amount of plastic that is used here in the Capitol. So Haley 
Stevens and I have created a plastics caucus, and I have 
already drafted a letter to Representative Zoe Lofgren, 
chairman on the House Committee on Administration, with the 
goal of having a more sustainable Capitol, that we should be 
leading on this, and how hypocritical, frankly, is it for 
Democrats to be leading and to still have plastic water bottles 
at all of our meeting rooms and breakfasts. And so this letter 
concerns making sure that anything that is sold to or offered 
for sale in the Capitol should be sustainable. This means 
getting rid of the plastic silverware that we use, and the next 
step is making a huge dent in single-use plastics.
    I think that is all I have to add today. I wanted to thank 
you very much for hosting this, and I am excited to partner 
with you and my colleagues on all of these issues. Thank you.
    [The statement of Ms. Schrier follows:]
                              ----------                              --
--------


             Testimony of the Hon. Kimberly ``Kim'' Schrier

       A Representative in Congress from the State of Washington

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    I want to express my appreciation for the work Chairwoman Castor 
and her staff are putting forth on the critical issue of climate 
change. In my mind, there is no greater threat facing our world today 
and our actions, and our inaction or inaction, will have consequences 
for generations to come.
    As a pediatrician, I have seen firsthand the impact climate change 
is having on our children. Increased rates of asthma, longer allergy 
season, and increased risk of disease. Pregnant women and children are 
especially vulnerable to these changes.
    According to the Lancet Countdown's 2019 report, which was released 
yesterday, global air pollution driven by fossil fuels, and compounded 
by climate change, led to seven million premature deaths. Already in 
2016, there were 2.9 million premature pre-mature deaths related to 
increasing pollution.
    A warming climate is resulting in lower crop yields and affecting 
the overall nutritional density of our foods. Research has shown that 
carbon dioxide (CO<INF>2</INF>) levels this century will alter the 
protein, micronutrients, and vitamin content of staple crops around the 
world. One of the few studies which looked at this issue involved 
researchers from the University of Washington, the USDA and 
international partners. They looked at 18 rice lines and grew them 
under conditions that you would expect later in the century. Among the 
findings included a 30 percent decline in folate. Folate is critical 
for healthy child development. Pregnant women who don't get enough 
folate are at much higher risk of having babies with birth defects.
    I am working on a bill now to ensure our researchers have dedicated 
funding to study this issue further and proactively address it.
    I also want to note that as temperatures rise, there is more of a 
chance for disease to spread. Nine of the 10 most favorable years for 
the spread of dengue fever have happened since 2000, and vector borne 
disease is on the rise. These things can be mitigated.
    Thank you again for the opportunity to speak on such an important 
issue and I yield the remaining amount of my time.

    Ms. Castor. Well, thank you very much for your testimony. 
You know, as a pediatrician, you bring such a unique 
perspective to the issues of the climate crisis, and we are 
going to need your help going forward. So thank you very much.
    Next I am going to turn to my colleague from the Energy and 
Commerce Committee.
    Mr. Kennedy, you are recognized for 5 minutes.

 STATEMENT OF THE HON. JOSEPH P. KENNEDY III, A REPRESENTATIVE 
          IN CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Kennedy. Madam Chair, thank you. Thank you for your 
extraordinary leadership on this issue and so many others. 
Thank you for convening this opportunity for Members to 
contribute their input and for bringing us all together today.
    If we are going to confront a multigenerational crisis like 
climate change, we must pay close attention to our prior 
failures--not just failed environmental policies and the 
illogical idea that reducing environmental regulation would 
somehow encourage fossil-fuel companies to protect our air, 
water, and land on their own, but the reforms that Congress and 
administrations have championed for decades that too often left 
far too many clinging to the margins of our Nation.
    A New Deal that excluded agricultural workers and domestic 
workers from its benefits and protections. A National Housing 
Act that institutionalized redlining and housing discrimination 
so effectively that it has resulted in a staggering racial 
wealth gap that still persists today. A GI Bill that denied 1.2 
million black veterans the same benefits that lifted up 
millions of white veterans who fought shoulder-to-shoulder on 
the same battlefields. A war on drugs where the enemy was far 
too often young black men rather than the drugs devastating our 
communities. A welfare reform bill that implemented work 
requirements on striving Americans and denied them access to 
critical antipoverty programs that would have otherwise lifted 
them out of poverty.
    War, poverty, employment, housing, justice--all of it 
shaded by our inability or unwillingness to see entire segments 
of our society at the moment when they needed the help the 
most.
    Now, as climate change threatens our way of life, we are 
dangerously close to repeating those same mistakes of our past. 
Wildfires burn thousands of homes in California, and we see how 
effective fire prevention efforts save wealthy areas while 
displaced families go homeless because affordable housing is 
nowhere to be found.
    A hurricane that causes increased devastation because of 
nonexistent zoning laws in Texas garners immediate government 
attention, but one that leaves Puerto Ricans hungry, homeless, 
and helpless receives government derision. Wealthy beachfront 
homeowners leverage flood insurance to boost property values on 
second or third homes, while working Americans have seen their 
home value crater as sea level rises.
    Nearly 80 percent--80 percent--of African Americans live 
within 30 miles of a coal plant, breathing in toxic chemicals 
and living with the health consequences of generations of 
deference to fossil fuels. More than 80 percent of Latinos live 
in American counties where at least one Federal air pollution 
law has been violated.
    In cities across our country, low-income communities suffer 
from extreme-heat zones and lack of tree canopy and air 
conditioning, raising the risks of asthma and heart disease for 
people already living in areas with limited access to quality, 
affordable healthcare.
    The climate crisis is intersectional, it is 
intergenerational, and it demands that we acknowledge and 
address the failures of our past, which is why we must seek 
more than old ideas of incremental change and, instead, demand 
a climate justice that looks deeper than the purity of our air 
and water; why any carbon tax must be more than a regressive 
tax passed along to rate payers at a higher cost but, instead, 
an investment in the low-income communities that have been left 
on the front lines of the economic and healthcare costs of 
inaction.
    But any plan for green jobs and green energy cannot be 
allowed to lead to green gentrification that pushes out 
residents who have been forced to breathe dirty air and drink 
harmful water and, instead, lifts those working Americans up 
with careers in emerging green-economy sectors through policies 
like the Blue Collar to Green Collar Jobs Development Act.
    Any tax credits that incent clean-energy expansion, like 
offshore wind, should be targeted towards corporations that 
build these emerging sectors in low-income communities, train 
American workers, and create American jobs.
    Any structural reforms in how regulators approve energy 
development should be transparent and accountable to the 
consumers who will be left with the bill.
    Now, as we make this transition to a new energy future, any 
existing or proposed energy infrastructure projects must not be 
approved solely on its individual merit but on how it fits into 
a broader energy and climate landscape.
    Climate change on its own does not discriminate. It targets 
us all. But just as human activity undeniably causes climate 
change, human choices have put communities of color and low-
income Americans in its cross-hairs.
    Now we are presented with an opportunity to right the 
wrongs of our past and do right by generations that will follow 
in our footsteps. Working with this select committee, I know we 
can bring those communities who have been on the front lines to 
the forefront of this debate and the policies that will emerge 
from it.
    Thank you. Thank you for your leadership.
    [The statement of Mr. Kennedy follows:]
                              ----------                              


          Testimony of the Hon. Joseph ``Joe'' P. Kennedy III

      A Representative in Congress from the State of Massachusetts

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Thank you, Chairwoman Castor, for convening this Member Day and for 
your leadership of this Select Committee on the Climate Crisis.
    If we are going to confront a multigenerational crisis like climate 
change, we must pay close attention to our prior failures.
    Not just failed environmental policies and the illogical idea that 
reducing environmental regulations would somehow encourage fossil fuel 
companies to protect our air, water and land on their own.
    But the reforms that Congress and Administrations have championed 
for decades that too often left too many clinging to the margins of our 
nation.
    A New Deal that excluded agricultural workers and domestic workers 
from its benefits and protections.
    A National Housing Act that institutionalized redlining and housing 
discrimination so effectively that it resulted in staggering racial 
wealth gap that still exists today.
    A GI Bill that denied 1.2 million black veterans the same benefits 
that lifted up millions of white veterans who fought shoulder-to-
shoulder in the battlefield.
    A War on Drugs where the enemy was far too often young black men 
rather than the drugs devastating our communities.
    A welfare reform bill that implemented work requirements on 
striving Americans and denied them access to critical anti-poverty 
programs that would have otherwise lifted them out of poverty.
    War. Poverty. Employment. Housing. Justice. All of it shaded by our 
inability or unwillingness to see entire segments of our society at the 
moment they needed our help most.
    Now, as climate change threatens our very existence, we're 
dangerously close to repeating the same mistakes of our past.
    Wildfires burn thousands of homes in California and we see how 
effective fire prevention efforts save the Reagan Library and some 
wealthier mansions while displaced families go homeless because 
affordable housing is nowhere to be found.
    A hurricane that causes increased devastation because of 
nonexistent zoning laws in Texas garners immediate government attention 
but one that leaves Puerto Ricans hungry, homeless and helpless 
receives government derision.
    Wealthy beachfront homeowners leverage flood insurance to boost 
property values on second and third homes while working Americans see 
their home value crater as sea levels rise.
    Nearly 80% of African Americans live within 30 miles of a coal 
plant--breathing in toxic chemicals and living with the health 
consequences of our deference to fossil fuels.
    More than 80% of Latinos live in American counties where at least 
one federal air-pollution law has been violated.
    In cities across our country, low-income communities suffer from 
extreme heat zones and a lack of tree canopy and air conditioning, 
raising the risks of asthma and heart disease for people already living 
in areas with limited access to quality, affordable health care.
    The climate crisis is intersectional and intergenerational and 
demands that we acknowledge and address the failures of our past. 
That's why we must seek more than old ideas of incremental change and 
instead demand climate justice that looks deeper than the purity of air 
and water.
    Why any carbon tax must be more than a regressive tax passed along 
to ratepayers as higher costs, but instead an investment into the low-
income communities that have been left with the economic and health 
costs of inaction.
    Any plan for green jobs and green energy cannot be allowed to lead 
to green gentrification that pushes out the residents who have been 
forced to breathe dirty air and drink harmful water, and instead lifts 
those working Americans up with careers in this emerging green economy 
through policies like the Blue Collar to Green Collar Jobs Development 
Act.
    Any tax credits that incent clean energy expansion like offshore 
wind should be targeted towards corporations that build these emerging 
sectors in low-income communities, train American workers and create 
American jobs.
    Any structural reforms in how regulators approve energy development 
should be transparent and accountable to the consumers who will be left 
with the bill.
    And as we make this transition to a new energy future, any existing 
or proposed energy infrastructure projects must not be approved solely 
on its individual merit, but how it fits into the broader energy and 
climate landscape.
    Climate change on its own does not discriminate--it targets us all.
    But just as human activity undeniably causes climate change--human 
choices have put communities of color and low-income Americans in its 
crosshairs.
    Now, we are presented with an opportunity. To right the wrongs of 
our past and do right by the generations that will follow in our 
footsteps.
    Working with this Select Committee, I know we can bring those 
communities that have been on the frontlines to the forefront of this 
debate and the policies that will emerge from it.
    Thank you.

    Ms. Castor. Thank you, Mr. Kennedy, for bringing a moral 
clarity to our discussion today.
    Mr. Rouda, you are recognized for 5 minutes. Welcome.

    STATEMENT OF THE HON. HARLEY ROUDA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Rouda. Thank you, Madam Chair. I will be submitting 
written testimony, but I wanted to say a few words.
    Where we have built our farms, our cities, and our homes 
are all based on predictable weather patterns over the last 
thousand years. When we raise the ambient temperature of our 
atmosphere by even a few degrees, where we have built, 
literally, our homes, our cities, and our farms are in the 
wrong place because of these shifting weather patterns.
    That is why there are estimates right now of over 200 
million climate change refugees by the year 2050. This is the 
largest mass migration of humankind since World War II. There 
will be competition for water, food, and safe areas around the 
world.
    And when you look at the fact that 40 percent of the 
world's population sits in coastal communities and 50 percent 
of the United States population sits in coastal communities, 
you get a sense for how extreme climate change will impact our 
coastal communities and inland areas as well.
    The Department of Defense has recognized that climate 
change is a primary threat to our national defense. It has also 
been estimated that over $300 billion will be needed to upgrade 
defense installations around the world, with a significant 
number of them being in coastal areas.
    In California, where I am from, Orange County, it has been 
shown that in the last 100 years we have seen our oceans rise 
by only 9 inches in the State of California, but the 
projections are, through the end of this century, that we are 
looking at a 9-foot rise in sea levels.
    So my bill, the Coastal Communities Adaptation Act, H.R. 
1317, provides the assets and resources for coastal communities 
to be able to address climate-change impact on their ability to 
maintain some level of support in addressing how it is going to 
impact their communities and make a difference in the lives of 
those in those communities.
    And, again, emphasizing the fact that 50 percent of 
Americans live in coastal communities, you can see how 
important this legislation would be for their ability to 
maintain their neighborhoods.
    I appreciate the opportunity to testify here today and 
yield back. Thank you.
    [The statement of Mr. Rouda follows:]
                              ----------                              


                   Testimony of the Hon. Harley Rouda

       A Representative in Congress from the State of California

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    I would like to thank Chairwoman Castor and Ranking Member Graves 
for providing this opportunity to come and testify today to recommend 
an important piece of legislation aimed at ensuring that our 
communities are resilient to the impacts of climate change.
    As you and the members of this committee already know, climate 
change is not only real--it is already happening and Americans 
throughout the country are experiencing serious effects.
    That's why, earlier this year, I introduced H.R. 1317, The Coastal 
Communities Adaptation Act. This piece of legislation is important to 
the district I represent and coastal districts across the country and 
has earned the support of 33 cosponsors.
    For far too many coastal districts like the one I represent, 
climate change has already increased the frequency of coastal flooding, 
including what we would consider ``regular'' tidal floods. The 
combination of water expansion as the ocean has warmed and the melting 
of land ice into the oceans has driven sea level up about seven inches 
since 1990, and this rise is accelerating.
    Just this summer, the Los Angeles Times reported that, ``In the 
last 100 years, the sea rose less than 9 inches in California. By the 
end of this century, the surge could be greater than 9 feet.''
    My bill would jumpstart research and grant funding by the National 
Science Foundation (NSF) and the National Institute for Standards and 
Technology (NIST) into improved buildings and structures to account for 
extreme weather, create a prize competition to stimulate innovation for 
new techniques into natural shoreline risk reduction measures, direct 
the Department of Housing and Urban Development (HUD) to promote the 
adoption of windstorm preparedness and mitigation measures for HUD-code 
housing units, and order new research by National Oceanic and 
Atmospheric Administration (NOAA) into the use and effectiveness of 
nature-based and nonstructural approaches to reduce flood risk.
    Higher sea levels mean that deadly and destructive storm surges 
push farther inland and bring more frequent flooding to coastal 
communities. With sea levels expected to continue to rise, many 
vulnerable coastal populations will be further impacted. What was once 
a niche planning effort to limit seasonal storm damage is now a broad 
effort to integrate hazard planning and water management into all 
aspects of local comprehensive plans and related development codes.
    We must consider high and extreme sea levels when making decisions 
that directly impact people and critical resources in coastal 
California and in the other 29 coastal states (including Great Lake 
states) across the country.
    Coastal communities recognize the necessity of integrating climate 
change considerations into their planning--resiliency planning is a 
fundamental part of how communities plan, grow, and prosper. This is 
not a one-size-fits-all solution to a diverse and multi-faceted 
challenge. The financing tools provided by my bill will help 
communities large and small turn their unique resiliency plans into a 
safer reality.
    The shorelines of Louisiana, Virginia, and Texas are shrinking. 
Beaches in North and South Carolina are disappearing. Places like 
Florida, Hawaii, and Guam are already drowning. And, California's coast 
is eroding more and more with each storm surge.
    Our coastal lands are treasured natural resources, and they are 
also something else--they are places that many Americans call home. 
This is about more than sandy beaches, surf breaks, and boardwalks--
this is about our lives, our businesses, and critical infrastructure.
    Thank you again for the opportunity to testify today, and I urge 
the Select Committee to consider supporting this legislation because we 
need to address the reality of climate change if we want to maintain 
the same quality of life--our planet's oceans will not wait until we're 
ready--sea levels will continue to rise, whether we are prepared or 
not.

    Ms. Castor. Well, thank you very much. As a Member who 
represents a coastal community, I will look forward to 
reviewing your legislation. Thank you for being here.
    Mr. Rouda. Thank you.
    Ms. Castor. Speaking of a coastal community, you can't get 
much more coastal than the Florida Keys and South Miami-Dade. 
Thank you, Congresswoman Mucarsel-Powell, for touring me around 
to see the climate impacts in your district.
    You are recognized for 5 minutes.

STATEMENT OF THE HON. DEBBIE MUCARSEL-POWELL, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF FLORIDA

    Ms. Mucarsel-Powell. Thank you, Madam Chair.
    And thank so much for taking the time to come down to south 
Florida and my beautiful district. And as we discussed last 
week and you saw firsthand, we really are ground zero for the 
effects of climate change.
    The storms are getting much stronger. We see continued sea-
level rise, which is already affecting our infrastructure. And, 
more urgently, what we are seeing recently is that our coral 
reefs are dying; the rainforests of our oceans are dying. So it 
is definitely a very urgent situation for my district, along 
with so many other coastal communities.
    I wanted to bring attention to this picture. Parts of Key 
Largo and many areas of south Florida have experienced more 
than 40 days of flooding due to king tides just this fall 
alone, fall of 2019. And king tides, as they are called, they 
are normal to a certain point, because they are the result of 
the gravitational pull of the sun and the moon as well as the 
low pressure systems and strong winds. But, this year, the 
flooding has been higher and longer than we can ever remember. 
And with sea-level rise and changing weather patterns, it will 
only get worse. And so this is definitely something that we 
have seen just this year alone.
    Climate change is not only an environmental issue; it is 
something that we have to deal with in the far off--not 
something that we are going to have to deal with in the far-off 
future. It is already changing our way of life. It is putting 
our property in the path of destruction. It is already 
affecting our fishing industry, our tourism industry, and our 
economy as a whole.
    And while some want to put their heads under the sand on 
this issue, I think that we are stepping up to the challenge in 
south Florida, and I am very, very proud of my community and 
the steps that we are taking. I don't want to only be an 
alarmist. I want to bring solutions to the table that we can 
actually address and take action on immediately.
    So Florida International University, in my district, is 
filled with forward-thinking, creative, and innovative minds 
that are working every single day, all day long, trying to come 
up with ways not only to fight climate change but also to adapt 
to the consequences that climate change will inevitably bring.
    Researchers there are working to advance green 
infrastructure initiatives, which you were able to see 
firsthand, like protecting our coral reefs and seagrass beds, 
which dissipate wave action; restoring coastal wetlands, which 
clean our fresh water; and restoring our mangroves, which 
absorb vast amounts of CO<INF>2</INF>. They protect against 
storm surges and also weaken strong winds.
    I know that here in Congress, with the will and commitment, 
we can support these innovative efforts.
    So some of the work that our researchers have done, which I 
am really proud to show you here--and I will leave you one so 
that you can take a look--is, at the FIU's Institute of 
Environment, they have printed these 3D mangroves that are made 
out of Eco-Cement, and they can actually be planted along our 
coasts. And they will restore the natural growth of other 
mangroves, so it will act as a foundation for creating new 
habitat.
    And all we need is the commitment to support innovation 
like what we are seeing right in my district, in Florida's 26th 
District, at FIU and invest in these ideas. We can do it here 
in the United States, but we just can't wait any longer.
    So I really am grateful for your support, for coming down, 
and to allow us to testify today before your committee.
    [The statement of Ms. Mucarsel-Powell follows:]
                              ----------                              


              Testimony of the Hon. Debbie Mucarsel-Powell

         A Representative in Congress from the State of Florida

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Thank you, Chairwoman Castor. And thank you again so much for 
taking the time last week to visit my beautiful district in South 
Florida. As we discussed and saw first-hand, South Florida--and more 
specifically--the Florida Keys, is ground zero for climate change.
    We are seeing dramatic sea level rise. We are seeing stronger 
storms. And our coral reefs--the rainforests of the ocean--are dying.
    I'd like to bring your attention to this picture. Parts of Key 
Largo and many areas of South Florida experienced more than 40 days of 
flooding. King tides, as these are called, are normal to a certain 
point, because they are the result of the gravitational pull of the sun 
and the moon, as well as low pressure systems and strong winds. But 
this year, the flooding is higher and longer than we can remember. And 
with sea level rise and changing weather patterns, it will only get 
worse.
    Climate change is not just an environmental issue, and it's not 
something that we have to deal with in the far-off future. It is 
already changing our way of life. It is already putting our property in 
the path of destruction. It is already affecting our fishing industry, 
our tourism industry, and our economy as a whole.
    While some have chosen to put their heads in the sand on this 
issue, South Florida is stepping up to the challenge.
    Florida International University in my district is filled with 
forward-thinking, creative, and innovative minds that are working day 
in and day out, coming up with ways to not only fight climate change, 
but also adapt to the consequences that climate change will inevitably 
bring. Researchers there are working to advance green infrastructure 
initiatives, like protecting coral reefs and sea grass beds, which 
dissipate wave action, restoring coastal wetlands, which clean our 
fresh water, and restoring our mangroves, which absorb vast amounts of 
CO<INF>2</INF>, protect against storm surges, and weaken strong winds.
    In Congress, we must support innovative efforts, like researchers' 
work at FIU's Institute of Environment to 3-D print mangroves using 
eco-cement. These can then be planted along our coasts to help restore 
natural mangrove stands and act as a foundation for new habitats.
    Innovation like this is the answer. The Committee must take full 
advantage of the talent we have in our own backyard.

    Ms. Castor. Well, thank you again.
    You know, the trip to Florida International University, one 
of the things that stuck with me is when the scientists there 
advised that they thought that hurricanes now are becoming so 
intense that we need to go a Category 6.
    And the juxtaposition of that idea and that thinking with, 
now, the everyday flooding on Key Largo has--I mean, you can't 
help but, after that visit, come back here and say, we have to 
take climate action now. We don't have time to waste. So thank 
you for showing me firsthand the impact in your district.
    You know, in so many ways, it is a slow-moving 
catastrophe--and we heard that from the scientists there--but 
not in your district. Boy, the everyday impacts of extreme 
temperatures, the rising seas, the flooding, the impact on 
coral reefs, it just--it is a call to action.
    Ms. Mucarsel-Powell. Yes. And, you know, a lot of the parts 
in south Florida have been built on top of this coral rock, so 
water seeps very easily through the pavement. So we are seeing 
flooding events that we haven't really seen in the past two, 
three decades.
    It is really urgent, which is why I think that we really 
don't have time to waste, especially when we have ideas and we 
have some great innovation that we can put into effect right 
away just by supporting it. And I think in Congress that is 
something that we need to do right away.
    Ms. Castor. Thank you very much.
    Ms. Mucarsel-Powell. Thank you.
    Ms. Castor. Mr. Malinowski, are you going close us out 
here? Welcome. I am interested in hearing your ideas and 
recommendations. You are recognized for 5 minutes.

   STATEMENT OF THE HON. TOM MALINOWSKI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Malinowski. Thank you so much. Thanks for saving the 
best for last. So thank you so much for having me, and I do 
appreciate the chance to testify on behalf of the Seventh 
District in New Jersey.
    And I want to talk about the climate crisis, of course. And 
I know that I don't need to tell you or anybody on this 
committee that the case for action to prevent climate change is 
strong. Every catastrophic storm, whether it hits Florida or 
New Jersey or any other part of this country, makes the case 
for us.
    Outside the political realm, I don't think anybody really 
disputes it. And yet here in Congress, every time we consider 
doing something, we are confronted with the old, reflexive 
argument that we can't afford it.
    Senator Marco Rubio, somebody who I have known for years, 
actually, and have worked with on many, many issues, recently 
wrote an op-ed, which I am sure you saw, saying that, yes, 
climate change is real, but instead of trying to stave it off, 
we should brace for impact, resigning ourselves to, quote, 
``adaptation.''
    Every plan that has been put forward to actually do 
something to prevent disaster, he said, would, quote, 
``constrain our economy and neutralize our tenuous economic 
advantage over China.''
    Well, I don't just question the morality of that argument; 
I question its connection to economic reality. China today is 
investing three times as much in clean energy as the United 
States. Twenty percent of the energy it consumes comes from 
renewable sources, compared to just 11 percent in the United 
States. Why is China doing this? It is not because the 
Communist Party loves trees. It is because they want to win the 
future. And I am here because I want America to win the future.
    In New Jersey, the companies I meet with are eager to lead 
the way. Their customers demand it. The employees they are 
trying to recruit expect it. What they ask from government is 
that we set a goal, backed by tax and regulatory policies that 
give them an incentive to meet that goal, and that once we 
commit, we stay committed so that they have the confidence to 
make the necessary up-front investments.
    It is what New Jersey has done. We are committed to get to 
50 percent clean power generation by 2030 and 100 percent by 
2050. We should do the same here.
    We have 52,000 jobs in New Jersey in renewable energy, such 
as wind and solar, clean vehicles manufacturing, energy 
efficiency, led by many companies in my district, like Green 
Power Energy in Annandale, New Jersey. That is as many jobs as 
Walmart, UPS, and Verizon combined in the State of New Jersey. 
And we know we can have far more if Washington just follows 
where States and the private sector are leading.
    That is why I am a cosponsor of H.R. 763, the bipartisan 
Energy Innovation and Carbon Dividend Act, which, as you know, 
would put a fee on the production of fossil fuels and return 
the money raised through equal shares to the American people to 
spend as they see fit.
    I recently met with around a dozen large and small 
companies in New Jersey under the auspices of the Chamber of 
Commerce, and I asked them, do you support putting a market 
price on carbon? Every single hand shot up.
    But whatever market-based mechanism we adopt, America's 
leading Fortune 500 companies agree with climate activists, 
with scientists, that it is past time for Congress to catch up 
and start acting. Companies from Bank of America to DuPont, to 
Procter & Gamble, to Johnson & Johnson, The Walt Disney 
Company, have all urged us to stay in the Paris Climate 
Agreement and to take the sorts of actions that will 
incentivize them to do what they want to do.
    There are not a lot of socialists on the boards of those 
companies, Madam Chair, just Americans who want our innovators 
and our entrepreneurs to lead the global movement to a clean-
energy future. Let's stand with them before it is too late.
    Thank you.
    [The statement of Mr. Malinowski follows:]
                              ----------                              


            Testimony of the Hon. Tomasz ``Tom'' Malinowski

       A Representative in Congress from the State of New Jersey

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

                               Member Day

                           November 14, 2019

    Thank you Chairman and Ranking Member. I appreciate the chance to 
testify today on behalf of New Jersey's 7th Congressional District.
    I know I don't need to tell you the case for action to prevent 
climate change. Each catastrophic storm makes the argument for us, on 
top of all the other signs that something is happening to the planet 
that will affect the lives of generations to come. Outside the 
political realm, virtually no one disputes this.
    Yet here in Congress, every time we consider doing something, the 
old--we can't afford it. Senator Rubio, someone I respect and with whom 
I have worked on many issues, recently wrote an oped saying that yes, 
climate change is real, but instead of trying to stave it off we should 
brace for impact, resigning ourselves to ``adaptation.'' Every plan 
that's been put forward to actually prevent disaster, he said, would 
``constrain our economy and . . . neutralize our tenuous economic 
advantage over China.''
    I don't just question the morality of this argument. I question its 
connection to economic reality.
    China today is investing three times as much in clean energy as the 
United States--that's half of all global investment; 20% of the energy 
it consumes comes from renewable sources, compared to just 11% in the 
U.S. Why is China doing this? It's not because the Communist Party 
loves trees. It's because they want to win the future. I'm here because 
I want America to win the future.
    In New Jersey, the companies I meet with are eager to lead the way. 
Their customers demand it. The employees they want to recruit expect 
it. What they ask from government is that we set a goal, backed by tax 
and regulatory policies that give them an incentive to meet that goal. 
And that once we commit, we stay committed so that they have confidence 
to make the necessary upfront investments.
    That's what New Jersey has done. We've committed to get to 50% 
clean power generation by 2030, and 100% by 2050.
    We have 52,000 jobs in areas of renewable energy such as wind and 
solar, clean vehicles manufacturing, and energy efficiency, led by many 
companies in my district, like Green Power Energy in Annandale, NJ--
that's as many jobs as in Walmart, UPS and Verizon combined, and we 
know we can have far more if Washington just follows where states and 
the private sector are leading.
    This is why I am a cosponsor of H.R. 763, the bipartisan Energy 
Innovation and Carbon Dividend Act, which would put a fee on the 
production of fossil fuels and return the money raised through equal 
shares to the American people to spend as they see fit.
    I recently met with around dozen large and small companies in New 
Jersey under the auspices of the Chamber of Commerce. I asked them if 
they support putting a market price on carbon--every one immediately 
said yes, that it would encourage and reward the very things they want 
to do.
    But whatever market-based mechanism we adopt, America's leading 
Fortune 500 companies agree with climate activists and scientists that 
it's past time for Congress to catch up and start acting. Companies 
from Bank of America to Dupont to Proctor & Gamble to Johnson & Johnson 
have all urged us to stay in the Paris Climate Agreement.
    There are not a lot of socialists on their boards, Mr. Chairman. 
Just Americans who want our innovators and our entrepreneurs to lead 
the global movement to a clean energy future. Let's stand with them 
before it's too late. Thank you.

    Ms. Castor. Thank you, Mr. Malinowski.
    Your expertise in foreign affairs will prove invaluable to 
this committee. We need your thoughtful, reasoned 
recommendations as we develop our policy recommendations. And I 
would like to continue the dialogue with you after this on what 
we need to be doing through Foreign Affairs to give our 
businesses, give our families, give our scientists every 
opportunity to compete on a level playing field across the 
globe.
    Mr. Malinowski. Thank you. If we don't do it, someone else 
will.
    Ms. Castor. Thank you.
    All right. So I really appreciate the professional staff, 
all the input of the Members today. We are going to wrap a lot 
of the recommendations we heard here into our policy 
recommendations going forward. So thank you all very much.
    The committee is adjourned.
    [Whereupon, at 4:31 p.m., the committee was adjourned.]

                                  <all>
</pre></body></html>
